<html>
<title> - BRIDGE SAFETY: NEXT STEPS TO PROTECT THE NATION'S CRITICAL INFRASTRUCTURE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                       BRIDGE SAFETY: NEXT STEPS
                        TO PROTECT THE NATION'S
                        CRITICAL INFRASTRUCTURE

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 19, 2007

                               __________

                           Serial No. 110-53

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science



                                     
                    U.S. GOVERNMENT PRINTING OFFICE
37-641                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio


                            C O N T E N T S

                           September 19, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........     7
    Written Statement............................................     7

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................     9

Statement by Representative David Wu, Chairman, Subcommittee on 
  Technology and Innovation, Committee on Science and Technology, 
  U.S. House of Representatives..................................    10
    Written Statement............................................    11

Statement by Representative Phil Gingrey, Minority Ranking 
  Member, Subcommittee on Technology and Innovation, Committee on 
  Science and Technology, U.S. House of Representatives..........    11
    Written Statement............................................    13

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    13

Prepared Statement by Representative Russ Carnahan, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    14

Prepared Statement by Representative Charlie Melancon, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    14

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    15

                               Witnesses:

Mr. Dennis C. Judycki, Associate Administrator, Research, 
  Development, and Technology, Federal Highway Administration, 
  U.S. Department of Transportation; Accompanied by Mr. Benjamin 
  Tang, Principal Bridge Engineer/Team Leader, Office of Bridge 
  Technology, Federal Highway Administration, U.S. Department of 
  Transportation
    Oral Statement...............................................    16
    Written Statement............................................    17
    Biography for Dennis C. Judycki..............................    23
    Biography for Benjamin Tang..................................    24

Mr. Harry Lee James, Deputy Executive Director and Chief 
  Engineer, Mississippi Department of Transportation; Member, 
  Standing Committee on Highways, American Association of State 
  Highway and Transportation Officials
    Oral Statement...............................................    25
    Written Statement............................................    26
    Biography....................................................    37

Dr. Kevin C. Womack, Director, Utah Transportation Center; 
  Professor of Civil and Environmental Engineering, Utah State 
  University
    Oral Statement...............................................    38
    Written Statement............................................    39
    Biography....................................................    46

Mr. Mark E. Bernhardt, Director, Facility Inspection, Burgess & 
  Niple, Inc.
    Oral Statement...............................................    46
    Written Statement............................................    48
    Biography....................................................    50

Discussion.......................................................    54

             Appendix 1: Answers to Post-Hearing Questions

Mr. Dennis C. Judycki, Associate Administrator, Research, 
  Development, and Technology, Federal Highway Administration, 
  U.S. Department of Transportation..............................    70

Mr. Harry Lee James, Deputy Executive Director and Chief 
  Engineer, Mississippi Department of Transportation; Member, 
  Standing Committee on Highways, American Association of State 
  Highway and Transportation Officials...........................    76

Dr. Kevin C. Womack, Director, Utah Transportation Center; 
  Professor of Civil and Environmental Engineering, Utah State 
  University.....................................................    78

Mr. Mark E. Bernhardt, Director, Facility Inspection, Burgess & 
  Niple, Inc.....................................................    82

             Appendix 2: Additional Material for the Record

Statement of Christopher C. Higgins, Oregon State University 
  College of Engineering.........................................    86

Statement of Michael Todd, Associate Professor of Structural 
  Engineering, University of California-San Diego, and Charles 
  Farrar, Leader, The Engineering Institute, Los Alamos National 
  Laboratory.....................................................    88

Statement of Larry W. Frevert, President, American Public Works 
  Association....................................................    95


      BRIDGE SAFETY: NEXT STEPS TO PROTECT THE NATION'S CRITICAL 
                             INFRASTRUCTURE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 19, 2007

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                       Bridge Safety: Next Steps

                        to Protect the Nation's

                        Critical Infrastructure

                     wednesday, september 19, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

I. Purpose

    On Wednesday, September 19, 2007, the Committee on Science and 
Technology will hold a hearing entitled ``Bridge Safety: Next Steps to 
Protect the Nation's Critical Infrastructure'' to examine research and 
development activities to improve the safety of the Nation's bridges. 
The hearing will explore the current state of bridge-related research, 
including government and academic research into materials, design 
elements, and testing and inspection technologies. Witnesses will also 
discuss future research priorities for building improved bridge 
infrastructure and maintaining current bridges to avoid catastrophic 
failure.

II. Witnesses

Mr. Dennis Judycki is the Associate Administrator for Research, 
Development, and Technology at the Federal Highway Administration 
(FHWA) of the U.S. Department of Transportation (U.S. DOT) and Director 
of U.S. DOT's Turner-Fairbank Highway Research Center (TFHRC).

Mr. Benjamin Tang is a Principal Bridge Engineer for the Office of 
Bridge Technology at the Federal Highway Administration of the U.S. 
DOT.

Dr. Kevin Womack is the Director of the Utah Transportation Center and 
Professor of Civil and Environmental Engineering at Utah State 
University.

Mr. Harry Lee James is the Deputy Executive Director and Chief Engineer 
for the Mississippi Department of Transportation.

Mr. Mark Bernhardt is the Director of Facility Inspection for Burgess & 
Niple, an engineering firm.

III. Brief Overview

        <bullet>  Structural problems, both major and minor, plague a 
        significant portion of bridges in the United States. According 
        to the U.S. Department of Transportation's National Bridge 
        Inventory, 73,764 bridges around the U.S. (12.4 percent of all 
        bridges) were classified as ``structurally deficient'' in 2006, 
        including the bridge that collapsed in Minnesota. The American 
        Society of Civil Engineers (ASCE) in 2005 gave the Nation's 
        bridge infrastructure a ``C'' grade in its Report Card for 
        America's Infrastructure because of the large number of 
        deficient bridges. However, the definition of structural 
        deficiency is broad, and can cover everything from non-
        structural paving issues to serious flaws. State and local 
        inspectors are responsible for determining which bridges need 
        the most immediate attention.

        <bullet>  The challenge for policy-makers at the State, local, 
        and federal level is to determine which bridges are the highest 
        priority for repairs given limited funding. ASCE estimates that 
        repairing every deficient bridge across the Nation would cost 
        $9.4 billion per year for 20 years. Inspectors use a variety of 
        methods to determine if a bridge has immediate need of repair, 
        including visual inspection, sensors, and other non-destructive 
        testing technologies. The existing methods are imperfect, 
        however, and additional research is needed to develop methods 
        that will provide better quality data on which bridges are in 
        greatest need of immediate repair.

        <bullet>  The Federal Highway Administration, State highway 
        administrations, and universities are sponsoring and carrying 
        out research to improve bridge design, maintenance, and 
        inspections. Current research covers a variety of fields, 
        including materials, engineering design, technology 
        development, and modeling. However, transferring successful 
        technologies to end-users such as state highway administration 
        officials is challenging because of cost concerns and training 
        issues for advanced technology.

        <bullet>  Additional research is needed to better understand 
        the current and future demands on bridges. Traffic loads are 
        significantly higher than when many of the country's bridges 
        were built, especially from truck traffic. FHWA is supporting 
        research to design the ``Bridge of the Future'' with the goal 
        of a century-long lifespan. This and similar projects should 
        include projections for bridge usage throughout the intended 
        lifespan to ensure that the bridge meets users' needs.

IV. Issues and Concerns

How are bridges currently tested for safety, and how effective are 
current testing methods and technologies? What technologies and 
techniques currently exist to improve bridges' structural integrity? 
States are currently responsible for all bridge inspections, which must 
be carried out biennially under the National Bridge Inspection 
Standards (NBIS), which are enforced by FHWA. If a bridge is deemed 
potentially problematic, inspectors can increase the frequency of 
evaluations. Approximately twelve percent of bridges are inspected 
annually. Inspectors examine the bridge deck (primary travel surface), 
superstructure (which supports the deck), and substructure (which 
supports the superstructure). Each component is given a rating based on 
its current condition, ranging from excellent to failed or out of 
service. If the bridge gets less than 50 points in its overall rating, 
it can be classified as structurally deficient. For reference, before 
it collapsed, the I-35W bridge in Minneapolis received a score of 50.
    Some technology is currently in use to aid inspectors in their 
assessments of bridges, but generally bridge inspectors depend on 
visual observations to determine if a bridge is deficient in any 
category. Bridge inspectors are trained through university programs and 
also must complete required courses through FHWA's National Highway 
Institute (NHI). These courses are also used to deliver information 
about new technologies emerging from the U.S. DOT.

What future research is needed in the overall field of bridge safety, 
and how can engineers insure that new technologies are an improvement 
on the current state-of-the-art? Current bridge research covers three 
general fields: structural engineering, materials, and inspection 
technologies. Within these research areas, many different projects are 
carried out or funded by universities, State departments of 
transportation, and the Federal Government. Some private research, 
especially in the area of technology design and development, is also 
carried out by industry. Research priorities are generally guided by 
end-user needs, and the transportation research community has a strong, 
centralized structure for sharing both research results and technology 
needs. The Transportation Research Board (TRB), part of the National 
Research Council (NRC), hosts an annual meeting and other smaller 
events to facilitate collaboration among researchers and end users that 
is a primary source of information on research priorities. Following 
the bridge collapse in Minnesota, TRB put a greater focus on the 
specific field of bridge safety and announced that its 2008 annual 
meeting would highlight the issue of aging infrastructure. AASHTO also 
convenes a bridge committee comprised of State highway officials who 
are able to discuss needs specific to their states.
    FHWA is also working on their Bridge of the Future project, which 
aims to use innovative designs and materials to build a bridge that 
will have a lifespan of at least a century (compared to current 25- to 
50-year lifespans). However, the new designs, materials, and 
technologies that are developed through these research projects will 
only be useful if they are able to meet the long-term needs of users. 
Many current bridges--81,257 in 2007--are functionally obsolete because 
engineers were unable to accurately predict the types of traffic loads 
throughout the bridge's intended lifespan.

How can non-destructive testing of existing bridges and lessons from 
the Minnesota collapse be used to determine which bridges are the most 
susceptible to catastrophic failure? Currently, bridge inspectors rely 
primarily on visual inspections to determine whether bridges are in 
need of repair. While these inspectors go through rigorous training and 
take regular refresher courses to keep their skills up to date, there 
are obvious limits to inspections which cover only surface features of 
the bridges. New technologies are being introduced to help inspectors 
see into the structural elements of bridges so that they may better 
determine the overall strength and integrity. But there are barriers to 
adoption of these new technologies. Many are expensive and well outside 
the budget of state highway administrations. Others take highly 
technical training to operate effectively and are too difficult for 
busy bridge inspectors to learn to use. Some technologies also require 
near continuous monitoring or modeling to identify potential problems. 
Additional research is needed to develop technologies for non-
destructive testing of bridges that are effective and efficient for 
bridge inspectors so that catastrophic failures can be predicted before 
they happen.

What technology transfer programs exist at FHWA and university 
transportation research centers, and how effective are those programs? 
In transportation fields, technology transfer is a special challenge 
because no solution works well for everyone. Differences in traffic 
loads, climate, size and shape, and other bridge characteristics mean 
that new engineering designs, materials, and technologies may work well 
for a bridge engineer in California but not in New York or Florida. 
Thus, technology transfer efforts must include both determining the 
customer's unique needs and transferring the appropriate technology. 
For the former, FHWA and the University Transportation Centers depend 
on organizations of end-users, including TRB and AASHTO, to facilitate 
discussions of technology needs. The strong participation in these 
groups means that end-users are making their needs known to the 
appropriate people, but technology adoption remains slow. FHWA programs 
to encourage the adoption of new technology include seminars and 
discussions at TRB events and courses offered at the National Highway 
Institute (NHI) to train engineers and inspectors in the use of new 
technology.

V. Background

    The collapse of the I-35W bridge in Minnesota was, unfortunately, 
not the first of its kind. In 1967, a bridge from West Virginia to Ohio 
collapsed, killing dozens of people and spurring the Federal Highway 
Administration to standardize inspections of bridges to avoid future 
tragedies. The National Bridge Inspection System now uses a point 
system to help state inspectors and the Federal Government determine 
which bridges are in greatest need of repair. On a 100 point scale, 
bridges that score less than 50 points are described as ``structurally 
deficient.'' Some bridges are also classified as ``functionally 
obsolete'' meaning that they are unable to perform to the current 
necessary traffic capacity. These bridges limit the size of vehicles 
allowed to cross. Neither designation means that the bridge is in 
imminent danger of collapse. Points are awarded based on the condition 
of the substructure, superstructure, and surface; thus, a low scoring 
bridge may merely need repaving to bring it back from structural 
deficiency.
    The sheer number of structurally deficient bridges around the 
country is cause for concern, though, because many do have underlying 
structural problems. In 2006, FHWA found that 73,764 bridges were 
structurally deficient, including the one that collapsed in Minnesota. 
There is not a centralized system that the Federal Government uses to 
further classify structurally deficient bridges as suffering from 
dangerous structural (as opposed to cosmetic or less urgent) 
conditions. This makes it far more difficult to determine the true 
vulnerability of the bridges in the United States. The American Society 
of Civil Engineers (ASCE) has carried out their own assessment of the 
Nation's bridges, and found that the Nation's urban bridges, which 
carry much larger than average numbers of vehicles daily, are 
classified as structurally deficient at a much higher percentage than 
rural bridges, making the situation more dangerous than the number 
suggest on their own. ASCE has called for stronger investment in 
repairing infrastructure and long-term research efforts. Repairs, 
however, are an enormous financial challenge. ASCE anticipates a total 
cost of $188 billion to repair all current structurally deficient 
bridges around the country.
    While the issue of bridge structural problems is not new, changing 
patterns in the U.S. transportation sector have made fixing deficient 
bridges much more pressing. The Bureau of Transportation Statistics 
(BTS) found that the number of vehicles on roads and bridges has 
increased from 156 million to 235 million since 1980, and economic 
growth has spurred the long haul trucking industry to put more and 
heavier trucks on the road. These traffic loads are far higher than 
those originally anticipated by bridges' engineers, and may accelerate 
deterioration of already crumbling infrastructure.
    Because it is financially and logistically unfeasible to repair all 
problematic bridges around the country in the short-term, State highway 
administrations, bridge inspectors, and the public rely on the results 
of research and technology development to avoid catastrophic and deadly 
collapses. The research community has recognized bridges as a priority, 
and is putting available resources into both short- and long-term 
research to improve safety. However, funding for this research is 
extremely limited. FHWA has only approximately $22 million available 
for bridge related research, and must leverage research carried out by 
universities, states, and private industry to move forward.
    Chairman Gordon. I want to welcome everyone to today's 
hearing on Bridge Safety: Next Steps to Protect the Nation's 
Critical Infrastructure. We were all horrified by the images of 
I-35W bridge collapse in Minneapolis last month, and the 
Congress has begun moving to address the serious problem of 
deteriorating bridges.
    Infrastructure in the United States, and in my own home 
State of Tennessee, 37 bridges were found to be deficient by 
Road Improvement Survey in 2005, and I am sure that my 
colleagues on the Committee could all share similar statistics. 
Clearly the disaster that struck Minnesota could have happened 
anywhere. This is a wakeup call that we need to be doing more 
to strengthen and secure our bridges now and for the long-term. 
And while funding bridges is important and necessary, we cannot 
keep on with business as usual if we are to maintain a safe, 
national inventory of nearly 600,000 bridges. In the American 
Society of Civil Engineers' 2005 Infrastructure Report card, 
they reported that it would cost upwards to $188 billion just 
to fix the Nation's current structurally deficient bridges. 
There has to be a better, more efficient way. I am hoping our 
witnesses today can shed some light on what that better way is.
    The witnesses here today represent the Federal Government, 
State government, academia, and industry. Each of these groups 
is working hard on the innovative research and development that 
will hopefully help us to prevent these types of tragedies in 
the future. They are developing new materials for stronger 
decks, new engineering techniques for more resilient bridges, 
new technologies to help inspectors more accurately assess the 
conditions of a bridge, and of course, new technologies are 
only useful insofar as they are adopted by builders and 
inspectors. So, I hope to hear more about technological 
transfer programs and what we can do to make innovative 
technology more accessible to hardworking engineers and to 
inspectors that need them.
    Investing our resources wisely is the first step to 
ensuring the American public crosses the Nation's bridges 
confidently.
    Before I recognize my friend and colleague, Ranking Member, 
Mr. Hall, let me say that we are going to allow both--have two 
additional opening statements by our Chairman and Ranking 
Member of the Subcommittee on Technology Innovation which 
covers this area, I am going to have to briefly step across the 
hall. I have a bill concerning 9-1-1 that is important for all 
of us, and so I am going to turn to Mr. Wu and recognize Mr. 
Hall for his opening statement.
    [The prepared statement of Chairman Gordon follows:]

               Prepared Statement of Chairman Bart Gordon

    I want to welcome everyone to today's hearing on Bridge Safety: 
Next Steps to Protect the Nation's Critical Infrastructure. We were all 
horrified by the images of the I-35W bridge collapse in Minneapolis 
last month, and Congress has begun moving to address the serious 
problems of deteriorating bridge infrastructure in the United States. 
In my home State of Tennessee, 37 bridges were found to be deficient by 
a Road Improvement Survey in 2005. My colleagues on the Committee could 
all share similar statistics. Clearly, the disaster that struck 
Minnesota could have happened anywhere. This is a wakeup call that we 
need to be doing more to strengthen and secure our bridges now and for 
the long-term.
    While funding repairs is important and necessary, we cannot keep on 
with business as usual if we are to maintain a safe national inventory 
of nearly 600,000 bridges. In the American Society of Civil Engineers' 
2005 Infrastructure Report Card, they reported that it would cost 
upwards of $188 billion just to fix our nation's current structurally 
deficient bridges. There has to be a better, more efficient way. I'm 
hoping our witnesses today can shed some light on what that better way 
is.
    The witnesses here today represent the Federal Government, State 
government, academia and industry. Each of these groups is working hard 
on the innovative research and development that will hopefully help us 
prevent these types of tragedies in the future. They are developing new 
materials for stronger decks, new engineering techniques for more 
resilient bridges, new technologies to help inspectors more accurately 
assess the condition of a bridge. Of course, new technologies are only 
useful insofar as they are adopted by builders and inspectors. I hope 
to hear more about technology transfer programs, and what we can all do 
to make innovative technologies more accessible to the hardworking 
engineers and inspectors that need them.
    Investing our resources wisely is the first step to ensuring that 
the American public crosses the Nation's bridges confidently.
    I'd now like to recognize my colleague, the Ranking Member from 
Texas, Mr. Hall, for an opening statement. We'll then allow two 
additional opening statements from the Chairman and Ranking Member of 
the Subcommittee on Technology and Innovation, which covers surface 
transportation R&D for the Committee.

    Mr. Hall. I thank you, Mr. Chairman, and I say good morning 
to you gentlemen. Thank you for the time you are giving us 
today, the time you have given us in preparation and your trip 
home. We appreciate you being here because your input is what 
we really look to in order to write our legislation because you 
know more about what we are talking about than we do, and you 
are very kind and gracious to give us your time.
    We are a nation of infrastructure. It is kind of funny. I 
have had a lot of advice from a lot of people about these 
bridges and everything. Every time I get up on one when I look 
way down there and see little people in small cars I have some 
kind of an eerie feeling, you know, thinking that some day that 
the thing is going to fall if we don't do something about it 
and don't keep checking it. One guy suggested to me that--my 
district goes several hundred miles from Dallas County to the 
end of Texarkana, Bowie County, over to the Arkansas border, 
about 300 miles. He said, if you can stay on them farm-to-
market roads, you will be a lot safer. I don't know if that is 
true or not, but maybe you folks are going to be able to help 
us.
    More than any other country in the world, we do rely on a 
massive, interconnected web of power lines and power plants, 
telecommunications facilities, train tracks, roadways, and 
bridges to, you know, go about our everyday lives; and that is 
why tragedies like the I-35 bridge collapse in Minneapolis 
strike each of us so personally. During our own, everyday lives 
since August the 1st we have all thought of the 185 people on 
the I-35 bridge when it collapsed and the 13 who perished. 
Perhaps as we drive across bridges in our hometowns on the way 
to work or to the school or to the shopping center down the 
road we think about it, and it causes concern. Clearly the loss 
of life is unacceptable, and then what to do about it, what we 
can do about it, and how practical it is to do what we ought to 
do about it and whether or not we will do what we ought to do 
is something that we just have to work out together. And we 
have to listen to you and try to adapt our ability to respond 
to what your recommendations are.
    Ensuring the safety of our basic infrastructure has to be 
the top priority of Federal, State, and local governments. This 
is a core principle of public policy and the reason the 
Committee is meeting here today. Sadly, this is not the first 
time that a major bridge has failed. In 1967, 46 people died 
from the collapse of the Silver Bridge in Point Pleasant, West 
Virginia. The following year, the Federal Government began a 
nationwide bridge inspection program. Today the National Bridge 
Inventory including almost 600,000 bridges, almost 25 percent 
of these are over 50 years old. Of the 49,518 bridges on the 
inventory in my home State of Texas, 2,219 or five percent are 
considered structurally deficient. I live in the smallest 
county in Texas. There are 254 counties. Mine is the smallest 
geographically. I have bridges that I am very fearful of, 
bridges that I have pictures of my wife and me standing, 
leaning up against the banister the day they were poured; and 
that is 50 or 60 years ago. Those bridges are probably very 
dangerous. This designation of structurally deficient doesn't 
mean that these bridges are in immediate danger of collapse; it 
does, however, mean that signs of fatigue and stress are 
beginning to show and that the bridge requires close 
monitoring. The I-35 bridge was one such structurally deficient 
bridge, however, and was inspected a year prior to the 
collapse.
    So today we have a panel before us who can tell us what we 
are doing as a nation to improve the monitoring and inspection 
of bridges. What are the technologies and the skills that will 
allow us to better assess and monitor the health of these 
critical pieces of infrastructure? What can be done in the next 
five or 10 years to improve the data we have on bridges and our 
ability to correct interpret that data? And can we do this 
while also attending to the other challenges facing 
transportation officials such as growing congestion and 
deteriorating roadways?
    I don't know. We would like to hear that from you all. I 
wrote a bill about the drought that we have and how to address 
it later and how to have quicker response for the ranchers and 
farmers before it is too late; and of course, you know what the 
first question was when I was back in my district, telling them 
about how I had offered the drought bill. And one old farmer 
said, well, Congressman, can you make it rain? And I had just 
admitted that I couldn't and we would do something about that 
at a later time. And sure enough we had too damn much rain 
about three weeks ago and Texoma Lake overran and drowned out 
the rice farmers down below. Now if I go back to that same 
place and make that speech, he will say, Congressman, can you 
make it stop raining? So we can only do what you guys and 
ladies and gentlemen point out to us and help us give your best 
judgment on it. We appreciate your being here.
    Mr. Chairman, I yield back.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    Good morning Mr. Chairman.
    We are a nation of infrastructure. More than any other country in 
the world we rely on a massive, interconnected web of power lines and 
power plants, telecommunications facilities, and train tracks, 
roadways, and bridges to go about our everyday lives.
    This is why tragedies like the I-35 bridge collapse in Minneapolis 
strike each of us so personally. During our own everyday lives since 
August 1st we have all thought of the 185 people on the I-35 bridge 
when it collapsed and the thirteen who perished, perhaps as we drove 
across bridges in our home towns on the way to work, or to school, or 
to the shopping center down the road.
    Clearly this loss of life is unacceptable.
    Ensuring the safety of our basic infrastructure must be the top 
priority of our Federal, State, and local governments. This is a core 
principle of public service and the reason this committee is meeting 
today.
    Sadly, this is not the first time that a major bridge has failed. 
In 1967, forty-six people died from the collapse of the Silver Bridge 
in Point Pleasant, West Virginia. The following year the Federal 
Government began a nationwide bridge inspection program. Today, the 
National Bridge Inventory, includes almost 600,000 bridges. Almost 
twenty-five percent of those are over fifty years old. Of the 49,518 
bridges on the inventory in my home State of Texas, 2,219 or five 
percent are considered ``structurally deficient.''
    This designation, ``structurally deficient,'' does not mean these 
bridges are in immediate danger of collapsing. It does, however, mean 
that signs of fatigue and stress are beginning to show and that the 
bridge requires close monitoring. The I-35 bridge was one such 
``structurally deficient'' bridge, however, and was inspected a year 
prior to the collapse.
    So, today, we have a panel before us who can tell us what we're 
doing as a nation to improve the monitoring and inspections of bridges. 
What are the technologies and skills that will allow us to better 
assess and monitor the health of these critical pieces of 
infrastructure? What can be done in the next five or ten years to 
improve the data we have on bridges and our ability to correctly 
interpret that data? And can we do this while also attending to the 
other challenges facing transportation officials such as growing 
congestion and deteriorating roadways?
    I look forward to hearing your answers and thank you for testifying 
today.
    I yield back.

    Mr. Wu. [Presiding] Thank you very much, Mr. Hall. As 
Chairman Gordon referred, on the 1st of August, the whole 
country was shocked by the collapse of the I-35 bridge across 
Mississippi at Minneapolis, and our condolences and prayers to 
all those who were directly affected by that bridge collapse. 
But for everybody else around the country, I think that one 
thought that must be on folks' minds is, ``What about the 
bridges that I drive over? What about my commute to work or 
from work?'' These appropriate concerns highlight how much we 
have taken our national infrastructure system for granted. Of 
the 116,000 or so bridges in the National Highway System, over 
6,000 are rated structurally deficient, 80 of these are in my 
home State of Oregon, and eight are in my congressional 
district. After the I-35 bridge collapse, Congress moved 
quickly to offer federal help, and we are now left with a long-
term need to better address how to constantly and consistently 
evaluate and repair our national infrastructure. Investing in 
research to develop new building materials, new engineering 
techniques, and a sufficient technologic toolbox for bridge 
inspectors will be critical to our ability to accurately assess 
the structural condition of our nation's bridges and to develop 
bridge infrastructure that will last for decades and perhaps 
even a century with minimal repairs.
    The Federal Highway Administration, State highway 
administrations, and universities have long been engaged in 
surface transportation research in a wide variety of 
applications from bridge design to construction to inspection. 
However, the transfer of these technologies to end-users has 
faced barriers such as the cost of technologies, engineering, 
and modeling.
    I hope that our witnesses can address these issues.
    Also, I hope that our witnesses will discuss the research 
and the design capabilities the Federal Government can provide 
for State inspectors to accurately rank repair needs. While 
inspectors use a variety of methods to determine if a bridge 
has an immediate need of repair, the existing methods are 
imperfect, and additional research is needed to develop methods 
that will provide better quality data on which bridges require 
immediate attention.
    I look forward to the testimony of our witnesses and their 
expertise to help guide this committee in addressing the 
research needs to protect our aging infrastructure and what the 
Federal Government can do to make sure our citizens do not 
question whether or not their daily commute is safe.
    [The prepared statement of Chairman Wu follows:]

                Prepared Statement of Chairman David Wu

    Thank you Mr. Chairman.
    Mr. Chairman, on August 1, the country was astonished by the 
collapse of the I-35 bridge in Minneapolis, and what was more certain 
than the thoughts and prayers on the American people to those affected 
was the thought ``What about the bridges I drive over? What about my 
commute?''
    These are penetrating questions, and these questions highlight that 
we take our national infrastructure system for granted.
    Of the 116,172 bridges on the National Highway System, 6,175 
bridges are rated as structurally deficient. There are 80 of these 
bridges in my home state of Oregon are rated as structurally deficient, 
and eight are in my district.
    In the aftermath of the I-35 bridge collapse Congress moved 
immediately with federal dollars. We are now left with the immediate 
need to evaluate and repair our national infrastructure. The 
overwhelming number of bridges in need of repair, and the associated 
cost requires the prioritization of federal and State resources.
    Investing in research to develop new building materials, new 
engineering techniques and a sufficient toolbox for bridge inspectors 
will be critical in our ability to accurately assess the structural 
condition of our nation's bridges.
    I look forward to the testimony of our witnesses and their 
expertise to help guide this committee address the needs of our aging 
infrastructure and what the Federal Government can provide to make sure 
our citizens do not need to question whether or not their daily commute 
is safe.

    Mr. Wu. And now I would like to recognize the Ranking 
Member of our subcommittee, Dr. Gingrey for his opening 
statement.
    Mr. Gingrey. Thank you, Chairman Wu, and Ranking Member 
Hall. I have some prepared remarks. I can't resist the urge 
like most Members to ad lib a little bit here.
    I will start out by saying I am certainly proud to be here 
with the Rainmaker. I didn't realize that movie was based on 
the legislative life of Ralph Hall. That was a very interesting 
little bit of information.
    Again, Mr. Chairman, I do thank you, and I would like to 
start by reiterating as we all have the deep felt sorrow and 
concern that we all have for the family members and the loved 
ones of those who died in the collapse of the Interstate 35 
West bridge in Minneapolis. I believe it was on August 1st of 
this year. Our thoughts and prayers continue to go out to the 
families of those who lost their lives.
    Bridge safety is a growing problem across the country and 
includes not just the National Highway System but of course the 
many more bridges and the state and local roadways. In my State 
of Georgia, as an example, there are 14,500 bridge, 14,500 just 
in the State of Georgia, population about 9.4 million people. 
One thousand one hundred of these bridges, that is about eight 
percent of the total, are ``structurally deficient;'' and 
nationally, 12 percent of bridges have received that rating and 
in some states it goes up as high as 25 percent structurally 
deficient.
    Structurally deficient bridges can be found in every part 
of the country in the midst of sprawling cities but also out in 
the remote areas as Ranking Member Hall indicated and stated in 
his remarks. Repairing them will take an enormous effort that 
will need the aid of science and technology; and hopefully we 
can build advanced structures that are more robust, that are 
more reliable, and that will have the ability to detect 
potential problems and warn officials electronically.
    On the ad lib part, let me just say that 42 years ago, I 
was working as a co-op student. I was attending Georgia Tech as 
a chemistry major, and I was working at a nuclear plant in 
South Carolina. And my job, one quarter, was to run a probe 
through a heat exchanger, and I think there were 25 different 
channels in that heat exchanger. And you could literally take 
these heat exchangers off of the reactor and inspect with this 
probe any deterioration or corrosion of the metal, and that was 
42 years ago I was doing that. You think about today and walk 
in any bathroom almost anywhere, in any city, in any country, 
and electronically the commode flushes and the water turns on 
and off. So you know, I think it probably is the time, as I 
continue with my prepared remarks, that we will be able to do 
that in regard to the safety of these bridges and not have to 
rely just on physical inspection on a periodic basis. I know 
reaching the goal will not be easy. Replacing aging bridges 
with new technology, advanced designs, is going to require time 
and money that the federal and the State transportation 
departments, they don't have it. They don't have it readily at 
hand today. We have a strong need for research and development 
of low-cost approaches to inspect or rehabilitate bridges.
    I am particularly concerned about our current visual 
inspection techniques and what can be done to improve this 
system in the near future. In the near future. I would like to 
draw the panel's attention to this issue. I look forward to 
hearing your thoughts. Technology such as embedded sensors 
clearly offers dramatically more precise and accurate data. 
However, we are a long way from a widespread use of such 
systems and will continue to rely on properly trained personnel 
to make those final safety determinations, even though as 
Chairman Wu indicated or someone at the dais, a year ago, a 
year before this tragic accident as I understand it, there was 
this physical inspection. And maybe the panelists will be able 
to tell us about the recent construction on that bridge to 
maybe determine if that had any effect, either.
    But we need to have inspection processes and training that 
are validated as effective and regularly improved. I am pleased 
that we will hear today from Mark Bernhardt, a bridge 
inspector. His company has contracts in over 10 states, and he 
can give us a sense of what a well-trained individual can do, 
but for that matter, what a well-, best-trained individual just 
physically can't do.
    So I thank the panel for coming before us today, and I look 
forward to an enlightening discussion on research and 
development in this area.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Mr. Gingrey follows:]

           Prepared Statement of Representative Phil Gingrey

    Thank you Mr. Chairman. I'd like to start by reiterating the deep-
felt sorrow and concern that we all have for the family members and 
loved-ones of those who died in the collapse of the Interstate 35 West 
Bridge in Minneapolis on August 1st of this year. Our thoughts and 
prayers are with them.
    Bridge safety is a growing problem across the country and includes 
not just the National Highway System, but State and local roadways as 
well. In my State of Georgia, for example, there are 14,523 bridges. 
1,113 of these bridges, or about eight percent, are ``structurally 
deficient.'' Nationally, 12 percent of bridges have received this 
rating and some states have as high as 25 percent of their bridges 
listed as ``structurally deficient.''
    Structurally deficient bridges can be found in every part of the 
country, in the middle of sprawling cities and in remote wildlands. 
Repairing them will take an enormous effort that will need the aid of 
science and technology. Hopefully, we can build advanced structures 
that are more robust, more reliable and that will have the ability to 
detect potential problems and warn officials electronically. Reaching 
this goal will not be easy, however. Replacing aging bridges with new, 
technologically enhanced designs will require time and money that 
federal and State transportation departments DO NOT have readily at 
hand. We have a STRONG need for research and development of low-cost 
approaches to inspect or rehabilitate bridges.
    I am particularly CONCERNED about our current visual inspection 
techniques and what can be done to improve this system in the near 
future. I'd like draw the panel's attention to this issue and look 
forward to hearing your thoughts. Technology such as embedded sensors 
clearly offers dramatically more PRECISE and ACCURATE data. However, we 
are a long way from widespread use of such systems and will continue to 
rely on properly trained personnel to make final safety determinations. 
We need to have inspection processes and training that are validated as 
effective and regularly improved. I'm pleased that we'll hear today 
from Mark Bernhardt, a bridge inspector whose company has contracts in 
over 10 states and who can give us a sense of what a well-trained 
individual can do and for that matter, what a trained individual cannot 
do.
    I thank the entire panel for coming before us today, and look 
forward to an enlightening discussion on Research & Development in this 
area. Thank you and I yield back.

    Mr. Wu. Thank you, Dr. Gingrey. If there are Members who 
wish to submit additional opening statements, your statement 
will be added to the record at this point.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Thank you, Mr. Chairman. I am pleased to be here today as we 
examine research and development measures to address structurally 
deficient bridges in the United States. I would like to welcome today's 
witnesses.
    The tragic bridge collapse that occurred on August 1, 2007, in 
Minneapolis, MN, serves as a wake up call that we must properly invest 
in maintaining our infrastructure, which includes the tools needed to 
evaluate and monitor its condition.
    While we have a first-class transportation system, it is in many 
instances nearing the end of its life expectancy, and we have neglected 
to upgrade and modernize our infrastructure over the years.
    For example, our Interstate Highway System is almost 50 years old. 
Thirty-two percent of our major roads are in poor or mediocre 
condition; one of every eight bridges is structurally deficient; and 36 
percent of the Nation's urban rail vehicles and maintenance facilities 
are in substandard or poor condition.
    While the need for construction upgrades and renovations are 
apparent, we must also recognize the vital need for technological 
advancements in tools and methods to safely, accurately, and 
economically evaluate these structures.
    We should not build our infrastructure and then walk away without 
maintaining, evaluating, and modernizing it as it becomes unsafe. I 
supported a $375 billion highway bill that was advocated by a 2002 
Department of Transportation report because I strongly believe that our 
infrastructure must be a top priority. We were able to pass a $286.4 
billion bill; however, that is not enough to meet our needs. According 
to DOT, more than $65 billion could be invested immediately by all 
levels of government, to replace or otherwise address existing bridge 
deficiencies.
    While we have programs and money specifically established in the 
highway bill for bridge improvements and repairs, money is allowed to 
be transferred and rescinded to other accounts. That inhibits 
completion of important projects, including making sure our bridges are 
structurally sound.
    We must find a way to make the necessary improvements to our roads 
and bridges to make sure the highest level of safety is maintained and 
that the U.S. economy remains strong. As we have not kept up with the 
maintenance and upkeep of our bridges, it is even more vital to develop 
advanced technologies to evaluate and monitor current bridge 
structures. I am interested in hearing the thoughts and ideas of our 
witnesses on these topics.
    I look forward to today's hearing as we examine these important 
issues.

    [The prepared statement of Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Mr. Chairman, thank you for hosting this hearing to examine 
research and development activities to improve bridge safety through 
enhanced structural engineering and inspection technologies.
    As increasing traffic loads take their toll on America's 
transportation infrastructure, the Nation's bridges are plagued by 
growing structural deficiencies that range from paving issues to 
serious, life-threatening flaws. Numerous analysts over the past few 
years have concluded that more than twelve percent of the country's 
bridges will require urgent repairs over the next several years, at a 
cost of nearly $200 billion. The challenge facing policy-makers and 
inspectors is to determine how to allocate limited funding to the 
bridges in greatest need of repair.
    The tragic collapse of Interstate 35W in Minnesota brought our 
attention to a widespread problem that affects every community. In my 
home State of Missouri, nearly 8,000 bridges have been identified as 
structurally deficient or functionally obsolete, including 125 
Interstate Highway bridges. The total average daily traffic over 
structurally deficient interstate bridges in Missouri is 3,280,648 
vehicles.
    Moreover, the Federal Highway Administration has listed eight 
bridges on the National Highway System in my district (MO-3) to be 
structurally deficient. These bridges include: I-55 North at Hillsboro 
Road in Jefferson County, I-64 East at Laclede Station Road in St. 
Louis County, I-64 East at Clayton Terrace in St. Louis County, I-64 
East at McCausland Ave in St. Louis City, I-44 West at Kingshighway 
Blvd. in St. Louis City, I-55 North at 2nd Street in St. Louis City, I-
64 West at I-55 in St. Louis City and I-64 East at I-55 in St. Louis 
City.
    Improving bridge safety is imperative. While I believe we must 
direct more resources towards our nation's infrastructure, it is also 
crucial that we direct our attention to the subject of today's hearing, 
improving technology for bridge design, maintenance, and inspection, 
and reviewing current methods of collaboration and technology transfer 
between the research community and State highway administrations. I am 
eager to hear our witnesses' assessments of bridge-related innovation 
and research priorities. Your first-hand experiences are vital to 
maintaining our nation's infrastructure.
    To all the witnesses--thank you for taking time out of your busy 
schedules to appear before us today. I look forward to hearing your 
testimony.

    [The prepared statement of Mr. Melancon follows:]

         Prepared Statement of Representative Charlie Melancon

    Thank you Chairman Gordon and Ranking Member Hall for holding this 
important hearing on bridge safety. Since the collapse of the I-35 
bridge in Minnesota, many Americans have questioned the safety of the 
bridges they cross every day, but this is only one part of a much 
larger issue. The tragedy in Minnesota emphasizes the importance of not 
just bridge safety, but the safety of our entire public infrastructure 
system.
    Americans depend on public infrastructure every day and they 
deserve to be confidant that their tax dollars are being used to make 
them safe during their commutes and in their communities. As their 
elected representatives in government, it is our job to promote this 
security by ensuring that all elements of public infrastructure--
bridges, roads, dams, and levees--are up to code.
    These are needs--not wants. The United States cannot prosper and 
grow without safe, reliable public infrastructure. We only have to look 
to our recent past for proof. As we saw after Hurricane Katrina, the 
manmade disaster caused by the levee failures was more disastrous to 
New Orleans and south Louisiana than the damage inflicted by the 
hurricane. It was the levee failures that made Katrina the most costly, 
and one of the most deadly, disasters in U.S. history.
    I applaud this committee for its work to ensure that our bridges 
are safe. However, I hope that the work does not end there. Let us take 
this opportunity to begin studying the safety of all the elements of 
our public infrastructure system--bridges, roads, dams and, not least 
of all, levees. We owe it to the American public to make sure they have 
reason to feel safe again.
    Thank you and I yield back my time.

    [The prepared statement of Mr. Mitchell follows:]

         Prepared Statement of Representative Harry E. Mitchell

Mr. Chairman,

    Thank you for convening this morning's hearing.
    All of us extend our deepest sympathies to the Minneapolis 
community and to the loved ones who died or were injured in the I-35 
West Bridge collapse.
    This is the second hearing in which I have participated 
investigating this tragic accident. The Transportation and 
Infrastructure Committee, on which I also serve, held a hearing on the 
causes of the accident two weeks ago.
    I am pleased that Chairman Gordon has called us here today to look 
at the issue from a different perspective. . .that of the current state 
of bridge safety-related research.
    Of the 600,000 bridges in the U.S., 73,764, or more than 12 
percent, of them are considered to be deficient. One of those bridges 
included the I-35 West Bridge in Minneapolis. The American Society of 
Civil Engineers rates the Nation's bridge infrastructure by the letter 
grade of ``C.'' I am glad to report that ASCE gave Arizona an 
``Aminus'' for highway bridge safety.
    Arizona is a growing state and a good deal of our infrastructure is 
new. It is an arid state, and as a result, our bridges are subject to 
fewer corrosive factors such as moisture.
    Of the 7,248 bridges in Arizona, 161 are considered deficient. 
Arizona residents want assurances that the bridges they travel across 
are safe and sturdy structures. Last month, I accompanied 
representatives of Arizona's State Department of Transportation. We 
toured the Loop 202 bridge over 56th Street, and they walked me through 
the inspection process. I came away from that tour with a better 
appreciation of the inspection process. The inspection protocols are 
both time consuming and expensive.
    We need to explore ways and techniques by which we can detect 
structural deficiencies earlier, more accurately and within reasonable 
costs. For the most part, the inspection process provides engineers 
with only a ``snapshot'' of bridge conditions. We look to research 
projects and technological developments that will enable us to assess 
bridge conditions over a longer span of the infrastructure's life 
cycle.
    Today's hearing will provide us with some ideas on the appropriate 
methods to conduct relevant research and development into 
infrastructure research and innovation.
    Thank you, Mr. Chairman.

    Mr. Wu. I am deeply pleased to have such an expert group of 
witnesses before the Committee today to discuss this very 
important topic. Mr. Dennis Judycki is the Associate 
Administrator for Research, Development, and Technology at the 
Federal Highway Administration and Director of the U.S. DOT's 
Turner-Fairbank Highway Research Center. With him is Mr. 
Benjamin Tang, Principal Bridge Engineer for the Office of 
Bridge Technology at the FHA. Mr. Harry Lee James is the Deputy 
Executive Director and Chief Engineer for the Mississippi 
Department of Transportation. Dr. Kevin Womack is a Director of 
the Utah Transportation Center and Professor of Civil and 
Environmental Engineering at Utah State University. Finally, we 
have Mr. Mark Bernhardt, Director of Facility Inspection for 
Burgess & Niple, an engineering firm in Ohio. Thank you all for 
being here.
    As our witnesses already know, spoken testimony is to be 
limited to five minutes each. Your written statements will be 
entered into the record, and after this period, Members of the 
Committee will have five minutes each to ask questions. And we 
will begin with Mr. Judycki. Please proceed.

 STATEMENT OF MR. DENNIS C. JUDYCKI, ASSOCIATE ADMINISTRATOR, 
    RESEARCH, DEVELOPMENT, AND TECHNOLOGY, FEDERAL HIGHWAY 
ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION; ACCOMPANIED 
 BY MR. BENJAMIN TANG, PRINCIPAL BRIDGE ENGINEER/TEAM LEADER, 
 OFFICE OF BRIDGE TECHNOLOGY, FEDERAL HIGHWAY ADMINISTRATION, 
               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Judycki. Thank you, Mr. Chairman. Members, it is a 
pleasure to be here. I am pleased to report today on Federal 
Highway's research, development, and technology activities that 
enhance our highway bridges. And as you mentioned, Mr. 
Chairman, joining me today is Benjamin Tang, the Principal 
Bridge Engineer with the Federal Highway Administration.
    As you have mentioned, America was stunned by the collapse 
of the I-35 bridge in Minneapolis. The cause of the failure is 
still unknown, and Federal Highways is assisting the National 
Transportation Safety Board in their investigation of the 
collapse.
    Several Turner-Fairbank Highway Research Center experts 
are, as we speak, on site helping with the forensic work. 
Others are developing a computer model to evaluate the behavior 
of the bridge. Although examination of the physical members of 
the bridge being recovered from the site provides the best 
evidence of why the bridge collapsed, the computer allows 
simulation and evaluation of multiple failure scenarios, which 
can be evaluated against the actual bridge failure and physical 
forensic evidence.
    We are committed to helping the NTSB complete its work as 
quickly as possible, but certainly, as you can appreciate, must 
take the time to fully understand what happened so that we can 
be sure that this tragedy will not happen again.
    Federal, State, and local transportation agencies consider 
the inspection of the Nation's nearly 600,000 bridges to be of 
vital importance and invest significant funds in bridge 
inspection technologies and techniques for which have been 
evolving for the last 30 years since the establishment of the 
National Bridge Inspection Standards. Commonly used methods for 
evaluating concrete members during ``routine'' inspections 
include mechanical sounding to identify areas of delamination 
and degradation. Similarly for steel members, routine methods 
include cleaning and scraping, and the use of various tests to 
identify cracking and areas of significant corrosion. More 
state-of-the art methods utilized during in-depth inspections 
for concrete and steel bridges include impact echo, infrared 
thermology, ground-penetrating radar, and ultrasonic methods.
    There are numerous other technologies under development 
that have the potential to substantially advance the practice 
of bridge inspection. Unfortunately, there is no one-size-fits-
all approach for use of non-destructive evaluation testing. 
Each technology is designed for a specific purpose and for a 
specific function. Federal highways, state DOTs, university 
transportation centers, and industries continue to investigate 
and improve the practicality in advancing these technologies.
    There are also a number of monitoring systems that can be 
used to provide real-time data and alert bridge owners to such 
things as threshold stresses in load-carrying members, 
excessive movement, crack growth, or scour around a bridge 
pier. However, monitoring systems don't eliminate the need for 
regular visual inspections, nor do they ensure that failure of 
a bridge component will not occur.
    Federal Highways is actively coordinating a National Bridge 
Research Program with our partners and stakeholders, and our 
research and development efforts include not only promising 
advanced non-destructive evaluation technologies for 
inspection, but also long-term bridge performance and high 
performance structures and innovative materials.
    The current Federal Highway Bridge Research Program is 
focused on effective stewardship and management of bridge 
infrastructure, assuring of a high level of safety and security 
for highway bridges, and thirdly, developing the ``Bridge of 
the Future.''
    FHWA's responsibility for research and technology 
encompasses not only managing and conducting research and 
sharing the result but certainly supporting and facilitating 
technology and innovation deployment. This includes working 
with University Transportation Centers, others in academia, the 
State DOTs, industry, and the Transportation Research Board.
    FHWA also utilizes its Local Technical Assistance Program 
as a mechanism for transferring technologies to State and local 
agencies, and education and training programs provided through 
our National Highway Institute help introduce new technologies 
and raise the state of the practice. Ultimately, though, a key 
measure of success for any highway technology innovation 
depends on the acceptance and adoption by stakeholders.
    It is Federal Highway's ongoing responsibility to continue 
to advance the state-of-the-art through research and 
development and to work with our partners to raise the state-
of-the-practice in bridge engineering.
    I would like to thank you again for the opportunity to 
testify and will be pleased to answer any questions that you 
may have.
    [The prepared statement of Mr. Judycki and Mr. Tang 
follows:]

         Prepared Statement of Dennis Judycki and Benjamin Tang

    Mr. Chairman and Members, we are pleased to appear before you today 
to report on the Department of Transportation's research, development, 
testing, and evaluation activities, as administered by the Federal 
Highway Administration (FHWA), to ensure the safety of the Nation's 
highway bridges. This is a very important hearing topic in the wake of 
the tragic collapse of the Interstate 35 West (I-35W) bridge over the 
Mississippi River in Minneapolis, Minnesota. On behalf of the 
Department, we extend our deepest sympathy to the loved ones of those 
who died and to the injured.

Minnesota Bridge Collapse

    America was stunned by the collapse of the I-35W bridge at 
approximately 6:00 PM, Central Daylight Time, on Wednesday, August 1, 
2007. Numerous vehicles were on the bridge at the time and there were 
13 fatalities and 123 people injured. The I-35W bridge originally 
opened in November 1967 and became one of the critical facilities in a 
vital commercial and commuting corridor. The bridge was an eight-lane, 
steel deck truss structure that rose 64 feet above the Mississippi 
River. The main span extended to 456 feet in length to avoid putting 
piers in the water which would have impeded river navigation. As of the 
2004 count, an estimated 141,000 vehicles traveled per day on the 
bridge.
    We do not yet know why the I-35W bridge failed, and the Department 
is working closely with the National Transportation Safety Board (NTSB) 
as it continues its investigation to determine the cause or causes. In 
the interim, we are taking every step to reassure the public that 
America's infrastructure is safe. The Secretary of Transportation has 
issued two advisories to States in response to what has been learned so 
far, asking that States re-inspect their steel deck truss bridges and 
that they be mindful of the added weight construction projects may 
bring to bear on bridges.
    The Federal Highway Administration is assisting the NTSB in a 
thorough investigation, which includes a structural analysis of the 
bridge. Within days of the collapse, development of a computer model 
based upon the original design drawings for the bridge began at FHWA's 
Turner-Fairbank Highway Research Center in McLean, Virginia. This model 
can perform simulations to determine the effect on the bridge of 
removing or weakening certain elements to recreate, virtually, the 
actual condition of the bridge just prior to and during the bridge's 
collapse.
    By finding elements that, if weakened or removed, result in a 
bridge failure similar to the actual bridge failure, the investigators' 
work is considerably shortened. While examination of the physical 
members of the bridge being recovered from the site provides the best 
evidence of why the bridge collapsed, the analytical model allows the 
evaluation of multiple scenarios which can then be validated against 
the physical forensic evidence. We are committed to accomplishing this 
work as quickly as possible, but it is expected to take several months. 
Our experts will continue to be there, on the ground in Minneapolis, to 
provide assistance. We need to fully understand what happened so we can 
take every possible step to ensure that such a tragedy does not happen 
again. Data collected at the accident scene, with the help of the 
Federal Bureau of Investigation's 3-D laser scanning technology, is 
being used to assist in the investigation.
    Federal, State, and local transportation agencies consider the 
inspection of our nearly 600,000 bridges to be of vital importance and 
invest significant funds in bridge inspection activities each year. We 
strive to ensure that the quality of our bridge inspection program is 
maintained at the highest level and that our funds are utilized as 
effectively as possible. On August 2, the day after the collapse, 
Secretary of Transportation Mary E. Peters requested the Department of 
Transportation's Inspector General to conduct a rigorous assessment of 
the federal-aid bridge program and the National Bridge Inspection 
Standards (NBIS).

National Bridge Inspection Program

    The National Bridge Inspection Program was created in response to 
the collapse, in 1967, of the Silver Bridge over the Ohio River between 
West Virginia and Ohio, which killed 46 people. At the time of that 
collapse, the exact number of highway bridges in the United States was 
unknown, and there was no systematic bridge inspection program to 
monitor the condition of existing bridges. In the Federal-aid Highway 
Act of 1968, Congress directed the Secretary of Transportation in 
cooperation with State highway officials to establish: (1) NBIS for the 
proper safety inspection of bridges, and (2) a program to train 
employees involved in bridge inspection to carry out the program. As a 
result, the NBIS regulation was developed, a bridge inspector's 
training manual was prepared, and a comprehensive training course, 
based on the manual, was developed to provide specialized training. To 
address varying needs and circumstances, State and local standards are 
often even more restrictive than the national standards.
    The NBIS require safety inspections at least once every 24 months 
for highway bridges that exceed 20 feet in total length located on 
public roads. Many bridges are inspected more frequently. However, with 
the express approval by FHWA of State-specific policies and criteria, 
some bridges can be inspected at intervals greater than 24 months. New 
or newly reconstructed bridges, for example, may qualify for less 
frequent inspections. Approximately 83 percent of bridges are inspected 
once every 24 months, 12 percent are inspected annually, and five 
percent are inspected on a 48-month cycle.
    The State transportation department (State DOT) must inspect, or 
cause to be inspected, all highway bridges on public roads that are 
fully or partially located within the State's boundaries, except for 
bridges owned by federal agencies. States may use their Highway Bridge 
Program funds for bridge inspection activities. Privately owned 
bridges, including commercial railroad bridges and some international 
crossings, are not legally mandated to adhere to the NBIS requirements; 
however, many privately owned bridges on public roads are being 
inspected in accordance with the NBIS.
    For bridges subject to NBIS requirements, information is collected 
on bridge composition and conditions and reported to FHWA, where the 
data is maintained in the National Bridge Inventory (NBI) database. The 
NBI is essentially a database of bridge information that is ``frozen'' 
at a given point in time. This information forms the basis of, and 
provides the mechanism for, the determination of the formula factor 
used to apportion Highway Bridge Program funds to the states. A 
sufficiency rating (SR) is calculated based on the NBI data items on 
structural condition, functional obsolescence, and essentiality for 
public use. The SR is then used programmatically to determine 
eligibility for rehabilitation or replacement using Highway Bridge 
Program funds.
    Bridge inspection techniques and technologies have been 
continuously evolving since the NBIS were established over 30 years ago 
and the NBIS regulation has been updated several times as Congress has 
revised the inspection program and its companion program, the Highway 
Bridge Program (formerly Highway Bridge Replacement and Rehabilitation 
Program). The most recent NBIS revision took effect in January 2005. 
The bridge inspector's reference manual has been updated as well, and 
we have developed, through our National Highway Institute (NHI), an 
array of bridge inspection training courses.
    There are five basic types of bridge inspections--initial, routine, 
in-depth, damage, and special. The first inspection to be completed on 
a bridge is the ``initial'' inspection. The purpose of this inspection 
is to provide all the structure inventory and appraisal data, to 
establish baseline structural conditions, and to identify and list any 
existing problems or any locations in the structure that may have 
potential problems. The ``routine'' inspection is the most common type 
of inspection performed and is generally required every two years. The 
purpose of ``routine'' inspections is to determine the physical and 
functional condition of a bridge on a regularly scheduled basis. An 
``in-depth'' inspection is a close-up, hands-on inspection of one or 
more members above or below the water level to identify potential 
deficiencies not readily detectable using routine inspection 
procedures. A ``damage'' inspection is an emergency inspection 
conducted to assess structural damage immediately following an accident 
or resulting from unanticipated environmental factors or human actions. 
Finally, a ``special'' inspection is used to monitor, on a regular 
basis, a known or suspected deficiency.
    Safety is enhanced through these inspections and by ``rating'' 
bridge components, such as the deck, superstructure, and substructure, 
and by the use of non-destructive evaluation (NDE) methods and other 
advanced technologies. Visual inspection is the primary method used to 
perform routine bridge inspections, and tools for cleaning, probing, 
sounding, and measuring, and visual aids are typically used. On 
occasion, destructive tests are conducted to evaluate specific areas or 
materials of concern, or to help identify appropriate rehabilitative 
work. Type, location, accessibility, and condition of a bridge, as well 
as type of inspection, are some of the factors that determine what 
methods of inspection practices are used. When problems are detected, 
or during the inspection of critical areas, more advanced methods are 
employed.
    Commonly used methods for evaluating concrete elements during 
``routine'' inspections include mechanical sounding to identify areas 
of delamination (the separation of a layer of concrete from the 
reinforcing steel in the concrete member) and other forms of concrete 
degradation. Similarly, for the ``routine'' inspection of steel 
members, methods include cleaning and scraping, and the use of dye 
penetrant and magnetic particle testing to identify cracking and areas 
of significant corrosion.
    State-of-the-art methods utilized during ``in-depth,'' ``damage,'' 
and ``special'' inspections include impact echo, infrared thermography, 
ground penetrating radar, and strain gauges for concrete structures and 
elements, and ultrasonic, eddy current, radiography, acoustic 
emissions, strain gauges, and x-ray technology for steel structures and 
elements.
    There are numerous other technologies under development that have 
the potential to substantially advance the practices used for bridge 
inspection. Some of these technologies are also being developed or are 
in limited use by other industries, such as the aerospace and nuclear 
industries. There is no one-size-fits-all approach in the use of non-
destructive evaluations and testing; each technology is designed for a 
specific purpose and function. Although these developing technologies 
have the potential to augment and advance bridge inspection practice, 
the challenge is to find a way to make them efficient, effective, and 
practical for field use. FHWA, industry, academia, the Transportation 
Research Board (TRB), and State DOTs continue to investigate and 
improve the practicality of many of these technologies. As a result of 
these efforts, a number of systems have recently become available that 
can assist an inspector in the identification and quantification of 
such things as reinforced concrete deterioration, steel tendon 
distress, and the displacement or rotation of critical members in a 
bridge.
    There are also a number of monitoring systems that can be used to 
provide real time data and alert the bridge owner to such things as 
failure of load carrying members, excessive rotation or displacement of 
an element, overload in a member, growth of a crack, or scour around a 
bridge pier. The type of information provided by these systems is 
either very specific and provides detailed information on isolated 
areas or members of the bridge, or rather generic and provides general 
bridge behavior information. The most practical of these systems are 
being used by owners following an ``in-depth'' or ``special'' 
inspection, to monitor the performance of the element or the bridge, 
when some specific concern has been raised but the concern is not 
considered to be a short-term safety hazard. However, the effectiveness 
and costs associated with monitoring systems must be weighed against 
the benefits gained. Like any emerging technology, changes and updates 
in monitoring systems can become a big challenge to maintain 
economically over the long haul. Today, bridges are being built to last 
75 to 100 years and installing any new monitoring systems and expecting 
them to be durable and serviceable for such a long period has never 
been done before. Monitoring systems that are available today require 
routine maintenance and repair, and continuous assessment to ensure 
that they are working correctly. In addition, they do not eliminate the 
need for regular visual inspections. In many circumstances, it is more 
effective to increase the inspection frequency, repair or retrofit 
areas of concern, or replace the structure.
    Since 1994, the percentage of the Nation's bridges that are 
classified as ``structurally deficient'' has declined from 18.7 percent 
to 12.1 percent. The term ``structurally deficient'' is a technical 
engineering term used to classify bridges according to serviceability, 
safety, and essentiality for public use. Bridges are considered 
``structurally deficient'' if significant load-carrying elements are 
found to be in poor or worse condition due to deterioration or damage, 
or the adequacy of the waterway opening provided by the bridge is 
determined to be extremely insufficient to the point of causing 
intolerable traffic interruptions. The fact that a bridge is classified 
as ``structurally deficient'' does not mean that it is unsafe for use 
by the public.
    These infrastructure quality numbers for bridges should, and can, 
be improved, but it is inaccurate to conclude that the Nation's 
transportation infrastructure is unsafe. We have quality control 
systems that provide surveillance over the design and construction of 
bridges. We have quality control systems that oversee the operations 
and use of our bridges. And we have quality control over inspections of 
bridges to keep track of the attention that a bridge will require to 
stay in safe operation. These systems have been developed over the 
course of many decades and are the products of the best professional 
judgment of many experts. We will ensure that any findings and lessons 
that come out of the investigation into the I-35W bridge collapse are 
quickly learned and appropriate corrective actions are 
institutionalized to prevent any future occurrence.

Bridge Research and Technology Programs

    The current FHWA bridge research program is focused on three areas: 
(1) the ``Bridge of the Future,'' (2) effective stewardship and 
management of the existing bridge infrastructure in the United States, 
and (3) assuring a high level of safety, security, and reliability for 
both new and existing highway bridges and other highway structures.
    The ``Bridge of the Future'' is intended to be a bridge that can 
last for 100 years or more, and require minimal maintenance and 
repair--while being adaptable to changing conditions, such as 
increasing loads or traffic volumes. FHWA's bridge research and 
technology (R&T) programs are focusing on improving the long-term 
performance of our nation's highway infrastructure in an effective yet 
economical way.
    In the Safe, Accountable, Flexible, Efficient Transportation Equity 
Act: A Legacy for Users (SAFETEA-LU), Congress authorized and funded 
research in five program areas: long-term bridge performance, 
innovative bridge delivery, high performance and innovative materials, 
nondestructive inspection technology, and seismic research. The 
specific programs authorized by SAFETEA-LU are summarized in the 
following:

Long-Term Bridge Performance

Long-Term Bridge Performance Program (LTBPP)--The LTBPP has been 
designed as a 20-year effort that will include detailed inspections and 
periodic evaluations and testing on a representative sample of bridges 
throughout the United States in order to monitor and measure their 
performance over an extended period of time. The program will collect 
actual performance data on deterioration, corrosion, or other types of 
degradation; structural impacts from overloads; and the effectiveness 
of various maintenance and improvement strategies typically used to 
repair or rehabilitate bridges. The resulting LTBPP database will 
provide high quality, quantitative performance data for highway bridges 
that will support improved designs, improved predictive models, and 
better bridge management systems.

Innovative Bridge Delivery

Innovative Bridge Research and Deployment (IBRD) Program--The IBRD 
program encourages highway agencies to more rapidly accept the use of 
new and innovative materials and technologies or practices in highway 
structure construction by promoting, demonstrating, evaluating, and 
documenting the application of innovative designs, materials, and 
construction methods in the construction, repair, and rehabilitation of 
bridges and other structures. This will increase safety and durability 
and reduce construction time, traffic congestion, maintenance costs, 
and life-cycle costs of bridges.

High-Performance and Innovative Materials

High-Performance Concrete (HPC) Research and Deployment Program--The 
HPC program is a subset of the IBRD program. It continues the 
advancement of HPC applications through targeted research that 
addresses needed improvements in design, fabrication, erection, and 
long-term performance in order to achieve the Bridge Program strategic 
outcomes. HPC research focuses on material and casting issues, 
including improved performance criteria, lightweight concrete, curing, 
and test methods; structural performance concerns, including 
compression, shear, and fatigue behavior for both seismic and non-
seismic applications; and concepts related to accelerated construction 
and bridge system design and performance.

High-Performing Steel (HPS) Research and Technology Program--The HPS 
research and technology transfer program is focused on resolving a 
number of issues and concerns with the design, fabrication, erection, 
and long-term performance of both conventional and High Performance 
steels. The program focuses research and technology transfer and 
education in the areas of materials and joining (for example, optimized 
welding processes and procedures); long-term performance (including 
advanced knowledge on performance limitations of weathering steels and 
the potential development of a 100-year shop-applied permanent steel 
coating system); innovative design (including testing and deployment of 
modular steel bridge super- and substructure systems); and fabrication 
and erection tools and processes.

Ultra-High-Performance Concrete (UHPC) Research and Technology--UHPC is 
a unique material which is reinforced with short steel fibers, but 
requires no conventional steel reinforcing. Prior FHWA research on UHPC 
focused on basic material characterization, and the development of 
optimized structural systems using this very high performance, but 
costly, material. Under the UHPC program, additional work will be 
conducted to further understand the unique structural properties of 
this material and assess its corrosion-resistance properties, while 
addressing its use in other structural components including pre-cast 
bridge deck panels and pre-stressed I- and bulb-tee girders.

Wood Composite Research--The University of Maine is conducting a 
research program focused in the development and application of wood/
fiber reinforced polymer (FRP) composite materials for potential use as 
primary structural members in highway bridges.

Non-destructive Inspection Technology

Steel Bridge Testing Program--This program is focused on the further 
development and deployment of advanced NDE tools that can be used to 
detect and quantify growing cracks in steel bridge members and welds. 
As described in SAFETEA-LU, the NDE technology should ultimately be 
able to detect both surface and subsurface cracks, in a field 
environment, for flaws as small as 0.010 inches in length or depth.

Seismic Research

Seismic Research Program--The University of Nevada, Reno, and the State 
University of New York at Buffalo are conducting a seismic research 
program intended to increase the resilience of bridges and reduce 
earthquake-induced losses due to highway damage.

    FHWA is also conducting and managing a number of other important 
bridge research projects in conjunction with various partners and 
stakeholder groups, all focused on improving the performance and 
durability of our Nation's highway bridges--both those exposed to 
normal everyday traffic and use, and those exposed to the damaging 
effects of extreme natural and man-made hazards.
    In addition to FHWA, there are a number of other organizations that 
sponsor bridge research, and a much larger group of agencies that 
conduct bridge R&T. These include State DOTs, industry, other federal 
agencies, and academia. Other transportation modes also conduct limited 
bridge research, including the railroad industry.
    FHWA actively coordinates the National research program with our 
partners and stakeholders for agenda-setting, and in the conduct of 
research and delivery of new innovations. Our staff participates in 
numerous national and international organizations and serves on 
committees focused on bridge research, development, and technology 
transfer. We organize formal technical advisory groups and technical 
working groups, comprised of federal, State, and local transportation 
officials; bridge engineering consultants and industry groups; and 
academia to assist in the design, conduct, and delivery of the program.
    An important R&T partner for FHWA is the University Transportation 
Centers (UTC) Program, managed by the Research and Innovative 
Technology Administration (RITA). FHWA works with the UTCs to identify 
opportunities for collaboration that will increase knowledge and skills 
among State and local highway agencies. FHWA holds periodic workshops 
that bring together researchers and practitioners from FHWA, State 
DOTs, TRB, and UTCs to learn about each others' interests and 
capabilities, new research opportunities, and technologies under 
development. FHWA held an infrastructure workshop for UTCs and State 
DOTs at Turner-Fairbank Highway Research Center in March 2007. FHWA is 
working with a number of UTCs on transportation research, including the 
University of Tennessee, the University of Minnesota, Utah State 
University, Rutgers, and the University of Missouri-Rolla. RITA also 
consolidates bridge technology information from all the Department's 
modal administrations to assist us in having the best available 
technologies.
    State and local highway agencies learn of new technologies 
developed by UTCs through a variety of events sponsored by FHWA. These 
include annual workshops show-casing the results of UTC research on 
particular topics, and numerous conferences, seminars and workshops co-
sponsored with specific UTCs (for example, the ``Self Consolidating 
Concrete Workshop'' at South Dakota State University). FHWA also 
utilizes its highly successful Local Technical Assistance Program 
(LTAP) as a mechanism for transferring technologies developed through 
the UTC program to State and local highway agencies, and tribal 
governments.
    FHWA is also an active participant with the American Association of 
State Highway and Transportation Officials (AASHTO) in technology 
transfer such as the AASHTO Technology Implementation Group and the 
Joint AASHTO/FHWA/National Cooperative Highway Research Program 
International Technology Exchange Program, more commonly known as the 
International Scanning Program. Recent scans have included a scan on 
bridge management, and a follow-on scan in 2007 on Bridge Evaluation 
Quality Assurance. The 2007 scan identified and explored bridge 
inspection processes in use in European countries.
    Ultimately, a key measure of success of any highway technology 
depends on its acceptance by stakeholders on a national scale. FHWA's 
responsibilities for R&T include not only managing and conducting 
research, but also sharing the results of completed research projects, 
and supporting and facilitating technology and innovation deployment. 
FHWA's Resource Center is a central location for obtaining highway 
technology deployment assistance. (The multiple services offered by the 
Resource Center are listed at www.fhwa.dot.gov/resourcecenter/.) 
Education and training programs are provided through the FHWA NHI 
(www.nhi.fhwa.dot.gov).
    There are a number of barriers to technology deployment that may 
explain the relatively slow adoption of highway technologies that 
appear cost effective. Lack of information about new technologies is 
one barrier that may be overcome with information and outreach 
programs. Long-standing familiarity with existing technologies gained 
through education or experience also may hamper the adoption of newer 
technologies. Education and training programs provided through the NHI 
often help to transcend these types of barriers.
    It also may be difficult for stakeholders to envision the long-
range benefits of a new technology relative to initial investment 
costs, especially if the payback (break-even) period is long. Even if 
stakeholders are aware of eventual cost savings from a more efficient 
or effective highway technology, they may have confidence in 
traditional ways of, for example, assessing pavement performance. 
Demonstration projects that provide hard quantitative data can help tip 
the scales so that stakeholders are more willing to try and eventually 
regularly use innovative technologies.
    Despite these efforts, technology deployment is also slowed by 
residual uncertainties about performance, reliability, installation, 
and maintenance costs; availability of the next generation of the 
technology; and the need for the necessary technical and physical 
infrastructure to support the technology in question. These persistent 
barriers can be addressed with outreach programs and collaborative 
efforts with stakeholders--ranging from the TRB to researchers within 
State DOTs--as well as other incentives to enhance the cost 
effectiveness of new technologies. Taken together, these initiatives 
often encourage earlier and broader adoption of highway technologies by 
increasing stakeholder familiarity with new technologies.
    One such program is FHWA's Highways For LIFE. (http://
www.fhwa.dot.gov/hfl/hflfact.cfm). The purpose of Highways for LIFE is 
to advance long lasting highways using innovative technologies and 
practices to accomplish fast construction of efficient and safe 
pavements and bridges, with the overall goal of improving the driving 
experience for America. The program includes demonstration construction 
projects, stakeholder input and involvement, technology transfer, 
technology partnerships, information dissemination, and monitoring and 
evaluation. The innovative technologies that the Highways for LIFE 
program promotes include prefabricated bridge elements and systems, 
road safety audits, and tools and techniques for ``Making Work Zones 
Work Better.''
    Perhaps the main barrier to technology deployment is the general 
lack of incentive mechanisms to encourage the deployment of new 
technologies. We need to develop better incentive mechanisms in the way 
the program is designed, the way we procure, and the extent to which we 
rely on the private sector.
    The Missouri Safe and Sound Bridge Improvement Project provides an 
example of a potentially innovative way to improve incentives and 
encourage innovation and private sector participation.
    On May 25, 2007 the Department of Transportation approved a $600 
million allocation of Private Activity Bonds to the Missouri DOT for 
the Missouri Safe and Sound Bridge Improvement Project. The allocation 
will be made available to two short-listed bidders who are competing 
for a contract to bring 802 of Missouri's lowest rated bridges up to 
satisfactory condition by December 2012 and keep them in that condition 
for at least 25 years. The contract will be awarded largely on the 
basis of the lowest level of ``availability payments'' that the bidder 
will accept to improve and maintain the 802 bridges. Missouri DOT will 
use federal formula funds to pay the availability payments.
    SATETEA-LU authorized $15 billion in Private Activity Bonds. These 
bonds provide tax-exempt financing for private firms to carry out 
highway and surface freight transfer projects. This innovative 
financing approach will allow Missouri to complete these much needed 
bridge improvements more quickly and, it is hoped, at a lower cost. 
Other States, including Pennsylvania and North Carolina, are also 
interested in this innovative approach.
    Through these and other mechanisms, FHWA supports the development 
and implementation of innovative technology deployment practices and 
processes throughout the highway community.

Conclusion

    The I-35W bridge collapse was both a tragedy and wake-up call to 
the country. The Department's Inspector General will be monitoring all 
of the investigations into the collapse and reviewing our inspection 
and funding programs to decide and advise us what short- and long-term 
actions we may need to take to improve the program. Though we will have 
to wait for the NTSB's report before we really know the cause of the 
collapse, a top-to-bottom review is underway to make sure that 
everything is being done to keep this kind of tragedy from occurring 
again. The public deserves to know and trust that our Nation's highways 
are safe.
    We look forward to continuing to work with Congress to give the 
people of this Nation the safe, efficient, and effective transportation 
system that they expect and deserve.
    Thank you again for this opportunity to testify. We will be pleased 
to answer any questions you may have.

                    Biography for Dennis C. Judycki

    Dennis Judycki is the Associate Administrator for Research, 
Development & Technology (RD&T), a position held since January 1999. In 
this position, he is Director of FHWA's Turner-Fairbank Highway 
Research Center (TFHRC) in McLean, Virginia, and is responsible for 
leadership in the development and coordination of national research and 
technology partnerships, corporate facilitation and coordination of the 
delivery of technology and innovation, and the formulation, conduct and 
evaluation of research and development. Pending the appointment of an 
Executive Director, Mr. Judycki served as the FHWA Deputy Executive 
Director for two months at the end of 2001.
    Prior to his RD&T appointment, Mr. Judycki held the position of 
Associate Administrator for Safety & System Applications (SSA), 
responsible for the FHWA programs in technology and innovation 
application, highway safety, traffic management and intelligent 
transportation system (ITS), and training through the National Highway 
Institute.
    Mr. Judycki earned a B.S. in Civil Engineering from New England 
College in Henniker, New Hampshire and a M.S.C.E. with a specialty in 
Urban Transportation Planning and Traffic Operations from West Virginia 
University. After college in 1968, he joined the FHWA's 18-month 
Professional Development Program in Urban Planning. His first permanent 
assignment with the FHWA was as the Urban Transportation Planning 
Specialist in the California Division Office. In 1994, Mr. Judycki was 
selected for the Office of the Secretary of Transportation (OST) 
position of Senior Staff Assistant to the Region 5 DOT Secretarial 
Representative in Chicago, Illinois. Mr. Judycki's first position in 
Washington, D.C., was as the Special Assistant to the FHWA Executive 
Director, a position held for five years. He was appointed to the 
Senior Executive Service (SES) in 1981 as the Chief of the Urban 
Planning & Transportation Management Division. In 1985 he become the 
Director of the Office of Traffic Operations before becoming Associate 
Administrator for SSA in 1990.
    Mr. Judycki is a member of several professional organizations, 
including the Institute of Transportation Engineers and the American 
Public Works Association. He is the USDOT delegate to the Board of 
Directors of the ITS World Congress and the Organization for Economic 
Co-operation and Development (DECD)/European Council of Ministers of 
Transport (ECMT) Joint Transport Research Bureau and Committee.
    Mr. Judycki has been recognized with numerous Senior Executive 
Service Annual Performance Awards, the Secretary's Award for 
Meritorious Achievement, two team National Partnership for Reinventing 
Government (Hammer) Awards, the Lester P. Lamm Memorial Award, the 
Secretary of Transportation's Team Award, and the Presidential 
Meritorious Senior Executive Rank Award. In 1998, Mr. Judycki received 
the Presidential Distinguished Senior Executive Rank Award, the top 
honor within the career civil service.

                      Biography for Benjamin Tang

    Mr. Tang is the Principal Bridge Engineer and Team Leader for the 
U.S. DOT, Federal Highway Administration (FHWA) at the Office of Bridge 
Technology, Washington, D.C. He leads the long span major bridges and 
tunnels group. He has served with great distinction as a structural 
engineer and program manager in several offices within the FHWA for the 
past 30 years.
    He is a graduate of University of Maryland (B.S.C.E.) and 
University of Illinois (M.S.C.E.). He is a licensed professional 
engineer in Maryland and serves on several technical committees on the 
Transportation Research Board, AASHTO, State Transportation Agencies 
and private industry.
    Benjamin is the technical expert and review authority for all 
bridge and structural matters for the federal-aid bridge program. He is 
responsible for drafting federal polices and regulations. He is also 
responsible for developing the bridge technology program under the 
SAFETEA-LU. He is championing the use of innovative bridge 
technologies, such as accelerated bridge construction, high-performance 
materials and load resistance factor design.
    Mr. Tang received numerous distinguished service awards and 
recognition throughout his federal career. He shared the American 
Society of Civil Engineers, 2007 Pankow Award for Innovation in 
collaboration with the developer of a cradle system for cable-stayed 
bridges.

    Mr. Lipinski. [Presiding] Thank you, Mr. Judycki, right 
there on time. Next we have Mr. Harry Lee James. Mr. James?

STATEMENT OF MR. HARRY LEE JAMES, DEPUTY EXECUTIVE DIRECTOR AND 
   CHIEF ENGINEER, MISSISSIPPI DEPARTMENT OF TRANSPORTATION; 
MEMBER, STANDING COMMITTEE ON HIGHWAYS, AMERICAN ASSOCIATION OF 
           STATE HIGHWAY AND TRANSPORTATION OFFICIALS

    Mr. James. Thank you, Mr. Chairman, for allowing me to be 
here today. Again, I am Harry Lee James. I am the Chief 
Engineer for the Mississippi DOT. I am also the former State 
Bridge Engineer for the Mississippi Department of 
Transportation. On behalf of AASHTO, I would like to thank you 
for the focus of this committee on transportation 
infrastructure needs and particularly bridges, bridge safety, 
and preservation; and hopefully I can provide you with some 
information and answers to the questions that you have 
previously provided to us.
    As far as bridge inspection, the techniques that are used 
by the states today range from simple to complex; simple being 
the inspector going out, looking at the structure, touching it, 
feeling it, listening to it, and to the complex inspections 
that require ultrasound, magnetic particle testing, monitoring 
devices that have been imbedded in a bridge during its 
construction as well. Many times though the basic is the best. 
Keep it simple so that we can minimize the inconvenience to the 
public, because many times you have to close a bridge or, at 
least, some lanes of traffic when you are performing an 
inspection, and also for the safety of the bridge inspector as 
well. Many times he is precariously dangling hundreds of feet 
in the air trying to manage for his own safety as well as a 
multitude of equipment that he might have to carry with him to 
perform his tasks. Again, basic is best in most cases.
    As far as research, there is always a greater need. We need 
to continue our efforts to look for the next best thing. We 
continue to use proven technologies in our design and our 
construction. However, we can't give up the fight for looking 
for new technologies out there to help us looking at this aging 
infrastructure that we have.
    How do we prioritize our bridge repair and replacement 
needs at the statewide level? There is no single approach, 
there is no magic bullet. We just have to go out there and do 
what we can with the resources that we have. It takes much 
diligence and stewardship on the part of the DOTs and Federal 
Highway to maintain the systems that we have. We are very 
fortunate that bridge management systems have been helped in 
development by Federal Highway, and many states have adopted 
these in their use to look at prioritizing these repair and 
replacement programs that we have to do.
    As far as consequences of what could happen short-term, 
what may happen long-term, the bridges that were designed and 
built back in the '30s and up to the '50s, '60s, and even into 
the '70s, and we have bridges of many ages on our system of 
some 16,000 in the State of Mississippi, those bridges, the 
ones particular on the interstates, were designed back in the 
'60s are not designed for the loads that they carry today. 
Consequently, they deteriorate at a faster level than what was 
originally anticipated. As far as long-term, things are not 
going to get any better. We can build something today a lot 
cheaper than we could build it five years ago with the current 
increases of cost of construction and other issues that we have 
to deal with as a State highway agency. More is always needed 
to assist us.
    One thing that could help us is getting projects entered 
into our work program at a faster rate. It is unfortunate that 
we have to wait until a tragedy such as what happened in 
Minnesota. And also in Mississippi, we lost two major bridges 
on our coast from Katrina; it takes something like that for us 
to basically suspend the rules and be able to act fast to get 
something back in service in a timely manner.
    It is very challenging, my job, to look at a state-wide 
program and maintain it. We have the traveling public that we 
have to see to, we have our construction workers, as well as 
our contractors, and safety is a big issue.
    I really appreciate the opportunity to come before you 
today to offer some information to you, and I will be glad to 
take any questions that you might have. Thank you.
    [The prepared statement of Mr. James follows:]

                 Prepared Statement of Harry Lee James

Introduction

    Mr. Chairman, my name is Harry Lee James. I am the Deputy Executive 
Director and Chief Engineer for the Mississippi Department of 
Transportation. I am a member of the Standing Committee on Highways of 
the American Association of State Highway and Transportation Officials 
(AASHTO), and I am a registered Professional Engineer in the State of 
Mississippi.
    On behalf of AASHTO, I want to express my appreciation for your 
focus on infrastructure needs in America. The State Departments of 
Transportation (State DOTs) consider bridge safety and bridge 
preservation to be one of our highest priorities, and we take this 
responsibility to preserve the safety and mobility of the traveling 
public very seriously.
    I am here to provide you and the public with the answers to some 
critical questions that have been posed by the House Committee on 
Science and Technology since the tragic collapse of the Interstate 35W 
bridge in Minneapolis.

Question 1
A)  What technologies and techniques do state departments of 
transportation currently use to inspect bridges? What are the benefits 
and disadvantages?
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Every state conducts a thorough and continual bridge inspection and 
rehabilitation program. America's bridges are inspected every two years 
by trained and certified bridge inspectors, conditions are carefully 
monitored, and, where deterioration is observed, corrective actions are 
taken.
    The most common and widely used method of inspection is by far the 
visual inspections by teams led by Professional Engineers. These can be 
described as using Sight, Sound and Touch for General Inspections. 
Sight is the normal visual inspection technique used by all states, 
Sound refers to the sounding technique (use of hammer sounding and 
chain drag) on concrete to integrity of the concrete (does it crumble), 
and Touch refers to the 100 percent hands on Fracture Critical Member 
inspection included in every General Inspection. If needed, these 
inspections are supplemented by other non-destructive testing methods.
    The benefit of visual inspections is that we can collect a large 
volume of data on the condition of the components of every bridge. The 
disadvantage is that inspections are costly and time consuming. In 
addition to qualitatively documenting visible damage, degradation, and 
distress in structural elements, visual inspection can include 
quantitative measurements such as loss of steel due to corrosion or the 
size of cracks in concrete.
    Some other common Non-Destructive testing (NDT) techniques are 
Magnetic Particle method for detection of cracks in suspected areas, 
ground penetrating radar to evaluate bridge decks with overlays, 
infrared thermography and ultrasonic testing to identify cracks that 
are either too small to be seen, or are beneath the surface of the 
metal and dye-penetrant tests which also detect cracks that are not 
visible to the naked eye. Dye-penetrant tests are inexpensive and very 
simple to perform. Mag-particle is fairly easy to perform. The 
disadvantages are that dye-penetrant only identifies cracks that have 
broken the surface of the steel. Mag-particle testing requires 
relatively flat and smooth surfaces. Almost all the common technologies 
are applicable to steel, not concrete or timber. All the techniques 
require specialized training and often times expensive equipment.
    Some other innovative techniques include special ``health 
monitoring'' of bridges using special gauges and sensors. Some of these 
include strain gauges, inclinometers, load cells, weather stations, 
corrosion sensors, humidity sensors, and accelerometers.
    Oregon is out front when it comes to using advanced technology to 
assess the condition of bridges. Currently they have instruments on 
seven bridges and have installed a device that uses air pressure to 
measure scour at bridge foundations on one other bridge.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


B)  What research is needed to improve inspections?

    The National Bridge Inspection Standards are periodically reviewed 
and updated to reflect the latest knowledge. The last update was 
implemented in January 2005. The program was changed significantly in 
several areas:

        <bullet>  The fracture-critical inspection interval was 
        shortened (not to exceed 24 months) and the qualifications for 
        underwater inspectors were increased (80 hours of training are 
        now required).

        <bullet>  The qualification requirements for Program Managers 
        and Team Leaders were increased. For example, non-licensed 
        engineers must take a 10-day class and have five years 
        experience, with most of that experience taking place directly 
        in field inspection, to become a Team Leader.

        <bullet>  States must have a quality control and assurance 
        program in place for their bridge inspection program. The 
        program should include periodic field review of inspection 
        teams, periodic bridge inspection refresher training for 
        program managers and team leaders, and independent review of 
        inspection reports and computations.

    These recent updates to the National Bridge Inspection Standards 
demonstrate that the Federal Highway Administration is diligent in 
updating and advancing inspection standards based on input from the 
states. In addition, states frequently supplement federal inspection 
requirements with more detailed data collection and analysis. For 
example, 40 states currently employ an element-level inspection process 
that focuses on individual components of a structure.
    In an informal AASHTO survey conducted on Sept. 1st to which 27 
states and the USDA Forest Service replied, several areas of research 
were determined to be high priority. The one most often mentioned was 
the need for non-destructive testing technology/equipment that is 
inexpensive and easy to operate for a ``typical'' inspector. Also 
needed are ways to effectively manage and interpret the immense amount 
of data that is produced by bridge monitoring systems. In addition, 
with all of the pre-stressed and post-tensioned structures currently 
being built, it will be necessary to inspect the strands in these 
structures to determine the operating structural capacity of these 
bridges after they have been in service and exposed to the environment 
for some time. An effective way to inspect this and deterioration of 
pretensioned, pre-stressed strands in pre-cast beams and boxes is 
needed. Loss of pre-stress concrete capacity can occur rapidly and lead 
to collapse such as the I-70 bridge in Pennsylvania.
    Additional research in is also needed in ways of yielding cost-
effective, efficient methodologies for the identification and 
monitoring of fatigue cracks in steel members. Lastly, many states 
would like to see the reinstatement of the HERMES ground penetrating 
radar research now tabled at Turner-Fairbank.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


C)  How is FHWA helping to meet these research needs?

    The Federal Highway Administration (FHWA) has been a strong 
supporter of bridge research and bridge inspection and evaluation 
standards. Due to small staff and limited resources, many local 
governments do not have the expertise to use the technologies or review 
the research that is generated.
    FHWA works cooperatively with the American Association of State 
Highway and Transportation Officials (AASHTO) to fund bridge related 
research projects through the Transportation Research Board TRB and 
National Cooperative Highway Research Projects (NCHRP). They also fund 
bridge research projects through SHRP2.
    FHWA funds have been used by the states and by AASHTO for software 
development projects to perform structural evaluation of existing 
bridges and to develop bridge management tools. Most notably, FHWA 
funded a pilot project with Caltrans in the early 1990's to develop 
bridge management software that contains advanced asset-management 
decision-making capabilities. This software is now funded by AASHTO and 
is known as PONTIS. It is used nationally and internationally.
    FHWA owns and operates the Turner-Fairbank Highway Research Center, 
which provides research and development related to new highway 
technologies. Current bridge inspection technologies being developed 
include ground penetrating radar (Hermes II), acoustic emission 
monitoring. Bridge technology programs operated under this research 
center include Non-Destructive Evaluation (NDE) Validation Center, the 
Long-Term Bridge Performance Program and Paint and Corrosion 
Laboratories.
    The NDE Validation Center is designed to act as a resource for 
state transportation agencies, industry, and academia concerned with 
the development and testing of innovative nondestructive evaluation 
(NDE) technologies.
    The Long-Term Bridge Performance Program (LTBP) was launched 
earlier this year. It is 20-year research effort that is strategic in 
nature with specific short- and long-term goals. The program will 
include detailed inspection, periodic evaluation and testing, 
continuous monitoring, and forensic investigation of representative 
samples of bridges throughout the United States to capture and document 
their performance. We feel this is an important program because it has 
the potential to provide a better understanding of bridge deterioration 
and to provide better deterioration models than are now used in Pontis.
    FHWA sponsors studies to develop inspection techniques and remedies 
for common problems found in the Nation's inventory of bridges such as 
arresting fatigue cracks, detecting and preventing protecting bridge 
with chlorides in concrete, detecting and preventing development of 
reactive aggregate.
    Recently, the Federal Highway Administration's Transportation 
System Preservation program, an initiative of the Asset Management 
division, has added Bridge Preservation to the program. Several 
workshops have been held in 2007 and these workshops have helped to 
identify needed research in the area of bridge preventative 
maintenance.
    Also, the International Activities office of FHWA has sponsored 
several international scan tours in the area of Bridge inspection and 
quality control. Most recently, a European Scan was undertaken in June 
2007 in the area of Bridge Quality Control and Quality Assurance. 
Additionally, FHWA works to help sponsor Transportation Pooled Funds 
which support specific research projects Federal Highways also provides 
training through the National Highway Institute and helps to 
disseminate information through many publications, reports, memos and 
announcements.
    While substantial funding has been devoted to bridge research, 
since the passage of SAFETEA-LU research funding has been constrained. 
Two factors give rise to that constraint. First, overall research 
funding was less than recommended by AASHTO and second, earmarks 
exceeded the total dollars made available for FHWA research and thus 
constrained overall discretionary research.
    The pending SAFETEA-LU Technical Corrections bill that passed the 
House and is pending in the Senate would free up additional funds for 
the FHWA research program with no need to increase the overall cost of 
SAFETEA-LU. AASHTO has urged passage of this important legislation.

Bridge Research Under SHRP 2

    Recent events have again demonstrated that America's highways, once 
the envy of the world, are deteriorating, sometimes disastrously so. 
Through age and overuse their capacity to safely serve America's 
transportation needs is being compromised. The Renewal focus area of 
the Second Strategic Highway Research Program (SHRP 2) seeks to develop 
the tools needed to systematically ``renew'' our highway infrastructure 
to serve the 21st century in ways that are rapid, minimally disruptive 
to users, communities, and the environment and that yield much longer-
lived bridges and roadways.
    Highway infrastructure largely comprises three basic elements: 
bridges, pavements and earthworks. All three elements are showing the 
deterioration of age and over-use and all three are addressed in the 
SHRP 2 research plans. While all three elements are vulnerable to 
deterioration that might compromise the physical safety of highway 
users, bridges are, by far, the most vulnerable. This fact was not lost 
on the committees of experts that guided the formulation of the SHRP 2 
research, and renewal of America's highway bridges remains a key 
element of the SHRP 2 research, despite the dramatic reduction in funds 
actually authorized in the SAFETEA-LU legislation. Unfortunately, some 
of the originally planned research--directly applicable to safety 
assessment and the maintenance and repair of existing structures--
proved unaffordable.

Bridge Research Currently Included in SHRP 2

    Three current projects, with total funding of $5 million, directly 
address bridge renewal, including ``Durable Bridges for Service Life 
beyond 100 Years: Innovative Systems, Subsystems, and Components.''
    Two other projects, valued at $8 million, address bridge renewal in 
part, including one project related to ``A Plan for Developing High-
Speed, Nondestructive Testing Procedures for Both Design Evaluation and 
Construction Inspection.''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Bridge Research Included in the Original SHRP 2 Research Plans

    TEA-21 called for the Transportation Research Board (TRB) to 
conduct a study to determine the goals, purposes, research agenda and 
projects, administrative structure, and fiscal needs for a new 
strategic highway research program or a similar effort. Among the 
recommendations of the committee as detailed in TRB Special Report 260, 
was that ``Highway Renewal'' be included as one of the four focus areas 
of SHRP 2. A subsequent detailed analysis of highway renewal research 
needs alone indicated a funding need of approximately $95 million.
    However, the passage of SAFETEA-LU provided only $150 million for 
the entire SHRP 2 research effort; thus serious cutbacks were made in 
all four research focus areas. Funding available for highway renewal 
research was reduced to $30 million. Efforts to optimize the research 
plans and combine projects were undertaken. Nonetheless, five important 
bridge research projects were dropped from the SHRP 2 program, 
including such topics as ``Bridge Repair/Strengthening Systems,'' 
``Techniques for Retrofitting Bridges with Non-Redundant Structural 
Members,'' and ``Monitoring and Design of Structures For Improved 
Maintenance and Security.''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    These projects would be as valuable to the safety assessment, 
maintenance management, and repair of existing bridges as they would be 
to a program of systematic renewal. Statements of work have already 
been developed for these research projects. The cost estimates shown 
are bare minimums and may require some upward adjustment.
    TRB is ready to coordinate the SHRP 2 research with any program 
pursuing this research. The research remains significant to the 
achievement of the overall SHRP 2 goals.

Question 2
A)  For those bridges deemed structurally deficient, how do state and 
local governments prioritize repairs and replacements?

    The states use a number of different methods to prioritize their 
bridge needs.
    While there is no ``single approach'' to prioritizing bridge 
program candidates, all approaches consider safety, then preservation 
and serviceability. Many states use a priority type of formula or a 
ranking system. These formulas and rankings taking into effect a 
combination variables of many different types. Some of the common 
considerations, in addition to the structurally condition ratings, are 
load ratings, field conditions, available funding, importance 
(criticality) of the bridge, average daily traffic, and alternate or 
detour route length. In addition to asset management programs and 
rankings, projects are scrutinized and approved through the normal STIP 
process that includes approvals from State and local transportation 
leaders and the transportation commissions where applicable.
    One example is Oregon's project selection method. It integrates 
inspection data from PONTIS with other bridge condition data, 
specifically non-deterioration based needs, including, as examples; 
seismic, scour, and functional deficiencies. ODOT links various data 
collections to identify projects in twelve categories. Data primarily 
from Pontis is used to select problem bridges in the substructure, 
superstructure, and deck condition categories. Data outside of Pontis 
is used to select problem bridges in the seismic, scour, bridge rail, 
deck width, load capacity, vertical clearance, paint, coastal bridge 
(cathodic protection), and movable bridge categories.
    Many states are moving away from a strictly ``worst first'' project 
selection process. Increases in the costs of traffic mobility and 
project staging have also influenced the move toward targeting route 
segments for repair and replacement projects.
    However, several states are also still using a ``worst first'' 
selection method, sometimes with consideration for traffic load, social 
effects and politics. Overall, there is no ``norm'' in the area of 
prioritization.

Michigan's Well Developed Bridge Management System

    Michigan DOT has a well developed asset management program that 
preserves Michigan's bridge through a balanced approach of doing 
capital preventive maintenance, rehabilitation, and replacement. They 
use a forecasting tool called Bridge Condition Forecast System to 
determine the best implementable strategy of the three types of work. 
Today the mix of fixes is 18 percent Preventive Maintenance, 30 percent 
rehabilitation, and 48 percent replacement.
    The department also uses AASHTO CoRe elements and Pontis smart 
flags to make project level decisions, track deterioration rate of 
bridge elements (transition probabilities). Progress is monitored each 
year towards defined condition state goals, and strategy is modified as 
needed. By slowing the deterioration rate of fair bridges (keeping them 
from becoming structurally deficient (SD) ) and concentrating on 
rehabilitating (first option) and replacement of SD bridges, the state 
has been able to make good progress at eliminating Structurally 
deficient bridges. Local agencies have reengineered their program (once 
called critical bridge program, but today called local agency bridge 
program), following the lead of the state trunkline program, and they 
are now managing their network of local agency structures.
    While doing this the state has found the federal regulations 
regarding the Highway Bridge Program (HBP) are still too restrictive 
(although improving). This has resulted in several states transferring 
money out of the HBP program into other less restrictive programs. This 
gives a false impression that bridge money is not needed, which is very 
misleading. The HBP program is becoming more flexible with the 
allowance to use HBP funds for painting bridges and preventive 
maintenance, however, it is still built upon the framework of the 30 
year old sufficiency rating formula that assigns a rating based upon 
structural deficiency and functional obsolescence.
    In the latest federal highway legislation, SAFETEA-LU, the name of 
the portion of the act providing funding for bridge improvement and 
preservation was changed from ``Highway Bridge Rehabilitation and 
Replacement Program'' (HBRRP) to ``Highway Bridge Program'' (HBP). 
Along with the name change, came increased flexibility for states, 
counties, and cities to fund a broader assortment of bridge 
preservation projects. For example, ``systematic preventive 
maintenance'' now qualifies for HBP funds. With this change, it now 
appears that the three broad categories of bridge preservation are 
covered; i.e., replacement, rehabilitation and preventive maintenance. 
However, there remains at least one important exception that prevents 
the HBP program from becoming what it can and should be. As it 
currently stands, HBP funds still cannot be used for rehabilitation or 
replacement of bridge decks when only the deck is in poor condition. 
The reason for this is explained below.
    Bridges qualify for rehabilitation and replacement based upon the 
``Sufficiency Rating Formula, as explained in Appendix B of the FHWA's 
``Recording and Coding Guide for the Structure Inventory and Appraisal 
of the Nation's Bridges.'' The sufficiency rating formula is a 100-
point scale. A bridge in new condition, having no deficiencies, has 100 
points, and each deficiency on a bridge reduces the structure's 
sufficiency rating by a predetermined value. When a bridge's 
sufficiency rating falls below 80 points, the bridge qualifies for 
rehabilitation, and when the sufficiency rating falls below 50 points, 
the bridge qualifies for replacement.
    The problem, as it relates to bridge decks, is the formula gives 
very little weight to the condition of a bridge deck. The formula only 
lowers a bridge's sufficiency rating three points when the deck 
condition (NBI Item #58) is four (poor). It only lowers the sufficiency 
rating five points when the deck condition is three (serious) or below. 
In comparison, the formula lowers a Bridge's sufficiency rating 25 
points when, either, the superstructure (NBI Item #59) or the 
substructure (NBI Item #60) conditions are four (poor). The formula 
lowers a bridge's sufficiency rating 40 points, and 55 points, when the 
condition of the superstructure or substructure is three (serious) or 
two (critical), respectively. As a result, if only a bridge deck is 
rated poor, the bridge does not qualify for HBP funds.
    To qualify preventive maintenance activities for HBP funds, states 
must work with their FHWA division office to demonstrate they have a 
``systematic plan'' for maintaining their bridges. Once a ``systematic 
plan'' is demonstrated, a list of HBP eligible preventive maintenance 
activities can be developed. In Michigan, preventive maintenance 
activities relating to bridge decks include deck patching, expansion 
joint replacement, epoxy overlays, and hot mix asphalt overlays. Rigid 
overlays (i.e. * concrete, latex modified concrete, or micro-silica 
concrete) are classified as rehabilitation projects, therefore a bridge 
must meet the more stringent sufficiency ratings as discussed above.
    Rigid overlays are a well-proven cost effective preservation 
activity for bridge decks, especially those that receive large traffic 
volumes. Likewise, it is easily shown that it is cost effective to 
rehabilitate or replace structurally deficient bridge decks before more 
extensive damage is done to the superstructure and substructure. It 
simply does not make sense to exclude rehabilitation and replacement of 
bridges decks from HBP funds when the rest of the structure is in fair 
to good condition. This is like saying you should not replace or repair 
the shingles on your home's roof until moisture has been allowed to 
penetrate and destroy the drywall or crack the foundation.
    By definition, a bridge is ``structurally deficient'' if any one of 
the three major elements is rated four (poor) or below. Consequently, 
if only the bridge deck is rated four (poor) or below, the bridge is 
structurally deficient. This is an important point to be aware of 
because Section 1114 of SAFETEA-LU ``declares that it is in the vital 
interest of the United States that a highway bridge program be carried 
out to enable States to improve the condition of their highway bridges 
over waterways, other topographical barriers, other highways, and 
railroads through replacement and rehabilitation of bridges that the 
States and the Secretary determine are structurally deficient or 
functionally obsolete and through systematic preventative maintenance 
of bridges''. Therefore, allowing rehabilitation or replacement of 
structurally deficient bridge decks is consistent and directly 
supported by SAFETEA-LU.
    It is also important that to remember and convey that bridges do 
not exist in a vacuum. Bridges are always tied to the roads they 
connect. Many of the structurally deficient bridges we have are located 
on major freeways that are tied up in long-term corridor improvement 
studies, or there simply is not enough money to do the needed 
improvement to the corridor or interchange. The bridge may need 
replacement, but that must go along with a freeway widening (adding 
lanes), or redesign of an interchange. In many cases, we can not just 
simply fix the bridges without doing major road improvements also.

Bridge Management Software

    Currently, 43 states plus Puerto Rico and the District of Columbia, 
along with several local agencies (including Los Angeles and Phoenix) 
and six international agencies, use an AASHTO BRIDGEWare software 
program called Pontis. This is a computer-based bridge management 
system developed to assist in the challenging task of managing an 
agency's structures. Pontis can store bridge inventory and inspection 
data, formulate network-wide preservation and improvement policies for 
use in evaluating the needs of each bridge in a network, and make 
recommendations for what projects to include in an agency's capital 
plan for deriving the maximum benefit from limited funds.
    Once inspection data have been entered, Pontis can be used for 
maintenance tracking and federal reporting. Pontis integrates the 
objectives of public safety and risk reduction, user convenience, and 
preservation of investment to produce budgetary, maintenance, and 
program policies. Additionally, it provides a systematic procedure for 
the allocation of resources to the preservation and improvement of the 
bridges in a network. Pontis accomplishes this by considering both the 
costs and benefits of maintenance policies versus investments in 
improvements or replacements.
    Responses from an informal August 2007 AASHTO survey<SUP>1</SUP>1 
found that 17 of 37 states use an in-house computerized bridge 
management system that allows for prioritization and monitoring of 
elements in conjunction with either Pontis data collection or an in-
house database. In some cases, Pontis is used by the states as a data 
collection system only, but many states are also using the management 
capabilities of Pontis, which allow them to predict bridge element 
deterioration levels and prioritize spending.
    As noted, most states have some form of computerized bridge 
management system in place; however, the complexity and abilities vary. 
The goal of this effort may be to better define the abilities a state 
should have within its bridge management system and allow for 
flexibility within each state to accomplish these goals in the most 
efficient manner possible.

B)  What are the possible short- and long-term consequences of 
maintaining the current level of bridge repair and replacement efforts 
(if no changes are made to the current systems)?

    Most states responding to the AASHTO informal survey cite that 
their systems will not be affected greatly in the short-term if there 
are no changes made. However, most stated that long-term effects of an 
unchanging system would be significant. One example can be seen in 
Utah, where approximately five percent of the State system is 
Structurally Deficient. UDOT has developed and maintains strategic 
goals and performance measures for the overall health of its bridge 
system, as do many other states. Historically, funding from the Federal 
Bridge Programs (HPRR) is not adequate to address all of the needs. 
Therefore Utah's program is supplemented with State funds for both 
bridge replacement and preventive programs. Even with the supplemental 
State funds, resources are not adequate to address all of the 
Structurally Deficient bridges.
    The consequence of inadequate funding includes increased risk. 
Typically states manage the risk of structurally deficient bridges with 
a variety of processes including; more frequent inspections, and 
consideration for load restrictions, shoring, and possible closure of a 
bridge. There are a large number of bridges that were built during the 
``Interstate Era.'' Many of these bridges are already functionally 
obsolete, and many more will become functionally obsolete as traffic 
volumes increase. More importantly, the volume of freight is expected 
to double in the next 20 years, and the long-term trend in the industry 
has been for increased vehicle weight and axle loads. Improvements in 
tire technology will allow even greater axle loads, and the expanded 
use of drop axles has resulted in vehicles with concentrated loading 
that far exceeds the standard vehicles used for load rating.
    There has been insufficient funding to replace bridges at a 
sustainable rate. If the funding is maintained at current levels, this 
trend will continue and the average bridge age will continue to 
increase, while the conditions continue to decrease. Bridges will 
deteriorate faster than they can be repaired and/or replaced. This will 
require load limiting (posting) of bridges and/or the closing of 
bridges. Thus limiting the use of the existing transportation system--
significantly impacting the Nation's economy.
    A funding program is needed that will allow states to ``sustain'' 
an efficient transportation system for the distant future. Since 
bridges have a 50 to 100 year lifespan, the results of a non-
sustainable funding program are not immediately apparent, but will 
nonetheless result in significant impacts to the economy if not dealt 
with at a level that will ``sustain'' the efficiency needed for 
economic growth.
    Some states report that, in the short-term, failure to maintain SD 
bridges will necessitate costly ``emergency'' repairs to allow routes 
to remain open at required functional levels. These emergency repairs 
reduce funds available for more permanent and cost effective 
rehabilitations

Is Current Bridge Investment Adequate?

    It should be noted that currently states are spending dramatically 
more money on bridges than is provided under the federal Bridge 
Program. For example, in 2004 the federal Highway Bridge Program 
provided $5.1 billion to the states. That year, states actually spent 
$6.6 billion in federal aid for bridge rehabilitation. State and local 
funding added another $3.9 billion for bridge repairs. FHWA reports 
that in 2004 a total of $10.5 billion was invested in bridge 
improvements by all levels of government.
    Oregon's 10-year state bonding program is providing $1.3 billion of 
state funding for the rehabilitation of hundreds of deficient bridges. 
This is twice the amount received in federal bridge funding.
    According to U.S. DOT's 2006 Conditions and Performance Report, the 
backlog of needed repairs on National Highway System bridges alone 
total over $32 billion, which includes over $19 billion needed on 
Interstate Highway System bridges. Structurally deficient bridges on 
the National Highway System only represent one-tenth of the total 
number of structurally deficient bridges on the U.S. road network. As 
wear and tear on our nation's infrastructure continues, it will only 
continue to increase the needs in coming years.
    The Conditions and Performance report also states that maintaining 
the current investment level of $10.5 billion annually would reduce the 
backlog of bridge needs by half over the next 20 years. An increase in 
that investment level to $12.4 billion per year for bridge system 
rehabilitation would eliminate the backlog by 2024, excluding any kind 
of necessary spending on expansion or enhancements.
    In addition to providing needed additional funding, we recommend 
investigating what can be done to streamline processes that delay the 
implementation of needed repairs on our nation's highway system, 
including reducing environmental red tape and allowing the use of 
proprietary engineering-related products that could spur innovation in 
long-term solutions.
    During the last reauthorization of the federal transportation bill, 
SAFETEA-LU gradually increased annual funding levels for the Highway 
Bridge Program by six percent over the life of the bill (from FY 2005 
to FY 2009). However, far outpacing that increased funding have been 
dramatic increases in materials costs for steel, concrete, fuel, 
asphalt. States report that prices jumped 46 percent over the years 
from 2003-2006. In addition, the Conditions and Performance report 
attributes increases in the ``cost to maintain highways'' to the rising 
cost of construction in large urbanized areas due to environmental 
mitigation and construction strategies (such as night work) intended to 
reduce the impacts of work zones on users.
    Aside from the well-documented dramatic increases in construction 
costs, there have been equally dramatic increases in traffic, 
especially heavy trucks, on the Nation's major highways. Today, the 
average mile of Interstate highway carries 10,500 trucks per day. By 
2035, that number is expected to more than double to 22,700 trucks per 
day.
    The truck issue also extends to overweight vehicles. As an example, 
in Iowa, the DOT's Bridge Office issues an average of 50 permits per 
day for trucks weighing over 156,000 pounds, or approximately 7,500 
permits per year. These trucks are roughly twice the standard ``legal'' 
weight limit, causing significant wear and tear on the system, but are 
necessary for the economic health of our country. And these numbers are 
only anticipated to increase.
    Thus, we are left with a system that has challenges to meet, and a 
program that does not have enough funding to overcome the current 
backlog.

Question 3
A)  How do State and local governments use the results of research and 
technology development by the Federal Government?

    Many states work closely with the FHWA, AASHTO, and other groups to 
share technology with local government agencies and consultants. In 
addition, training programs such as the National Highway Institute, 
Library sessions, and Webinar's, are used to exchange information. 
Similar to any field, advances in highway infrastructure typically are 
the result of cumulative improvements over time from many sources 
instead of major breakthroughs. The Departments of Defense, Energy, 
Commerce, and Transportation all contributed to the state-of-the-art in 
structural steels, corrosion-resistant materials, Portland cement 
concrete, and asphaltic concrete that are now routinely used for 
highways. In addition to the materials, designs, and practice that are 
currently in use, reports and research papers stemming from Federal 
Government programs are routinely referenced by practitioners and 
researchers at State and local DOTs to make decisions on using a new 
technology or pursuing further research into a new technology.
    There are many excellent reports that are produced through the 
National Cooperative Highway Research Program, under the direction of 
the Transportation Research Board of the National Academies. These 
reports let states know what the leaders in certain areas are doing. 
Taking the time to read reports and learn about what others have done 
enables individual states to avoid the expense and time of learning the 
lessons that have already been learned by others. For example, the 
NCHRP ``Manual for Bridge Rating Through Load Testing'' has excellent 
guidance for bridge owners to test older bridges that have low 
calculated load capacity yet are not deteriorated and seem to be 
performing well.
    The results of many federal research projects are used to implement 
changes to design philosophies and inspection techniques. Recent 
examples include the migration of our design philosophy to LRFD, the 
addition of new SU type rating vehicles to the current federal rating 
vehicles (Type 3, 3S2, 3-3), etc. States use the results of research 
from sources such as NCHRP for the inspection, testing and analysis of 
bridges, when the results of the projects are directly implemented into 
the AASHTO bridge design, maintenance and analysis codes or when the 
results of the research is published.
    In addition, most states enroll DOT staff in National Highway 
Institute (NHI) courses for technical training. NHI courses are 
developed with the help of Federal Government and participate in 
federally sponsored conference and workshops to seek information on new 
technologies.

B)  How do federal technology transfer programs for bridge-related 
research and technology development help the states?

    Technology transfer programs, such as organizing conferences and 
NHI courses, assist states in being aware of the current state-of-the-
practice. Peer exchange programs help peers to meet and discuss best 
practices and issues they face every day. The states encourage FHWA to 
develop periodic bridge inspection/management peer exchange programs 
and program peer reviews to facilitate more discussions and 
improvements.
    The Technology Transfer (T2) program, National Highway Institute, 
and other program are extremely helpful in sharing information. The T2 
program is very beneficial in that it has a dedicated staff to 
administer the program, reducing workload for DOT and FHWA personnel. 
More information on T2 can be found at: http://www.federallabs.org/. 
The Federal Laboratory Consortium for Technology Transfer (FLC) is the 
nationwide network of federal laboratories that provides the forum to 
develop strategies and opportunities for linking laboratory mission 
technologies and expertise with the marketplace. The FLC was organized 
in 1974 and formally chartered by the Federal Technology Transfer Act 
of 1986 to promote and strengthen technology transfer nationwide. 
Today, more than 250 federal laboratories and centers and their parent 
departments and agencies are FLC members.
    In many federally sponsored technology transfer events, individuals 
with many years of experience are able to share what technology had 
worked for them, and what technology had fallen short. This was an 
excellent forum to learn about the research being done on a recently 
developed paint that holds promise for a significantly longer service 
life. Without technology transfer programs, individual states would not 
benefit from the lessons of others and would have to rely exclusively 
on vendor information. One example of these types of events were two 
Bridge Preservation Workshops held earlier this year. These workshops 
enabled engineers from all states to gather together and discuss issues 
related to bridge management and maintenance.
    In addition, technology transfer and programs such as the 
Innovative Bridge Research and Deployment Program (IBRD) provide a 
means to disseminate information, experience and ``lessons learned'' 
that allow states to use new materials such as high strength steel and 
high performance concrete more efficiently. More information on IBRD 
can be found at: http://www.fhwa.dot.gov/bridge/ibrd/

C)  What technical assistance have state and local governments received 
from the U.S. DOT for steel truss bridge inspections following the 
bridge collapse in Minneapolis? Was this technical assistance helpful?

    Since August 1, in compliance with federal requests, every state 
has reviewed or is in the process of re-inspecting its steel deck truss 
bridges.
    Most states noted that although their FHWA division office let them 
know they were available to assist, no assistance from them was needed 
or solicited. However, several states noted and appreciated the 
numerous forms of technical assistance provided by FHWA ranging from 
Technical Advisories, copies of reports, updates on emergency efforts, 
national teleconferences, and meetings with the local FHWA office. A 
few states also noted that the technical advisories did provide a basis 
for a uniform national response in light of the I-35 collapse in 
Minnesota.
    In Georgia, it was noted that the FHWA Division participated in the 
inspections of GDOT's two steel deck truss bridge structures and GDOT 
appreciated their participation in the inspections.

Conclusion

    We continue to make progress in addressing bridge replacement and 
rehabilitation needs, but there just isn't enough money to close the 
gap. Each year, as bridges continue to age and deteriorate, it is an 
uphill battle to keep up with the demands.
    AASHTO and the State DOTs stand ready to help Congress address the 
needs for transportation infrastructure in America. The tragic 
Minneapolis bridge collapse rightly raises concerns about the condition 
and needs of the Nation's bridges. AASHTO and the State DOTs continue 
to work with NTSB and others as they investigate the cause of this 
tragic event, and when a cause has been identified we are committed to 
working jointly with Congress to address the issue head-on and to 
correct the situation in the most expedient way possible. Until that 
time, it is important to avoid premature speculations, and diligently 
obtain all relevant data to arrive at the appropriate solution.

                     Biography for Harry Lee James

    After having earned a Bachelor of Science Degree in Civil 
Engineering (with honors) from Mississippi State University (MSU) in 
1976, Harry Lee James worked in the private construction industry and 
later for a consulting engineering firm before joining the MDOT team as 
a bridge designer in 1982. Mr. James was appointed State Bridge 
Engineer in 1999, and in February 2003 he was appointed to the position 
of Deputy Executive Director/Chief Engineer. Because of his focus on 
bridges throughout his career, this appointment has given Mr. James the 
unique opportunity and obligation to promote better and safer bridges.
    Mr. James is a licensed Professional Engineer and a licensed 
Professional Land Surveyor in Mississippi. He serves on the American 
Association of State Highway Officials' (AASHTO) Standing Committee on 
Highways, he is a member of the National Cooperative Highway Research 
Program (NCHRP) 12-62 Panel, and he was formerly on the AASHTO 
Subcommittee on Bridges and Structures. Mr. James serves as vice chair 
of the AASHTO Standing Committee on TRAC and is the committee's newest 
member. Mr. James believes that top-down support of TRAC, or any 
program is key to its success, and he plans to bring that message to 
the states within his southeast U.S. AASHTO district.
    Mr. James is a native of Canton, Mississippi. He is the father of 
two young children, both girls. Together with his wife, who is also an 
engineer, they hope to inspire their children to careers in 
transportation.

    Mr. Lipinski. Thank you, Mr. James. I feel right at home 
here with all the engineers on the panel. Dr. Womack?

STATEMENT OF DR. KEVIN C. WOMACK, DIRECTOR, UTAH TRANSPORTATION 
CENTER; PROFESSOR OF CIVIL AND ENVIRONMENTAL ENGINEERING, UTAH 
                        STATE UNIVERSITY

    Dr. Womack. Thank you. I am here as the Chair of the 
Transportation Policy Committee of the American Society of 
Civil Engineers, but I am also a structural engineer by 
training and have been involved in the area of bridge research 
for the past 15 years. I am pleased to lend ASCE's expertise to 
the problem of the Nation's crumbling infrastructure that was 
highlighted by the collapse of the I-35 West bridge in 
Minneapolis.
    Like all bridges, all man-made structures deteriorate. 
Deferred maintenance allows deterioration and causes bridges to 
be more susceptible to failure. As with other critical 
infrastructure, a significant increase in investment is 
essential to maintain the benefits and to assure the safety 
that society demands. Research is a critical effort that can 
reduce the existing investment gap between the funding 
available and the funding needed to improve the condition and 
performance of our highway infrastructure.
    The Highway Trust Fund has been an essential source of 
funding for surface transportation research and technology and 
SAFETEA-LU, the Surface Transportation Research, Deployment and 
Development and the University Transportation Research sections 
were both completely programmed or earmarked and over-
authorized creating a difficult environment within which FHWA 
and RITA must allocate funds. An added result to this fact is 
that FHWA now has no discretionary funds to maintain certain 
core research programs, which means that its Turner-Fairbank 
Highway Research Laboratories are underutilized, its contract 
research program is limited, and such critical efforts such as 
the biennial Conditions and Performance Report may be in 
jeopardy. The practice of extreme programming and earmarking of 
the research title needs to be eliminated in future 
transportation authorization bills.
    When looking at research in bridges, the current university 
and FHWA research activities do look at materials and process. 
Newer, more efficient designs can now be made due to computer 
analyses, which have been researched extensively. Design 
methods, the newest of which is the Load and Resistance Factor 
Design, have been researched and must continue to be researched 
to determine the performance of these lighter structures that 
use materials more efficiently.
    There is a need to study long-term bridge life to develop a 
better understanding of how bridges age and deteriorate. This 
will allow us to better predict and model bridge behavior and 
could lead to improved maintenance practices and better bridge 
management. The FHWA's Long-Term Bridge Performance Program, a 
planned 20-year research program, should lead the way in this 
effort.
    Obviously, to maintain bridges, more funds are needed, and 
more of those funds need to go into the maintenance of the 
structure, not just the deck. It is our hope that the Long-Term 
Bridge Performance Program will help to provide answers as to 
how to properly channel our nation's bridge maintenance funds.
    Once a bridge is safely and optimally designed, it is of 
most use to the public if it can be built quickly and with the 
least disruption to traffic. Accelerated bridge construction 
can help to accomplish this goal. Prefabrication of bridge 
elements and new construction techniques are being championed 
by states and the Federal Highway Administration. However, 
performance questions remain, particularly in the area of 
seismic performance of these types of structures. Research into 
these types of questions is essential.
    In terms of safety, inspection is the crux of this issue. A 
more clearly defined inspection protocol should be developed 
through research that goes beyond visual inspections to testing 
and monitoring that includes instrumentation. This new protocol 
must be as objective as possible with no doubt as to what steps 
are to be taken and when. One way to make visual inspection 
less subjective is to have it done by licensed, professional 
engineers and not by technicians. This, however, will lead to 
an exacerbation of the workforce issue and the current shortage 
of civil engineers, particularly in the transportation area.
    The objective of research is to develop beneficial new 
technologies that will be better performing and more durable. 
Though the initial cost of these new technologies may be 
higher, their efficiencies and durability will, in the long 
run, reduce maintenance, repair, and rehabilitation costs in 
addition to creating longer service lives. This is how research 
can assist in closing the current investment gap that is so 
well-defined in the Conditions and Performance Report. The 
Federal Government should do more to encourage states to use 
new technologies without requiring the states to assume all the 
risk. There is an FHWA program, the Innovative Bridge Research 
and Deployment Program, that is designed to provide money to 
states for the use of innovating materials or technologies. 
This program needs to be expanded and monitored to ensure that 
these funds actually go toward proving new technologies. 
However, at the end of the day, procurement and procedures must 
be changed to count for life cycle costs, innovation, and 
contractor qualifications, or there will be no motivation to 
use new technologies. Successfully and efficiently addressing 
the Nation's infrastructure issue, bridges and highways 
included, will require long-term, comprehensive, nationwide 
strategy, one that includes research. For the safety and 
security of our families, we as a nation can no longer afford 
to ignore this growing program. We must demand leadership from 
our elected officials because without action, aging 
infrastructure represents a growing threat to public health, 
safety, and welfare, as well as to the economic well-being of 
our nation.
    Thank you, Mr. Chairman, that concludes my statement. I 
will be glad to answer any questions the Committee would have.
    [The prepared statement of Dr. Womack follows:]

                 Prepared Statement of Kevin C. Womack

Chairman Gordon, Congressman Hall and Members of the Committee:

    Good morning. I am Kevin Womack, Chair of the Transportation Policy 
Committee of the American Society of Civil Engineers (ASCE).\1\ I am a 
Professor of Civil and Environmental Engineering at Utah State 
University and Director of the Utah Transportation Center, a federally 
funded University Transportation Center. I serve on the National 
Academies' Research and Technology Coordinating Committee, an advisory 
committee to the Federal Highway Administration. I am a structural 
engineer by training and have been involved in the area of bridge 
research for the past 15 years.
---------------------------------------------------------------------------
    \1\ ASCE, founded in 1852, is the country's oldest national civil 
engineering organization. It represents more than 140,000 civil 
engineers in private practice, government, industry, and academia who 
are dedicated to the advancement of the science and profession of civil 
engineering. ASCE is a 501(c) (3) non-profit educational and 
professional society.
---------------------------------------------------------------------------
    Thank you for holding this hearing. As someone who has worked in 
this field for many years, I can say that there are few infrastructure 
issues of greater importance to Americans today than bridge safety.
    I am pleased to appear today to lend ASCE's expertise to the 
problem of the Nation's crumbling infrastructure that was highlighted 
by the tragic events of August 1, 2007, when the I-35W Bridge in 
Minneapolis collapsed into the Mississippi River.

I. Bridge Conditions

    More than four million vehicles cross bridges in the United States 
every day and, like all man-made structures, bridges deteriorate. 
Deferred maintenance accelerates deterioration, which may make bridges 
more susceptible to failure. As with other critical infrastructure, a 
significant investment is essential to maintain the benefits and to 
assure the safety that society demands.
    In 2005, ASCE issued the latest in a series of assessments of the 
Nation's infrastructure. Our 2005 Report Card for America's 
Infrastructure found that as of 2003, 27.1 percent or 160,570 of the 
Nation's 590,753 bridges were structurally deficient or functionally 
obsolete, an improvement from 28.5 percent in 2000. In fact, over the 
past 12 years, the number of deficient bridges, both structurally 
deficient and functionally obsolete categories, has steadily declined 
from 34.6 percent in 1992 to 25.8 percent in 2006.
    However, this improvement is contrasted with the fact that one in 
three urban bridges (31.2 percent or 43,189) were classified as 
structurally deficient or functionally obsolete, much higher than the 
national average.
    In 2005, the FHWA estimated that it would cost $9.4 billion a year 
for 20 years to eliminate all bridge deficiencies. In 2007, FHWA 
estimated that $65 billion could be invested immediately in a cost 
beneficial manner to address existing bridge deficiencies.
    The 10-year improvement rate from 1994 to 2004 was a 5.8 percent 
(32.5 percent - 26.7 percent) reduction in the number of deficient 
bridges. Projecting this rate forward from 2004 would require 46 years 
to remove all deficient bridges. Unfortunately, bridges are now 
deteriorating at a rate faster than we can maintain them, so this 46 
year projection has grown to 57 years to eliminate all deficient 
bridges. This shows that progress has been made in the past in removing 
deficient bridges, but our progress is now slipping or leveling off.
    There is clearly a demonstrated need to invest additional resources 
in our nation's bridges. However, deficient bridges are not the sole 
problem with our nation's infrastructure. The U.S. has significant 
infrastructure needs throughout the transportation sector including 
roads, public transportation, airports, ports, and waterways. As a 
nation, we must begin to address the larger issues surrounding our 
infrastructure so that public safety and the economy will not suffer.

II. Bridge Inspection Program

    The National Bridge Inspection Standards (NBIS), in place since the 
early 1970s, require biennial safety inspections for bridges in excess 
of 20 feet in total length located on public roads. These inspections 
are to be performed by qualified inspectors. Structures with advanced 
deterioration or other conditions warranting closer monitoring are to 
be inspected more frequently. Certain types of structures in very good 
condition may receive an exemption from the two-year inspection cycle. 
These structures may be inspected once every four years. Qualification 
for this extended inspection cycle is reevaluated depending on the 
conditions of the bridge. Approximately 83 percent of bridges are 
inspected once every two years, 12 percent are inspected annually, and 
five percent are inspected on a four-year cycle.
    Information is collected documenting the conditions and composition 
of the structures. Baseline composition information is collected 
describing the functional characteristics, descriptions and location 
information, geometric data, ownership and maintenance 
responsibilities, and other information. This information permits 
characterization of the system of bridges on a national level and 
permits classification of the bridges. Safety, the primary purpose of 
the program, is ensured through periodic hands-on inspections and 
ratings of the primary components of the bridge, such as the deck, 
superstructure, and substructure. This classification and condition 
information is warehoused in the National Bridge Inventory (NBI) 
database maintained by FHWA. This database represents the most 
comprehensive source of information on bridges throughout the United 
States.
    It is important to note, however, that the value of the NBI is 
limited, although it is certainly a useful tool to evaluate the 
condition of public bridges. Among its limitations, a user cannot tell 
the condition of a specific element of the bridge, i.e., a girder or 
diaphragm or bearing. The overall rating encompasses the 
superstructure, the substructure, and the deck which all have unique 
elements. Therefore, the NBI cannot offer the kind of information that 
may be required for in-depth analysis.
    Two documents, the American Association of State Highway and 
Transportation Officials' (AASHTO) Manual for Condition Evaluation of 
Bridges and the FHWA's Recording and Coding Guide for the Structure 
Inventory and Appraisal of the Nation's Bridges, provide guidelines for 
rating and documenting the condition and general attributes of bridges 
and define the scope of bridge inspections. Standard condition 
evaluations are documented for individual bridge components as well as 
ratings for the functional aspects of the bridge. These ratings are 
weighted and combined into an overall Sufficiency Rating for the bridge 
on a 0-100 scale. These ratings can be used to make general 
observations on the condition of a bridge or an inventory of bridges.
    The factors considered in determining a sufficiency rating are: 
S1--Structural Adequacy and Safety (55 percent maximum), S2--
Serviceability and Functional Obsolescence (30 percent maximum), S3--
Essentiality for Public Use (15 percent maximum), and S4--Special 
Reductions (detour length, traffic safety features, and structure 
type--13 percent maximum).
    In addition to the sufficiency rating, these documents provide the 
following criteria to define a bridge as structurally deficient or 
functionally obsolete, which triggers the need for remedial action. The 
structural capacity of a bridge is also determined and is used to 
decide if a bridge should be restricted to trucks of lower weights.

Structurally Deficient--A structurally deficient bridge may be 
restricted to light vehicles because of its deteriorated structural 
components. While not necessarily unsafe, these bridges usually have 
limits for speed and weight, and are approaching the condition where 
replacement or rehabilitation will be necessary. A bridge is 
structurally deficient if its deck, superstructure, or substructure is 
rated less than or equal to 4 (poor) or if the overall structure 
evaluation for load capacity or waterway adequacy is less than or equal 
to 2 (critical). This is on a condition scale with ratings between 9 
(excellent) and 0 (representing a failed condition). In a worse case 
scenario, a structurally deficient bridge may be closed to all traffic.

Functionally Obsolete--A bridge that is functionally obsolete is safe 
to carry traffic but has less than the desirable geometric conditions 
required by current standards. A bridge is functionally obsolete if the 
deck geometry, under-clearances, approach roadway alignment, overall 
structural evaluation for load capacity, or waterway adequacy is rated 
less than or equal to 3 (serious). A functionally obsolete bridge has 
older design features and may not safely accommodate current traffic 
volumes and vehicle sizes. These restrictions not only contribute to 
traffic congestion, but also pose such major inconveniences as lengthy 
detours for school buses or emergency vehicles.

Structural Capacity--Components of bridges are structurally load-rated 
at inventory and operating levels of capacity. The inventory rating 
level generally corresponds to the design level loads but reflects the 
present bridge and material conditions with regard to deterioration and 
loss of section. Load ratings based on the inventory level allow 
comparisons with the capacities for new structures. The inventory level 
results in a live load which can safely utilize an existing structure 
for an indefinite period of time. The operating rating level generally 
describes the maximum permissible live load to which the bridge may be 
subjected. This is intended to tie into permits for infrequent passage 
of overweight vehicles. Allowing unlimited numbers of vehicles to use a 
bridge at the operating level may shorten the life of the bridge.

Bridge Engineers and Bridge Inspectors:
    Bridge inspection services should not be considered a commodity. 
Currently, NBIS regulations do not require bridge inspectors to be 
Professional Engineers, but do require individuals responsible for load 
rating the bridges to be Professional Engineers. ASCE believes that 
non-licensed bridge inspectors and technicians may be used for routine 
inspection procedures and records, but the pre-inspection evaluation, 
the actual inspection, ratings, and condition evaluations should be 
performed by licensed Professional Engineers experienced in bridge 
design and inspection. They should know the load paths, critical 
members, fatigue prone details, and past potential areas of distress in 
the particular type of structure being inspected. They must evaluate 
not only the condition of individual bridge components, but how the 
components fit into and affect the load paths of the entire structure. 
The bridge engineer may have to make immediate decisions to close a 
lane, close an entire bridge, or take trucks off a bridge to protect 
the public safety.
    A new inspection protocol must be developed. This will involve 
visual inspection, load testing, and monitoring through instrumentation 
of bridges. The new protocol must be as objective as possible, with no 
doubt as to what steps are to be taken and when. One way to make the 
visual inspection less subjective is to have them all done by licensed 
professional engineers and not by technicians. This, however, will lead 
to an exacerbation of the workforce issue and the current shortage of 
civil engineers, particularly in the transportation arena, that is only 
going to get worse.

III. Bridge Design and Research

    The Highway Trust Fund has been an essential source of funding for 
surface transportation research and technology (R&T) for decades. 
Research results have led to many benefits including: materials that 
improve the performance and durability of pavements and structures; 
design methods that reduce scour (and the consequent threat of 
collapse) of bridges; intelligent transportation systems technologies 
that improve safety and reduce travel delay; methods and materials that 
radically improve our ability to keep roads safely open in severe 
winter weather; innovative management approaches that save time and 
money; and analytical and design approaches that reduce environmental 
impacts, support sustainable development and improve the aesthetic and 
cultural aspects of transportation facilities.
    These benefits are provided through several major transportation 
research programs. In the highway area these programs include the FHWA 
program, the National Cooperative Highway Research Program (NCHRP), and 
State department of transportation programs largely funded through 
State Planning and Research (SPR) funds. In the transit area the main 
programs are that of the Federal Transit Administration (FTA) and the 
Transit Cooperative Research Program (TCRP). The University 
Transportation Centers (UTC) program supports various transportation 
modes.
    In SAFETEA-LU, the Surface Transportation Research, Deployment and 
Development and the University Transportation Research sections were 
both completely programmed or earmarked and over-authorized, creating a 
difficult environment within which FHWA and the Research and Innovative 
Technology Administration (RITA) must allocate funds. An added result 
to this practice is that FHWA now has no discretionary funds to 
maintain certain core research programs, which means that its Turner-
Fairbank Highway Research Center laboratories are underutilized. The 
Research Center's contract research program is limited, as is its 
provision of expert technical support for states when they encounter 
bridge and tunnel problems. States are now made to prove they can pay 
for any FHWA technical support. Finally, such critical efforts as the 
biennial Conditions and Performance Report may be in jeopardy. The 
practice of extreme programming and earmarking of the research title 
needs to be eliminated in future surface transportation authorization 
bills. Competition and selection on qualifications, not special 
interest group influence is essential for an effective research 
program. And the FHWA must be left with sufficient discretionary funds 
to maintain certain core programs.
    When looking at research on bridges, the current university and 
FHWA research agenda does look at materials and process. While 
materials and process are areas for improvement, the design of bridges 
is a well-developed discipline. In fact, one reason the bridges in this 
country have lasted so long is that those 30-, 40-, and 50-year-old, or 
even older bridges were typically designed very conservatively with 
appropriate redundancy. Newer more efficient designs can now be made 
due to computer analyses (finite elements), improved materials, and 
construction advances, which have been researched extensively. Design 
methods, the newest of which is the Load and Resistance Factor Design 
(LRFD) have been researched and must continue to be researched to 
determine the performance of these lighter structures that use 
materials more efficiently.
    Better performing concretes can be made with increased durability 
and, if needed, increased strength. Evaluation of this concrete with 
new, high strength reinforcing bars is needed, as well as research into 
the engineering properties and feasibility of using lightweight high 
performance concrete for bridges.
    Research is ongoing at NCHRP to evaluate the remaining fatigue life 
of existing older steel bridges in America. This is an important study. 
However we also need to continue the research, development, and 
deployment of high performance steel for bridges, with its increased 
toughness and improved weldability.
    Fiber-reinforced polymer (FRP) composites continue to hold promise 
for the future for bridges. Research to develop guidelines for using 
FRP in bridge decks, as well as using FRP externally-bonded sheets as a 
strengthening repair system for concrete girders and piers, is 
important.
    Bridge and tunnel security is an area that demands our attention. 
Research into blast resistant design for bridges and tunnels and 
development of specifications and training materials for bridge 
engineers is important to our nation's security.
    Hurricane Katrina is most known to engineers for the damage that it 
did to New Orleans and the levees. What isn't as well known is the 
damage that it did to bridges in Louisiana, Mississippi, and Alabama 
due to wave action, storm surge, and debris. Research being done 
through a joint AASHTO-FHWA-TRB transportation pooled-fund study to 
develop Guide Specification and a Handbook of Retrofit Options for 
Bridges Vulnerable to Coastal Storms is critical work for the safety 
and operability of our nation's bridges during extreme events.
    There is also a need to study long-term bridge life to develop a 
better understanding of how bridges age and deteriorate. This will 
allow us to better predict and model bridge behavior and could lead to 
improved maintenance practices and better bridge management. The FHWA's 
Long-Term Bridge Performance Program, a planned 20-year research 
program, should lead the way in this effort. At present, this program 
is significantly under-funded.
    As for maintenance, it is based on the funding available and which 
bridge is most in need of repair. That usually means deck repair, not 
the structure of the bridge. When the public notices problems, such as 
potholes and the like, these get attention. The public rarely notices 
severe structural problems unless concrete is falling from the bottom 
of an overpass bridge.
    Obviously, to properly maintain bridges, more funds are needed, and 
more of those funds need to go into the maintenance of the structure, 
not just the deck. It is our hope that the Long-Term Bridge Performance 
Program will help to provide answers as to how to properly channel our 
nation's bridge maintenance funds.
    Once the bridge is safely and optimally designed, it is of most use 
to the public if it can be built quickly and with the least disruption 
to traffic. Accelerated bridge construction can help to accomplish this 
goal. Prefabrication of bridge elements and new construction techniques 
are being championed by states and the Federal Highway Administration. 
However, some questions remain concerning performance in earthquake 
regions. Research into these questions is needed.
    In short, how bridges are designed, withstand extreme events, age, 
and how construction techniques and materials for bridges can improve 
should continue to be researched to look for more efficient practices.
    In terms of safety, inspection is the crux of this issue. I firmly 
believe that a more rigorous inspection and testing protocol should be 
developed and this should be a significant research topic. This is 
where an issue arises with the I-35W bridge. It was inspected 
appropriately, issues were discovered, and then there were no strict 
guidelines as to what to do next. It was decided to more closely 
monitor and inspect the bridge, but that was all done visually. If a 
better defined protocol were developed, the next step should have been 
instrumentation that could have been permanently placed on the bridge 
to monitor its condition constantly. The chances that instrumentation 
would have picked up something critical in Minneapolis would have been 
much greater than further visual inspections alone. Whether or not this 
would have picked up the impending failure is something we cannot know, 
but chances would have definitely been better.
    A more clearly defined inspection protocol should be developed, 
through research, which goes beyond visual inspections to include 
testing and monitoring with instrumentation.
    Few states or their bridge contractors take advantage of new 
technologies due to the current practice of selecting low-cost bids. 
There usually is no incentive for the contractors to use new 
technology; it is often more expensive and may have increased risk. 
Until life cycle costs, along with the consideration of innovative 
materials or construction practices, are considered in awarding bids, 
then nothing is going to happen. States are very wary of using new 
materials and technologies, because if the technology does not work, 
the state becomes legally liable.
    The Federal Government should do more to allow states to use new 
technologies, without requiring the states to assume all the risk. 
There is an FHWA program--the Innovative Bridge Research and Deployment 
program, with a funding level of $13.1 million available--that is 
designed to provide money to states for the use of innovative material 
or technologies. However, I do not believe the funds are being used by 
all the states in a manner that would result in proof of new 
technologies.
    Again, until procurement procedures are changed to account for life 
cycle costs, innovation, and contractor qualifications, there is little 
motivation or financial incentive to be innovative.

IV. Addressing the Current Bridge Deficiencies

    We need to adopt a risk-management approach to determine our 
priorities for the maintenance, rehabilitation and replacement of 
bridges. We must define the greatest risk, looking at the likelihood of 
bridge failure and the cost in lives and money of such a failure. We 
must then determine where the funds should go to ensure the greatest 
return in terms of public safety. This means that the bridges in the 
worst shape do not necessarily get the money for repairs if they have a 
low potential loss of life and economic impact. With limited funds, 
this is the most fiscally most responsible way to go.
    The short-term consequences are what we have seen occur-periodic 
bridge failures that result in loss of life and economic loss. The 
long-term consequences of doing nothing more than we do now will be 
potentially disastrous. As the classic bridges (unique designs that 
span major rivers) become older and the Interstate bridges reach the 
end of their design life, bridge collapses may become more frequent 
with time, as will the resulting loss of life, and the economic 
consequences of tying up the country's major shipping lanes.

V. ASCE's Policies Regarding Bridges

    In 1988, the National Council on Public Works Improvement estimated 
that a doubling of the annual expenditure on infrastructure is needed 
to meet national needs. Doubling of spending, even through the use of 
innovative financing techniques, is unlikely. To increase productivity 
and reduce costs through the development of innovative design, 
materials, construction methodologies, rehabilitation technologies, 
maintenance procedures, and operation techniques are essential, to 
reducing the correct investment gap that exists in caring for our 
surface transportation infrastructure.
    Currently, there are a number of obstacles which discourage 
innovation on a widespread scale. Civil engineers, for example, are 
under increasing pressure to eschew innovation and to be conservative 
in their judgment because of lawsuits, rules, regulations, legislation, 
standards, budget expectations and restrictions, and a desire for 
financial predictability.
    Fragmentation of the design and construction industry limits the 
support of long-term research efforts that could result in 
technological gains and innovation. Appropriate technical innovation 
and support groups can contribute to improved disaster resilience, cost 
effectiveness and improved productivity and quality throughout the 
infrastructure industry.
    The public demands that the operation, maintenance, expansion, 
rehabilitation and new construction of the Nation's infrastructure be 
performed to enhance economic vitality, disaster resilience and public 
safety, but with minimal impact on their lives. The public requirement 
calls for innovative solutions to minimize costs of delays, 
environmental costs and project costs. Establishing these innovative 
solutions requires coordination and sustained research and development.

INFRASTRUCTURE RESEARCH AND INNOVATION
    ASCE supports efforts to foster research and development related to 
infrastructure facilities. The goal is to enhance support of economic 
vitality while assuring public safety and disaster resilience through 
increased innovation, productivity and security in design, materials, 
construction, rehabilitation, maintenance and operations as applied to 
America's infrastructure facilities.
    ASCE believes appropriate methods to implement infrastructure 
research, innovation and security include:

        <bullet>  Supporting legislation and policies that encourage 
        development of new technology and processes;

        <bullet>  Supporting and encouraging, through appropriate 
        incentives, research to accelerate the development of existing 
        technology and develop new technology in the fields of design, 
        materials, construction, maintenance, rehabilitation, and 
        operation of the infrastructure with understanding of the need 
        for disaster resilience;

        <bullet>  Supporting appropriate funding for infrastructure 
        research at the federal level in conjunction with State/local 
        agencies, universities and private enterprise;

        <bullet>  Supporting efforts to identify and disseminate 
        information on Federal, State, and local governments, academia 
        and private sector infrastructure research and development 
        activities;

        <bullet>  Supporting efforts to limit the risk and liability 
        that would discourage innovative infrastructure technology;

        <bullet>  Focusing national attention on infrastructure needs 
        through cooperative efforts;

        <bullet>  Providing opportunities for academia and practicing 
        engineers to conduct research and development activities; and

        <bullet>  Supporting efforts that develop and implement new 
        strategies and technologies to mitigate the impact of disasters 
        on the Nation's infrastructure in a consistent manner.

The Role of the Federal Government in Civil Engineering Research and 
        Development
    Federal R&D funding currently provides a substantial percent of the 
total U.S. civilian R&D investment. Federal leadership is essential to 
civil engineering research. With inadequate federal funding, the 
ability to maximize the leveraging of R&D funds through government-
university-industry partnerships would not be possible.
    ASCE supports a focused federal civil engineering research and 
development (R&D) program consistent with national goals. Programs 
should promote new U.S. capabilities, improve efficiencies and advance 
the practice of civil engineering to improve the quality of life.
    ASCE encourages coordinated and integrated basic and applied civil 
engineering research that leverages federal R&D funds through 
government-university-industry partnerships. Programs fostering basic 
research should focus on maintaining a steady flow of talent and 
technology to U.S. industry and agencies. Programs focusing on higher 
risk research with the potential for high payoff should meet national 
needs and improve the quality of life by:

        <bullet>  Enhancing public health and safety;

        <bullet>  Enhancing environmental quality;

        <bullet>  Supporting the goals of sustainable development;

        <bullet>  Improving public works infrastructure;

        <bullet>  Improving global competitiveness in U.S. civil 
        engineering products and processes; and

        <bullet>  Enhancing national security.

SURFACE TRANSPORTATION RESEARCH FUNDING
    ASCE supports the following general principles in the 
reauthorization of research and technology programs in the Nation's 
surface transportation legislation:

        <bullet>  Improvements resulting from research and technology 
        (R&T) are critical to achieving national transportation goals 
        in safety, quality of life, economic health, environmental 
        impacts, sustainability, and security.

        <bullet>  Adequate funding should be dedicated to R&T 
        activities.

        <bullet>  Research programs should be conducted according to 
        the highest scientific and engineering standards, from 
        priority-setting to award of contracts and grants to review and 
        evaluation of research results for implementation.

        <bullet>  Research programs should be carried out with 
        appropriate involvement from stakeholders in the public, 
        private, and academic sectors.

        <bullet>  Technology transfer activities are critical to 
        successful implementation of research results and should be 
        supported with R&T funds.

        <bullet>  Public-private partnerships should be fostered by 
        identifying appropriate roles for each partner and providing 
        incentives for private investment.

    Within the context of the general principles set out above, ASCE 
supports the following actions regarding specific surface 
transportation R&T programs.

        <bullet>  The research and technology portion of the State 
        Planning and Research (SPR) program should be maintained to 
        help support state-specific activities while continuing to 
        encourage the states to pool these resources to address matters 
        of more general concern.

        <bullet>  University research should continue to be supported 
        through the University Transportation Centers (UTC) program 
        using a competitive selection process that guarantees quality 
        participants and fairness in the allocation of funds. The 
        Federal Highway Administration's (FHWA) program should be 
        strengthened by giving it sufficient funding and flexibility to 
        implement the recommendations of TRB Special Report 261, The 
        Federal Role in Highway Research and Technology: to focus on 
        fundamental, long-term research; to perform research on 
        emerging national issues and on areas not addressed by others; 
        to engage stakeholders more consistently in their program; and 
        to employ open competition, merit review, and systematic 
        evaluation of outcomes.

        <bullet>  A continuation of the Strategic Highway Research 
        Program SHRP II beyond the life of SAFETEA-LU, ensuring that 
        critical research will be continued in key areas of surface 
        transportation.

        <bullet>  The Federal Transit Administration's (FTA) research 
        program should be given sufficient funding and flexibility to 
        work with its stakeholders to develop and pursue national 
        transit research priorities.

        <bullet>  The new Research and Innovative Technology 
        Administration (RITA) should have a well-defined scope and 
        responsibility and appropriate funding, in addition to 
        currently authorized research funding, so that it may 
        supplement and support the R&T programs of the modal 
        administrations.

VI. Conclusion

    Successfully and efficiently addressing the Nation's infrastructure 
issues, bridges and highways included, will require a long-term, 
comprehensive nationwide strategy--one that includes research and 
identifying potential financing methods and investment requirements. 
For the safety and security of our families, we, as a nation, can no 
longer afford to ignore this growing problem. We must demand leadership 
from our elected officials, because without action, aging 
infrastructure represents a growing threat to public health, safety, 
and welfare, as well as to the economic well-being of our nation.
    Thank you, Mr. Chairman. That concludes my statement. I would be 
pleased to answer any questions that you may have.

                     Biography for Kevin C. Womack
    Dr. Womack is currently Professor of Civil and Environmental 
Engineering at Utah State University, and Director of the Utah 
Transportation Center, a Federally funded University Transportation 
Center.
    Dr. Womack received his Doctorate degree in Civil Engineering from 
Oregon State University in 1989, his Masters of Science degree from the 
University of Pennsylvania in 1985 and his Bachelors of Science degree 
from Oregon State University in 1980. He has been a member of the 
American Society of Civil Engineers for over 20 years and currently 
chairs their National Transportation Policy Committee. He has also 
served as a past Chair of the Technical Committee on Structural 
Identification and Health Monitoring of Constructed Facilities; and as 
a member of the Technical Committee on the Performance of Structures 
During Construction.
    Currently Dr. Womack is also serving on the National Academy's 
Research and Technology Coordinating Committee, an advisory committee 
to the Federal Highway Administration.
    In 2001-02 Dr. Womack worked as an AAAS/ASCE Congressional Fellow 
for the Senate Committee on the Environment and Public Works, under 
then Chairman Senator James Jeffords. He was responsible for writing 
much of the research title contained in the Senate version of SAFETEA.
    Dr. Womack is a registered professional engineer in the States of 
Oregon and Utah, and has worked as a consulting engineer with the firm 
of Kramer, Chin and Mayo, Inc. of Seattle, Washington. He is a 
structural engineer by training and has been involved in the area of 
bridge research for the past 15 years.

    Mr. Lipinski. Thank you, Dr. Womack. I can tell you are all 
engineers because you are all almost sticking within the five-
minute limit which we don't always see.
    Mr. Bernhardt.

    STATEMENT OF MR. MARK E. BERNHARDT, DIRECTOR, FACILITY 
               INSPECTION, BURGESS & NIPLE, INC.

    Mr. Bernhardt. Thank you. Mr. Chairman, honorable Members 
of the Science and Technology Committee, good morning.
    Again, my name is Mark Bernhardt, and I am the Director of 
Facility Inspection for Burgess & Niple in Columbus, Ohio. I 
have been working in the bridge inspection field for over 10 
years, and in that time I have managed, reviewed, or performed 
more than 3,000 bridge inspections.
    Burgess & Niple is also a member of ACEC, the American 
Council of Engineering Companies. ACEC is the business 
association of America's engineering industry representing over 
5,500 member firms from across the country. On behalf of ACEC 
and the industry, we appreciate the opportunity to testify 
before you today to discuss the research and technology that 
contributes to bridge safety.
    In order for transportation agencies to make sound 
decisions regarding bridge maintenance and rehabilitation, they 
require comprehensive information on bridge conditions. Many 
factors control the validity of the data being supplied to the 
decision-makers. These factors are as varied as inspector 
training and experience, effective of bridge management 
systems, inspection methods, and available funding. All of 
these factors play a role in ensuring bridge safety.
    Bridge inspections in the U.S. are generally visual, thus 
qualitative in nature. A comprehensive study of the reliability 
of visual inspection was performed by the FHWA's Non-
Destructive Evaluation Center in 2001. This study suggested 
that visual-only inspections provide data that is often highly 
variable and influenced by many factors such as the inspector's 
comfort level with working at height, structure accessibility, 
and duration of inspection. It is the general consensus within 
the engineering community that visual inspection practices must 
be supported by rigorous training, certification, and quality 
assurance programs and frequently supplemented with testing 
techniques to ensure reliable results.
    The primary non-destructive evaluation techniques utilized 
during the inspection of steel bridges include magnetic 
particle, dye penetrant, and ultrasonics. These tests are 
relatively low cost, and proven protocols have been developed 
for their use and the interpretation of results. For concrete 
bridge decks, very simple procedures such as dragging a chain 
across the bridge deck can be a very good indication of hidden 
deficiencies. Its modern counterpart, ground penetrating radar, 
can do the same thing only more objectively and with 
repeatability. The Bridge Inspector's Reference Manual which 
forms the basis of bridge inspector training programs 
nationwide details these test methods as well as dozens of 
other effective methods.
    What these tests and visual inspection all have in common 
is that they record conditions only at a single point in time. 
They are a mere snapshot of bridge conditions. While this is 
generally adequate for relatively low-risk structures, 
structurally deficient or complex structures that pose a 
greater risk to the traveling public require more. The emerging 
field of structure health monitoring holds much promise for 
real-time evaluation of structures and objective evaluation of 
bridge conditions. Structure health monitoring involves the 
installation of sensors under bridge components that allow for 
remote collection and observation of data at any time. These 
can include strain gauges, weigh-in motion systems, fiber 
optics, cameras, corrosion sensors, and acoustic emission 
equipment, all tied to data servers and digitally accessible in 
real time.
    Funding for research and pilot projects in this area should 
continue to be a priority. Bridge engineers can be most 
effective by providing the decision-makers in transportation 
agencies with objective, data-driven recommendations. This 
data, combined with operational risk-based factors, can be used 
to determine optimum prioritization of bridge repairs.
    Underlying all of this, however, is the fact that simply 
collecting more data and providing more frequent inspections 
will not improve overall bridge safety. Additional funding for 
bridge repair and replacement is required to adequately keep 
pace with bridge program needs.
    Professional engineers benefit greatly from the results of 
research and technology programs funded by the Federal 
Government. The traveling public is the greatest beneficiary, 
however. Lessons learned and the conclusions reached during 
NCHRP and FHWA research projects are effectively disseminated 
to practicing bridge engineers. They are immediately 
incorporated into improved design, evaluation, and analysis 
methods.
    In the weeks following the Minnesota I-35 bridge collapse, 
Burgess & Niple was asked by a number of State transportation 
agencies to assist with the inspection of steel deck truss 
bridges. This work was performed in response to an FHWA 
Technical Advisory. In general, the inspections were carried 
out in the same manner as those completed prior to the I-35 
collapse. Investigation into the I-35 bridge collapse is still 
ongoing. It will likely be some time before the investigating 
engineers reach a definitive conclusion as to the precise cause 
of the collapse. Even if the cause of the collapse is found to 
be unrelated to bridge inspection practices, it is my hope that 
the dialog that has resulted from this tragic event will lead 
to improvements in the field of bridge inspection and result in 
a safer infrastructure system. A better understanding of bridge 
conditions through the expanded use of testing and structure 
health monitoring can help to improve both the allocation of 
bridge repair funds and bridge safety.
    Thank you, Mr. Chairman, and I am happy to answer any 
questions you or the Committee Members may have.
    [The prepared statement of Mr. Bernhardt follows:]

                Prepared Statement of Mark E. Bernhardt

    Mr. Chairman, honorable Members of the Science and Technology 
Committee, good morning.
    My name is Mark Bernhardt and I am the Director of Facility 
Inspection for Burgess & Niple, Inc. in Columbus, Ohio. I have been 
working in the bridge inspection field for over 10 years and in that 
time I have managed, reviewed, or performed more than 3,000 bridge 
inspections and 160 load ratings.
    Burgess & Niple is also a member of ACEC, the American Council of 
Engineering Companies, the business association of America's 
engineering industry representing over 5,500 member firms across the 
country. On behalf of ACEC and the industry, we appreciate the 
opportunity to testify before you today to discuss the research and 
technology that contributes to bridge safety.
    Bridge deterioration is a significant problem facing transportation 
agencies nationwide. This is evidenced by the more than 73,000 
structurally deficient bridges currently listed in the National Bridge 
Inventory (NBI). In order for federal, State, and local agencies to 
make sound decisions regarding bridge maintenance, rehabilitation, and 
replacement programs, they require comprehensive information on bridge 
conditions. Many factors control the validity of the data being 
supplied to the decision-makers in transportation agencies. These 
factors are as varied as inspector training and experience; 
effectiveness of bridge management systems; inspection methods; and 
available funding. All of these factors play a role in ensuring bridge 
safety. In today's testimony, I will focus my comments on just one of 
these areas--inspection methods. Specifically, I will outline some 
common techniques and technologies employed during bridge inspection 
operations, the emerging field of Structure Health Monitoring, and the 
effectiveness of technology transfer programs.

BRIDGE INSPECTION TECHNIQUES

    Bridge inspections in the U.S. are generally visual, thus 
qualitative in nature, and follow the requirements outlined in the 
National Bridge Inspection Standards. Bridge inspections are performed 
to determine if any immediate hazards exist that would warrant reducing 
allowable loads on a structure or closing it entirely; to ascertain the 
extent of deficiencies or structural damage resulting from 
deterioration or other causes; and to enable bridge maintenance, 
repair, or replacement to be programmed effectively through early 
detection of deficiencies.
    The primary tool employed by bridge inspectors today is the eyes. A 
comprehensive study of the reliability of visual inspection was 
performed by the FHWA's Non-Destructive Evaluation Center in 2001. This 
study suggested that visual-only inspections provide data that is often 
highly variable and influenced by many factors such as the inspector's 
comfort level with working at height, structure accessibility, and 
duration of inspection. With regard to localized defects in 
superstructure members, the study found that less than 8% of the 
inspectors successfully located weld cracks and other implanted defects 
in test bridges. It is the general consensus within the engineering 
community that visual inspection practices must be supported by 
rigorous training, certification and quality assurance programs, and 
supplemented with testing techniques to ensure reliable results.
    Many common and proven non-destructive and destructive testing 
techniques are available to the inspector to supplement visual 
observations and provide more useful quantitative data. Additionally, 
the emerging field of Structure Health Monitoring holds much promise 
for real-time evaluation of structures and objective evaluation of 
bridge conditions. Providing more quantitative data to bridge program 
managers enables them to more effectively allocate bridge 
rehabilitation dollars. One current challenge with these tests, 
however, is how to best integrate the results into existing Bridge 
Management Systems.
    The primary nondestructive evaluation techniques utilized during 
the inspection of steel bridges include magnetic particle, dye 
penetrant, and ultrasonics. These tests are relatively low cost, and 
proven protocols have been developed for their use and the 
interpretation of results. For concrete bridge decks, very simple 
procedures such as dragging a chain across a bridge deck can be a very 
good indication of hidden deficiencies. Its modern counterpart, Ground 
Penetrating Radar, can do the same thing, only much more objectively 
and with repeatability. Electrical potential can be measured to assess 
corrosion of embedded reinforcing steel, samples of concrete can be 
extracted for laboratory testing, and Impact Echo tests can be used to 
locate voids in post-tensioning ducts. The Bridge Inspector's Reference 
Manual, which forms the basis of bridge inspector training programs 
nationwide, details these test methods as well as dozens of other 
effective methods.

LIMITATIONS OF CURRENT PRACTICES

    What these tests all have in common, as well as the federally 
mandated NBI inspections, is that they are often used to record 
conditions only at a single point in time. They are a mere a snapshot 
of bridge conditions. While this is generally adequate for relatively 
low risk structures, structurally deficient or complex structures that 
pose a greater risk to the traveling public require more. This is where 
Structure Health Monitoring holds the most promise. Structure Health 
Monitoring involves the installation of various sensors and monitors 
onto bridge components that allow for remote collection and observation 
of data at anytime. These can include strain gages, weigh-in-motion 
systems, fiber optics, cameras, corrosion sensors, and acoustic 
emission equipment, all tied to data servers and digitally accessible 
in real time. While a number of successful structure monitoring 
programs have been implemented, the technology is still emerging. 
Funding for research and ``pilot projects'' in this area should 
continue to be a priority. Bridge engineers can be most effective by 
providing the decision-makers in transportation agencies with 
objective, data driven recommendations. The structural condition data, 
combined with operational ``risk-based'' factors such as traffic 
counts, can be used to determine optimum prioritization of bridge 
repairs.
    Underlying all of this, however, is the fact that simply collecting 
more data and providing more frequent inspections will not improve 
overall bridge safety. The engineering and scientific community can 
help to improve the relevance of the data by further researching 
advanced testing techniques. Additional funding for bridge repair and 
replacement is required to adequately keep pace with bridge program 
needs.

FHWA LONG-TERM BRIDGE PERFORMANCE PROGRAM

    Presently, the FHWA is in the process of rolling out its Long-Term 
Bridge Performance Program. This proposed 20-year program will provide 
the funding and opportunity to develop standard protocols for the 
myriad of nondestructive testing methods, sensors, and monitoring 
systems available. The engineering community requires more knowledge in 
the areas of life cycle costs, deterioration models and mechanisms, and 
validation of the effectiveness of repair and rehabilitation strategies 
to improve the practice of bridge management. Another goal of this 
long-term program is to provide such data. I would encourage the 
Members of Congress to continue funding this essential program when its 
budget comes up for renewal.

FEDERAL TECHNOLOGY TRANSFER

    Professional Engineers benefit greatly from the results of research 
and technology programs funded by the Federal Government. The traveling 
public is the greatest beneficiary, however. Lessons learned and 
conclusions reached during NCHRP and FHWA research projects are 
effectively disseminated to practicing bridge engineers. They are 
immediately incorporated into improved design, evaluation and analysis 
methods.
    In the weeks following the Minnesota I-35 bridge collapse, Burgess 
& Niple was asked by a number of State transportation agencies to 
assist with the inspection of steel deck truss bridges. This work was 
performed in response to FHWA Technical Advisory 5140.27--Immediate 
Inspection of Deck Truss Bridges Containing Fracture Critical Members. 
In general, the inspections were carried out in the same manner as 
those completed prior to the I-35 collapse. Some additional focus was 
placed on the gusset plate connections between members due to 
speculation that this was an area of concern on the I-35 bridge.
    The investigation into the I-35 bridge collapse is still ongoing. 
It will likely be some time before the investigating engineers reach a 
definitive conclusion as to the precise cause of the collapse. Even if 
the cause of the collapse is found to be unrelated to bridge inspection 
practices, it is my hope that the dialogue that has resulted from this 
tragic event will lead to improvements in the field of bridge 
inspection and result in a safer and improved infrastructure system. A 
better understanding of bridge conditions through expanded use of 
testing and Structure Health Monitoring can help to improve both the 
allocation of bridge repair funds and bridge safety.
    Thank you Mr. Chairman and I am happy to answer any questions you 
or the Committee Members may have.

                    Biography for Mark E. Bernhardt

Education

Purdue University--BS, Civil Engineering, 1991

Registration

Professional Engineer--Alaska, Arizona, Colorado, Louisiana, Montana, 
New York, Ohio, Texas, Utah, Virginia

Summary

    Mr. Bernhardt joined Burgess & Niple in 1997 and is Director of the 
Facility Inspection Section. In his present position he manages a staff 
of engineers who perform structural condition assessments of bridges, 
towers, dams, and buildings. Before joining B&N, Mr. Bernhardt gained 
experience performing forensic structural inspections of various 
facilities nationwide. His professional work experience includes the 
following:

        <bullet>  Project management of large structural inspection 
        projects

        <bullet>  Bridge inspection and load rating analysis

        <bullet>  Quality control/quality assurance reviews

        <bullet>  Performance of condition assessments of existing 
        structures

        <bullet>  Structural evaluations in the wake of natural 
        disasters such as fires, rock slides, hurricanes, and 
        earthquakes

        <bullet>  Use of high-angle rope access techniques to inspect 
        large buildings, dams, towers, and bridges

        <bullet>  Determination of the cause of structural failure

        <bullet>  Design of repairs for distressed and deteriorated 
        structures

    He has managed, reviewed, or performed more than 3,000 bridge 
inspections and 160 load ratings and climbed more than 100 bridges. 
Many of these inspections have utilized both destructive and non-
destructive testing techniques to evaluate conditions. Mr. Bernhardt 
has authored a number of papers on bridge inspection and is a qualified 
NBI Team Leader experienced with AASHTO and FHWA inspection manuals, 
PONTIS, and the use of computer equipment and software for inspection 
and load rating. He is also a member of Ohio's FEMA Urban Search and 
Rescue Team in the position of Structural Specialist. Mr. Bernhardt 
holds a Bachelor of Science degree in Civil Engineering from Purdue 
University and is a Registered Professional Engineer in 10 states.

Relevant Background

Bridge Inspection--Project Manager, QA/QC Manager, NBI Team Leader, or 
team member on various bridge inspection projects, including a variety 
of bridge superstructure types such as arch, girder, suspension, and 
truss and involving various materials including steel, concrete, and 
timber. Mr. Bernhardt has accessed more than 100 large bridges by 
utilizing adapted rock climbing techniques. Representative bridge 
inspection projects include:

        <bullet>  FHWA Eastern Federal Lands Highway Division Federal 
        Lands and National Parks Bridge Inspections, Nationwide--
        Project Manager for task orders that included NBI inspections 
        of more than 600 bridges located in Yellowstone National Park, 
        the Blue Ridge Parkway, the Natchez Trace Parkway, and Golden 
        Gate National Park and other Federal Lands.

        <bullet>  Statewide Bridge Inspections, Arizona--Quality 
        Control Engineer and Project Manager for multiple projects that 
        have included more than 1,000 NBI inspections, 160 bridge load 
        ratings using GT-Strudl and VIRTIS, and development of 
        rehabilitation plans for more than 20 bridges.

        <bullet>  Bronx-Whitestone Bridge, New York, New York--Team 
        Leader for NBI inspection of the floor system of this major 
        suspension bridge utilizing adapted rock climbing techniques.

        <bullet>  Brooklyn Bridge, New York, New York--Project Manager 
        for installation of accelerometers and other equipment on the 
        bridge using industrial rope access techniques as part of a 
        seismic study of the bridge.

        <bullet>  Statewide Fracture Critical Inspections, Alaska--
        Fracture critical inspections of 30+ steel truss and arch 
        bridges located throughout the state. NBI Team Leader and 
        project Quality Control Engineer. Access to the structures was 
        gained by the use of adapted rock climbing techniques.

        <bullet>  Local Agency Bridge Inspections, Oregon--NBI Team 
        Leader and Quality Control Engineer for Local Agency NBI 
        inspection projects completed in Oregon that have included more 
        than 1,500 bridges of a variety of sizes and materials.

        <bullet>  Peace Bridge, Buffalo, New York/Fort Erie, Ontario, 
        Canada--Quality Control Engineer for the NBI inspection of this 
        multinational bridge. Inspection reports completed for the 
        NYSDOT, Peace Bridge Authority, and Ontario Transportation 
        Ministry.

        <bullet>  Concrete Bridge Deck Evaluations, Montana--Performed 
        detailed condition assessments that included chloride ion 
        sampling, concrete coring and compression testing, half cell 
        testing, and chain drag surveys for 14 interstate bridges.

        <bullet>  Concrete Bridge Deck Evaluations, Arizona--Performed 
        detailed condition assessments that included chloride ion 
        sampling, concrete coring and compression testing, half cell 
        testing, ground penetrating radar, and chain drag surveys for 
        133 bridges located throughout the state.

        <bullet>  Monroe Street Bridge, Spokane, Washington--Performed 
        detailed condition assessment of this historic concrete arch 
        bridge in conjunction with an extensive bridge rehabilitation 
        project.

        <bullet>  Dames Point Cable Stay Inspection, Jacksonville, 
        Florida--Performed the first ever, detailed hands-on condition 
        assessment of the steel stay cables using adapted rock climbing 
        techniques.

        <bullet>  Hope Memorial Bridge, Cleveland, Ohio--NBI Team 
        Leader on inspection of steel truss bridge.

        <bullet>  Robert O. Norris Jr. Bridge, Williamstown, Virginia--
        NBI Team Leader on inspection of steel truss bridge.

Structural Collapse/Disaster Response--Performed structural condition 
assessments and structural safety inspections in the aftermath of 
fires, hurricanes, earthquakes, and other incidents. He is a Structural 
Specialist on the Department of Homeland Security's FEMA Urban Search & 
Rescue Team for the State of Ohio.

        <bullet>  Hurricane Katrina, Gulf Coast--Deployed to Gulfport 
        and Pass Christian, MS, in the aftermath of hurricane to 
        perform structural assessments of damaged buildings in 
        conjunction with search and rescue operations. The USAR team 
        searched more than 2,500 structures.

        <bullet>  Hurricane Andrew, South Florida--Evaluated structural 
        damage at 100+ office buildings, warehouses, apartment 
        complexes, homes, etc., and determined the scope of required 
        repairs for damaged buildings. Also involved in a research 
        study for an insurance company that identified the parameters 
        which had a significant effect on the performance of 
        residential structures subjected to hurricane force winds.

        <bullet>  Deer Island Tunnel, Boston, Massachusetts--Deployed 
        to construction site in Boston Harbor following fire in a 
        tunnel access shaft. Sewage outfall tunnel was being bored 300 
        feet beneath harbor. Performed post-fire safety inspection of 
        access shaft and tunnel. Developed debris removal plan and 
        supervised remediation efforts to ensure that the areas were 
        safe for construction operations to resume.

        <bullet>  Northridge Earthquake, Northridge, California--
        Performed structural evaluations of buildings damaged by 
        earthquake. Developed repair scopes and cost estimates.

        <bullet>  Post-Earthquake Evaluation of Tanana River Bridge, 
        Tok, Alaska--Deployed immediately following earthquake to 
        perform structural safely evaluation of 1,000-foot truss bridge 
        located on the Alaskan Highway. Industrial rope access 
        techniques were used to achieve hands-on inspection of all 
        portions of structure and avoid the need for heavy mechanical 
        access equipment on the bridge.

        <bullet>  Taco Cabana Roof Collapse, Las Vegas, Nevada--
        Performed forensic structural investigation following roof 
        collapse in restaurant on opening night.

Structural Condition Assessment--Performed condition assessments of 
existing structures, evaluation of building materials, assessment of 
integrity of building systems, determination of the cause of failures, 
and design of repairs for distressed and deteriorated structures. Used 
computer programs to aid in the analysis of complex structural systems. 
Some notable projects and structures investigated and assessed include:

        <bullet>  Peterson v. Mission Viejo Corporation, Highlands 
        Ranch, Colorado--Evaluated foundation and slab movements for a 
        builder involved in a class-action lawsuit. Over 1,000 single-
        family homes were involved in the suit. Developed a database to 
        manage and analyze the data collected during inspection and 
        survey work performed on approximately 200 of the homes. 
        Developed foundation repair plans for the homes requiring 
        repairs.

        <bullet>  Soldier Field, Chicago, Illinois--Performed a 
        structural condition assessment of the stadium as part of a 
        periodic monitoring program at the facility.

        <bullet>  Miller Park Baseball Stadium, Milwaukee, Wisconsin--
        Condition assessment of steel roof superstructure connections.

        <bullet>  Heritage Villas, Laughlin, Nevada--Condition 
        assessment of walls and roofs at 90+ unit condominium complex.

        <bullet>  Rhodes Tower, Cleveland, Ohio--Performed a condition 
        assessment of the pre-cast concrete facade on 20-story 
        building. Investigated moisture infiltration problems and used 
        industrial rope access techniques to inspect the facade.

        <bullet>  Westin Hotel, Kansas City, Missouri--Performed a 
        condition assessment of specific components of the hotel 
        complex and a structural analysis of a concrete canopy.

        <bullet>  Executive Tower Inn, Denver, Colorado--Investigation 
        of masonry facade on 30-story building and structural analysis 
        and rehabilitation of concrete floor slabs.

        <bullet>  Hyatt Regency Tech Center, Denver, Colorado--
        Investigation of foundation movements. Developed parking garage 
        rehabilitation details.

        <bullet>  Various Facilities--Performed condition assessments 
        and structural analysis of components or entire buildings at 
        the following facilities:

                -  North Star Steel--Youngstown, Ohio

                -  Jefferson at Greenwood Apartment Complex--Greenwood 
                Village, Colorado

                -  Super Saver Cinema--Denver, Colorado

                -  Westminster City Hall--Westminster, Colorado

                -  Barton Fieldhouse--Cornell University, Ithaca, New 
                York

                -  Proctor & Gamble 6th Street Parking Garage--
                Cincinnati, Ohio

                -  Northview Shopping Center--Westminster, Colorado

                -  Rainbow Shoppes--Westminster, Colorado

                -  Renaissance Apartments--Los Angeles, California

                -  Idlewild Condominiums--Reno, Nevada

                -  Westwood Westside Apartments--Iowa City, Iowa

                -  Metro Dade County Administration Building--Miami, 
                Florida

                -  Cedar Cove Condominium Complex--Aurora, Colorado

                -  Cherry Creek Towers--Denver, Colorado

                -  Northside Assembly of God Church--Colorado Springs, 
                Colorado

                -  Mt. Carmel West Medical Center Parking Garages--
                Columbus, Ohio

Material Testing--Experience evaluating and testing a wide range of 
structural building materials including reinforced and pre-stressed 
concrete, masonry, steel, and timber. Has utilized both destructive and 
nondestructive testing techniques including the following:

        <bullet>  Magnetic Particle Testing

        <bullet>  Impact Echo

        <bullet>  Ultrasonic Testing

        <bullet>  Concrete Coring

        <bullet>  Sampling for Chloride Ion in Concrete

        <bullet>  Dye (Liquid) Penetrant Testing

        <bullet>  Ground Penetrating Radar

        <bullet>  Half-Cell Potential Measurements in Concrete

        <bullet>  Timber Boring

        <bullet>  Ground Penetrating Radar

Training

Technical Rescue Awareness--Washington State Homeland Security 
        Institute, 2007

Bridge Inspection Training--FHWA/NHI/Alaska Department of 
        Transportation, 2006

Haz Mat First Responder Operations Level Training--Environmental 
        Options, 2006

IS-200 Basic Incident Command System (I-200 for Federal Disaster)--
        FEMA/US Fire Administration, 2005

IS-700 National Incident Management System (NIMS)--FEMA/US Fire 
        Administration, 2005

Swiftwater/Surface Water Rescue--Ohio Region III Rescue Strike Team, 
        2005

WMD Terrorism Awareness for Emergency Responders--National Emergency 
        Response & Rescue Training Center, 2005

Urban Search & Rescue Structures Specialist Training--FEMA/USACOE, 2004

Weapons of Mass Destruction Response Operations--FEMA/US Fire 
        Administration, 2004

IS-100 Introduction to the Incident Command System (I-100 for Federal 
        Disaster Workers)--FEMA/US Fire Administration, 2004

Cold Regions Engineering--University of Alaska/University of 
        Washington, 2003

Effective Bridge Rehabilitation--University of Wisconsin, 1999

NDT Techniques (Dye Penetrant, Magnetic Particle, Ultrasonics) 
        Training--Staveley Schools, 1998

Bridgeview Bridge Inspection Software Training--Oregon Department of 
        Transportation, 1998

Confined Space Entry Training, 1997

Bridge Climbing/Industrial Rope Access Training--Burgess & Niple, 
        Limited, 1997

Seismic Design Using the NEHRP Recommended Provisions--Structural 
        Engineers Association of Colorado, 1995

Wood Construction Seminar--Wood Products Council, 1993

Concrete Repair Basics Seminar--Rocky Mountain Chapter ACI, 1992

Papers and Presentations

``Hurricane Katrina--Assessment of Structural Damage During FEMA USAR 
        Operations,'' Water One, Wilmington, Ohio, October 2005.

``Post-Earthquake Evaluation of Tanana River Bridge at Tok, Alaska,'' 
        International Bridge Conference, Pittsburgh, Pennsylvania, June 
        2003.

``Scanning the Spans,'' Arizona Roads & Streets Conference, Tucson, 
        Arizona, April 2003.

``The Evolution of Bridge Inspection Techniques & Tools,'' 
        Transportation Systems Center 2000 Workshop, San Antonio, 
        Texas, February 2000, and Ohio Transportation Engineering 
        Conference, Columbus, Ohio, 2001.

``Statewide Bridge Deck Survey Using Ground Penetrating Radar,'' 
        Structural Materials Technology IV--An NDT Conference, Atlantic 
        City, New Jersey, 2000.

``Non-Destructive Testing of Bridge Decks Using Ground Penetrating 
        Radar,'' Midwest Bridge Maintenance Working Group, Ft. 
        Mitchell, Kentucky, 2000.

``Condition Assessment of Arizona's Concrete Bridge Decks,'' Western 
        Bridge Engineers' Seminar, Seattle, Washington, October 1999.

``Bridge Inspection and Rehabilitation,'' Arizona Public Works 
        Association/Arizona Society of Professional Engineers, 1999 
        Statewide Conference, Flagstaff, Arizona, August 1999.

``In-Depth Inspection of Arizona's Steel Bridges,'' Arizona Department 
        of Transportation 1998 Transportation Conference and Expo, 
        Phoenix, Arizona, 1998, and TRB International Bridge Management 
        Conference, Denver, Colorado, 1999.

``Forensic Engineering,'' ASCE Student Chapter--Colorado School of 
        Mines, Golden, Colorado, 1996.

                               Discussion

    Mr. Wu. [Presiding] Thank you very much, Mr. Bernhardt. The 
witnesses and everyone in the room have been witness to what 
frequently goes on here. The Chairman has had to step away to 
introduce his bill in another committee. I apologize to the 
witnesses. I have two other committee hearings going on right 
now and had to step away quickly to cast a vote, and my 
apologies, but I hope I haven't missed too much of the context 
of your spoken statements and from your written statements. And 
at this point, we enter into the question phase, and the 
Chairman recognizes himself for five minutes.
    Mr. Bernhardt, you talked about a number of different 
testing methods, and some of the other witnesses referred to 
them also in their written testimony. Non-destructive testing 
has been commonplace in other industries, for example, in 
aviation for quite some time. And Mr. Judycki and Mr. Tang, 
your research center has worked on many of these testing 
methods, and yet bridge inspection continues to be primarily a 
visual process. Can you discuss for us what some of the 
barriers to adoption are and not just in terms of cost but also 
some of the non-cost barriers to adoption? And Mr. Bernhardt, 
why don't we begin with you, and then we will start at the 
other end of the table for anyone else who has some input on 
this.
    Mr. Bernhardt. That is an excellent question. I think some 
of the primary barriers would be related to just the reluctance 
to change. I think sometimes within human nature there is 
always a reluctance to change, and people want to stick with 
what they are comfortable with and don't want to try new 
testing methods and techniques; and I think that is part of it. 
Additionally, I think any time a new testing technique is 
rolled out and introduced, there has to be an infrastructure 
behind it to provide the training and the support to the 
personnel on the field that are going to use that system. If it 
is a computer-based system, certainly there has to be the 
infrastructure there to keep pace over the years as the 
computer system gets updated or the technology gets updated. So 
it is not just buying a testing tool once, there has to be the 
commitment from the agency to continue using that into the 
future and provide the training and resources necessary to make 
sure the personnel are using it properly into the future, too. 
Many times an agency will get a new tool or testing technique. 
They will use it for a little bit, and then that person may 
move on, that is, the one person in the agency that knows how 
to use that; and that knowledge will be lost. So that maybe 
comes into play a little bit when agencies are making a 
decision on what technology to adopt and what equipment to 
purchase.
    Mr. Wu. Mr. Judycki? Mr. Tang?
    Mr. Judycki. Let me just pick up on a couple of points, Mr. 
Chairman. First of all, the Federal Highway Bridge Research and 
Technology Program is about a $22 million program that is 
available, and part of that, as Dr. Womack mentioned, it is all 
designated, in fact over-designated, to the point that we were 
concerned about the flexibility, or the lack of flexibility, in 
putting a program together. About $900,000 is available to us 
and is being used effectively in our non-destructive evaluation 
laboratory and for non-destructive work on new inspection 
technologies and techniques. And we can talk about that some 
more. But on the barriers to innovation, which are critically 
important, certainly just sheer inertia, is to new 
technologies. And adopting new technology is very important, as 
was mentioned. There is also a resource issue, and certainly 
new technology is very often more costly without clear evidence 
of long-term benefits; and that is obviously a barrier, as well 
as the natural unwillingness to accept risk.
    So I think that some of the solutions certainly relate to 
more effective communication as we look to deployment as well 
as possibly providing incentives, and providing incentives to 
advancing new techniques, innovations, into the marketplace is 
something that we think holds a great deal of potential.
    Mr. Tang. Thank you, Mr. Chairman. I think Federal Highway 
has adopted many of the innovative, non-destructive 
evaluations. Over the past 20 years, we have supported a lot of 
research, and many of the products are out there on the market 
as a result of our research. And if you look at some of the 
non-destructive evaluation, we have different phases of these 
applications. For example, when you go to visual inspection and 
you determine that you need a little bit more in-depth look 
into a specific detail, then we will bring in the non-
destructive evaluation methods such as the ultrasonic testing 
or the acoustic emission. These are more advanced than the non-
destructive evaluation that we have used, and we have offered 
in our training program to include techniques so that we can 
train inspectors to use them.
    Mr. Wu. I am going to stretch my time just for a follow-up 
with Dr. Womack. Dr. Womack, you suggested that perhaps 
requiring licensed professional engineers would be a step 
forward in bridge inspection. Would that help also the inertia 
problem in adoption of new technologies?
    Dr. Womack. I believe it would help, but one of the reasons 
that you don't go beyond visual inspection is a human resource 
issue. How many trained engineers do you have that can go out 
and perform these inspections? And so it becomes a resource 
issue in terms of trained engineers, and the number of trained 
civil engineers is becoming less and less. So that is an issue. 
It would help, but it is part of the problem. I think kind of 
following up on the rest of the discussion, there is a 
convenience issue here as well. It is very convenient and 
efficient to go out and do visual inspections. They are quick, 
you get some data, you can put that into the database. Non-
destructive evaluation takes more time. Usually you have to set 
up equipment. Oftentimes you have to have road closures. So the 
states are a little bit wont to do that because of the 
inconvenience of it. I think as a follow-up to visual 
inspections where there are issues, certainly NDE must be used, 
and I think that is part of this protocol that has to be 
defined.
    Mr. Wu. Thank you, Dr. Womack. And with that, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman. You know, this is just a 
terrible problem of fear of people in the driving public. In 
our state, we have a State engineer and we have 254 county 
engineers; and we have direct access to them to ask them 
questions about it. I could ask Mr. Bernhardt whether or not 
the current inspection methods are sufficient. I would like for 
him to state yes. I doubt seriously that he is going to, but 
you know, we even have--we have all kinds of fears. We even 
have the fear of asteroids coming by, and we did a study on 
asteroids about 15 years ago and found out one had come within 
15 minutes of the Earth in 1988 and nobody knew it was here 
until it came and went by. And it is the size of one of the 
states up in the northeastern part of this country.
    This is the thing that can really be fearful for people. 
Every time anybody drives up on one of those high arching areas 
like we have near the big cities basically. I think it strikes 
some fear into their heart, what can happen. So I guess when I 
ask you, Dr. Bernhardt, if the current inspection methods are 
sufficient and you are going to say the factors have a lot to 
do with it, I guess continuous use of it, the stress of it, the 
weight at the time that the tragedy occurs, the deterioration 
of the past, the force of wind or rains or your typical 
westward wind or your typical eastern wind that could affect a 
particular bridge or movement of the underlying earth, it is so 
many things that play into that. I don't know how on Earth with 
the number of bridges that we have that you can answer that 
with any degree of finality, but you want to take a shot at it?
    Mr. Bernhardt. Yes, sure. Statistically speaking, with 
600,000 bridges, I feel safe driving over a bridge; but on the 
other hand, I wouldn't be surprised if I read in the paper 
tomorrow that another bridge fell down. So certainly, like any 
programs, there are improvements that can be made both in the 
training of inspectors, the implementation of the program, and 
then what we do with the data on the back end.
    I think one of the larger issues is that we don't have the 
mechanisms in place now from my perspective to address the 
deficiencies the inspectors are currently finding. So I mean as 
an example, if we doubled our inspection frequency and 
inspected bridges twice as often and produced twice as many 
inspection reports and twice as many recommendations, the 
ones----
    Mr. Hall. And take twice as much tax money.
    Mr. Bernhardt. Yeah, the recommendations we make now often 
aren't addressed because the funding is not available. So 
certainly, on the repair side, there needs to be some changes 
there to get that caught up with the needs that the inspectors 
are currently finding now. That being said, I think there are 
certainly improvements that can be made in the bridge 
inspection process to make it more uniform throughout the 
United States, improve the certification of bridge inspectors, 
both PE's and non-PE's that help in the inspection process. A 
good example is, you know, in the current NBIS regulations, the 
program manager position and the team leader position are the 
two positions that are required to have the 80-hour 
comprehensive bridge inspection training. The rest of the 
inspection team is not required to have that training. Certain 
states have more stringent requirements and require all members 
of the inspection team to have the inspection training, but 
according to the federal guidelines, you could go be an 
inspector on a bridge under the guidance of a team leader who 
has had the class, but it could be your first day on the job, 
and you could be inspecting a bridge with probably little or no 
knowledge about the performance of structures. Errors like that 
can be addressed in the National Bridge Inspection Standard to 
improve the quality of the inspections.
    Mr. Hall. I guess asteroids are not as normal as Katrinas, 
but we don't even know when they are coming. How about Dr. 
Womack if I have a little time left. In your testimony you said 
new inspection protocol ought to be developed; and I guess that 
is what Mr. Bernhardt is talking about. Do you want to enlarge 
on that any?
    Dr. Womack. Currently there is a standard for the frequency 
of visual inspections, but beyond that, there is really no 
defined process. As Mr. Bernhardt said, you know, you can 
develop a lot of data, but what does it mean and what do you do 
with it? So I think we need to define a protocol where if the 
visual inspection shows up issues, that there ought to be some 
sort of follow-up to that rather than just more frequent visual 
inspections. Maybe there should be some defined non-destructive 
evaluation that needs to be performed or something else to be 
done that is a little more objective than just more frequent 
visual inspections.
    Mr. Hall. Was that standard followed leading up to the I-35 
tragedy collapse in Minneapolis?
    Dr. Womack. From what I know of that situation, they were 
inspecting the bridge more frequently than required. They had 
some options to do some things and they just chose to continue 
the more frequent visual inspection. Now, that is not to say 
that if they had done something different such as putting 
instrumentation on the bridge that it wouldn't have collapsed 
or that we wouldn't have known about it anyway; but perhaps 
with instrumentation, there might have been some precursor 
information to some issues on the bridge. And so that is what 
is not defined. When you do find bad things with a bridge, what 
do you do next; and that is not at all a well-defined process.
    Mr. Hall. I may have to do it by mail later, but I would 
like to kind of know what new processes are in place and 
whether or not people are following them and whether or not 
they are making records of the fact that they follow them and 
that we can rely on the fact that they are following them and 
they are effective.
    Mr. Chairman, you will leave open the opportunity for us to 
write and seek answers from them if we don't get to follow-up 
questions, will you not?
    Mr. Wu. Yes, I will do that.
    Mr. Hall. I yield back the time I don't have.
    Mr. Wu. Questions will be submitted in writing, and answers 
will be returned in writing. Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. I want to follow-up. 
The end of the answer to the last question there, when you find 
something wrong, what do you do next? What problems are we 
facing right now? Is it a real need to have that type of 
protocol? It certainly makes sense that it would make sense. Is 
our bigger problem just a lack of taking action because of a 
lack of funding to be able to do anything when we do find that 
there is a problem? So is it right now largely a money problem, 
or is it both a combination of a money problem and where we 
just do not have the protocol in place as to okay, we find a 
problem, what do we do next to try to avoid a catastrophe? So 
who wants to start with that question? Dr. Womack.
    Dr. Womack. I am probably not the best person to answer 
that question. I would guess it is somebody from the state who 
has a better feel on the available dollars would be better put. 
But I think it is a lack of knowing what to do next, but I 
think it is maybe an issue in terms of determining how the 
available monies are spent. And coming from that point of view, 
I think that you need to take more of a risk assessment 
approach in terms of utilizing the funds. Where is the highest 
risk, and inspections non-destructive evaluation can help you 
determine what the risk is. And then you need to side on a more 
risk-assessment analysis, where to spend the limited amount of 
funds.
    Mr. Lipinski. I will go to Mr. James since you are not the 
DOT.
    Mr. James. Yes, sir. If you will think of a bridge very 
much like a person, a bridge is born after many months and 
sometimes years of development, thought and development. They 
are born, they have a life expectancy when they are first put 
under traffic, 50, 75, sometimes even 100 years. As the bridge 
ages due to just the natural deterioration, as we each do our 
own bodies: We go to a doctor; we have a physical. We look at 
things. That is an analogy to the bridge inspector out there. 
He looks, he finds something. If it is something that can be 
arrested to stop deterioration or to even keep it from becoming 
a chronic condition, that is what we look to do to basically 
preserve what we have so that we can get the fullest life 
expectancy of what we have out there. Many times funding, 
though, drives those decisions. I think you have heard the term 
worst first? Many times that is what we have to do because we 
have no choice. That is not what we would like to do because 
many times that is not the best of our resources that we have.
    So each state is different. We have to look at it from our 
own perspective. We try to use low-cost construction, 
maintenance-friendly details when we design and build our 
bridges. Again, it is one thing if you are looking at an 
aircraft fuselage in a hanger using non-destructive testing and 
something else if you are out there 100 foot in the air on the 
end of a bucket with a rope sling around you trying to 
manhandle some non-destructive equipment to figure out whether 
you have got a problem or not.
    So, the inspector develops a relationship with a bridge. He 
goes and looks at it many times, and what he is looking for is 
change to see what the difference is from what he saw the last 
time he looked at it.
    Mr. Lipinski. Thank you. Mr. Judycki, did you want to add 
something?
    Mr. Judycki. Yes, and then I will turn it over to Mr. Tang. 
I asked him to mention fracture critical members in a moment. 
But I would just make the observation that there are some 
process issues here, and I think that one of the things that 
Federal Highways has very much as part of our culture, is to 
make improvements in processes and procedures as the need comes 
to light. We did this after the 2001 NDE evaluation of 
inspection techniques that really resulted very directly in 
quality control and quality assurance and additional training 
being required as well as the operating inspection 
certification. So, I think that the ability to learn from these 
experiences and build it into national processes and 
certification standards in the NBIS program becomes very 
important.
    With that though, I think that if I could turn it over to 
Mr. Tang, I would.
    Mr. Tang. Mr. Lipinski, I think you mentioned about the 
finding. If an inspector finds something wrong with the bridge, 
what do you do? In our National Bridge Inspection Standards, we 
do have a term called critical finding. Then every inspector 
when they attend training, the first thing they are told to do 
is if they see an unsafe bridge, close it. That is the 
immediate action that they have to take. After that, they would 
have to bring in their more experienced people to determine if 
they should keep the bridge open for traffic or should they 
repair it immediately. So in terms of critical finding, if 
there is such a critical finding on the bridge, they would have 
to immediately repair it, fix it, or close the bridge. That is 
in our regulations.
    Mr. Lipinski. If the Chairman will let me just ask for a 
brief follow-up. How often does it happen? How often are 
bridges closed because it is a very difficult thing to do, to 
close a bridge because of inconvenience in some locations? How 
often is that done? Do you think--how bad does a bridge have to 
be and how often is it done?
    Mr. Tang. First of all, even during inspection time, when 
you have inspection equipment on the bridge, there may not be 
room for opening to traffic; so sometimes they do close part of 
the bridge to even get the inspection gear into position to 
inspect it. Now, how often, this is the question that we don't 
have the answer in the sense of a broad answer for it. It is 
left up to the inspectors. They are trained to determine that 
when they need to close a bridge, they will close the bridge.
    Mr. Lipinski. Thank you very much.
    Mr. Wu. I would like to thank the gentleman. The gentleman 
from Georgia, Dr. Gingrey.
    Mr. Gingrey. Thank you, Mr. Chairman. Mr. James, I enjoyed 
your analogy, as you know I would as a physician member. I 
would say that a follow-on to Mr. Tang's remarks in regard to 
Mr. Lipinski's question about if you find something, when do 
you say, you know, we are going to have to inconvenience the 
public. We are going to have to shut this bridge down for long-
term safety, maybe a short time shutting it down. It is kind of 
like the individual patient. You can tell them that they need 
to do something, but you can't make them do it. But I think 
people at the state level, Mr. James, certainly have the 
ability to say you are going to be inconvenienced. I was in New 
York a couple of weekends ago, and I had the opportunity to 
drive through the Lincoln Tunnel and then later on across the 
Brooklyn Bridge, both aging structures; and after this 
Minnesota tragedy, I couldn't help but think about when the 
last time they had been inspected.
    But my comments are getting to a question that I am going 
to address to Mr. Bernhardt. But again, Mr. James, your analogy 
to the human being, there is a test that is a little bit more 
than an X-ray that looks for calcium in and around the heart. 
And I have a good friend that had that test done, and the 
doctor said, oh, you have got a tremendous amount of calcium 
showing up on this test. Therefore you need to have an 
angiogram. You need to have a dye study of your coronary 
arteries. It was completely normal. And that test is expensive 
and not without some risk. So what I am saying is, there are 
certain tests that show something, but it is not significant, 
though that calcium was all outside of the arteries. It wasn't 
inside the arteries.
    So Mr. Bernhardt, the question is do you think that visual 
inspection, even though you are talking about professional 
engineers and highly trained, motivated people, can get the job 
done? What are the limitations of purely doing it that way, and 
do we need to move quickly toward better testing? And if there 
is time, Mr. Chairman, and maybe in the second round if there 
is not time, I want to go back to Dr. Womack's comments and his 
opening statement and also Mr. Judycki in regards to this issue 
of programming or earmarking away a lot of funding in SAFETEA-
LU that took the ability out of your hands to use that money to 
do research programs. You know, I don't want to get too 
political here. We all have member initiatives, and I am one of 
them. I got these great programs in the State of Georgia that I 
want to see funded, but I think we need to talk about that, Mr. 
Bernhardt.
    Mr. Bernhardt. Yeah, visual inspection, in and of itself, 
certainly isn't going to give you enough information to gather 
the data that you need to make effective decisions about bridge 
rehabilitation. It must be supplemented with testing, both non-
destructive and destructive testing; and in some cases the 
structural health monitoring is what holds so much promise for 
the future, too, because the structural health monitoring can 
provide a continuous data stream, whereas if I go out and do 
NDE, non-destructive evaluation on a bridge today, that is 
showing me what the conditions are like today. If I have 
monitoring equipment installed on that bridge that is giving me 
continual feedback, it can even be set up to have alarms where 
it is monitoring the stresses in the members. I am getting more 
of a continuous feed of data. So certainly that is an advantage 
for that type of testing. Visual is only going to provide you 
with so much, and it is going to be very qualitative data. It 
is going to be subjective. I am going to rate something a four, 
somebody else is going to rate something a six; and I pass that 
information on to the decision-maker and policy-makers, and 
they are like, well, what does this mean? I got two different 
answers coming. And that is because visual is very subjective. 
The more testing and instrumentation we can do, that helps to 
make the whole process much more objective. So that is a big 
benefit for that, too.
    Additionally, when you have hard data being supplied to 
you, you can make more effective decisions about which bridges 
do I need to direct my funding towards. You may have a 
condition rating on an element that says that this bridge is in 
poor condition. Well, the actual stresses in the member may be 
okay. So by doing some instrumentation and further analysis, 
you may be able to determine that the bridge doesn't actually 
need repairs, and that money can be directed somewhere else. 
And you wouldn't be able to tell that through visual alone, but 
only through testing and analysis and modeling would you get 
the answers to those questions.
    Mr. Gingrey. I see my time is expired, and I guess the 
second part of that question I will save to the second round, 
Mr. Chairman.
    Mr. Lipinski. I thank the gentleman. The gentlelady from 
Texas, Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman. I guess 
that my question could be directed to the representatives. In 
SAFETEA-LU there were a number of bridges designated because 
the states had them on their critical list. However, I don't 
know--in Texas, I have over 50,000 bridges. And I-35, which had 
the collapse in Minnesota, is one of those bridges designated. 
And I did earmark the money, and I will do it again; and I am 
never going to stop earmarking, because if we don't, my areas 
don't get anything. And so I just want to know that when you 
decide through examination what bridges are in critical 
condition, how do you handle it? Do you go to your Congress 
people or feud about it or what happens?
    Mr. James. Ms. Johnson, we work within the resources that 
we have. If we find a bridge with critical needs, then many 
times we will direct the resources from one part of the program 
to that particular area so that we can make a rehabilitation or 
replacement of that structure so that that problem goes away. 
It is a matter of prioritization and taking into account many 
factors in those decision as to which bridges receive the 
critical treatment first. Of course, if one is about to be 
closed or hopefully never reaches that state, then obviously 
many more resources are directed toward it to keep things open. 
They take into account the impact on the general public as well 
as the safety of the public as well.
    Ms. Johnson. Well, you indicated that visual decisions 
after bridges are inspected usually can be considered accurate. 
And what other methods do you use to inspect the bridges?
    Mr. Bernhardt. I will take that one. Essentially, are you 
speaking specifically to what type of testing techniques?
    Ms. Johnson. Yes.
    Mr. Bernhardt. There is a number of tried and true ones 
which are commonly used by many state DOTs, magnetic particle, 
ultrasonics, dye penetrant for steel bridges, ground-
penetrating radar, impact echo. Those are all concrete methods 
that work on concrete bridges. FHWA has a Bridge Inspector's 
Training Manual, and it details more than a dozen common 
testing techniques; and the bridge inspection training that 
team leaders and program managers take cover all these 
techniques. Additionally, State DOTs have seminars where they 
train their people on how to use those. So those are kind of 
the tried and true methods.
    And then there is a whole host of emerging technologies. 
Some work out, some are just a flash in the pan. But those are 
the main ones.
    Ms. Johnson. Thank you. You know, the states had 
rescissions even after the money was sent out the last time. So 
we still don't have any work going on on those so-called 
critical bridges, but hopefully it will begin soon. There is no 
money in Washington, as you know, and I don't think there is 
very much in states because my state just told me that they had 
no money for maintenance, which is maintenance that was very 
important. And so, we have a bipartisan committee out of our 
delegation. We are going to be getting together to see how we 
handle it. So if you don't get any federal dollars any time 
soon for this, how would you handle a critical bridge?
    Mr. James. Again, we work with the resources we have. If 
there are needs of a bridge, we will direct state dollars for 
it to keep it from being closed to take whatever actions are 
necessary for it to remain safe and open to the public. Again, 
we use best management practices, we use details from our 
design and construction that are maintenance friendly, proven 
to be very cost-effective during the construction as well as 
details having longevity and are also friendly to bridge 
inspection. So you do whatever is appropriate as far as the 
inspection visual. It is by far, you know, the easiest and the 
first place to start; and the more complex a bridge structure 
becomes, you go from there using whatever technologies are 
available to you. And the same thing would be with the repair, 
whatever is appropriate. You take whatever actions are 
necessary. Very similar to Dr. Gingrey's comments about the, 
you know, a patient. Sometimes you look and you find something 
and it is there but it is not a problem, so you just continue 
to monitor it.
    Ms. Johnson. Unpredicted weather conditions that occurred, 
have you known any bridges that might have checked okay and 
then after that, some kind of catastrophe, you find it is in a 
different shape? I am sorry. I hope I am not giving a 
confusing----
    Mr. James. No, ma'am. I can't speak for every state what 
each state has found. I know in our state we have not found 
anything that is, you know, weather related. Obviously the two 
bridges we lost from Katrina were weather related, but I don't 
think anybody could have prevented some act of God like that. 
As far as something that we look at one year and then come back 
a year later, nothing that has led to any catastrophe or 
tragedy within our state boundaries.
    Mr. Bernhardt. In terms of weather related problems with 
bridges, probably the greatest one is what is known as scour. 
Essentially when you have a bridge, you have a big rainstorm 
event, the stream fills up with water, the velocity of the 
water increases, and it will scour out around the foundations 
for the bridge; and there have been bridge collapses that 
resulted from scour. So scour is certainly one of those 
critical items that bridge inspectors pay attention to and 
monitor stream beds, and if there was one primary weather 
related cause of bridge failures, it would have to be scour.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Mr. Wu. Thank the gentlelady. The gentleman from Michigan, 
Dr. Ehlers.
    Mr. Ehlers. Thank you very much. My mother always told me 
that scouring was good. It was a typical Dutch housewife.
    When I went off to college, I started out in engineering, 
and I went astray and became a nuclear physicist; and I have 
always maintained a great interest in engineering and I have a 
huge amount of respect for it. I was with Buckminster Fuller 
once who is one of the more imaginative engineers in the 
history of the profession. He commented that the first time 
engineering ever really had to develop as an engineering 
science was in the design of boats because you had to design 
the boat very carefully using minimum materials, minimum weight 
to carry maximum load, whereas before in building buildings, 
for example, you just kept piling the bricks on until you were 
safe or even the Roman aqueducts which have survived for 2,000 
years. They used a lot more bricks, a lot more material than 
they really needed to transport that small amount of water. 
There wasn't a lot of engineering then.
    And you know, Buckminster is right in a number of ways. We 
have really advanced. We have learned to build buildings using 
the minimum amount of material, minimum amount of money, how to 
accomplish the goal. I think airplanes are the epitome of 
success and design in trying to use minimum weight, minimum 
dollars to accomplish the task.
    Bridges are another good example of that, and I am just 
awed by what engineers have done in bridge design construction; 
but I am not sure that we have kept up as a society in our 
examination and inspection of those. And my question is first 
of all, is it a lack of knowledge, and lack of technology? 
Aren't we putting enough into research for non-destructive 
testing techniques and so forth. Or is it another case where we 
are simply as a society willing to pay for the initial 
structure, whatever it may be; but we are not willing to pay 
adequately for the maintenance. Can you give me any comments 
indicating where we have gone wrong? Is it a lack of resources 
or is it a lack of research in non-destructive testing 
techniques? Any comments from anyone?
    Dr. Womack. I guess I can go first. I don't think it is due 
to a lack of research. We have technologies, many testing 
methods that have been mentioned at this table. So we have the 
ability to do it. I think you are more right in terms of we are 
willing to pay the first cost, although that first cost that we 
are willing to pay is the lowest we can get, which isn't always 
the best. But we are willing to make that first cost. Then we 
are trying to catch up with other new bridges and other 
repairs, so we tend not to go back and spend the money that 
should be spent in terms of monitoring the infrastructure that 
we have. And so I think we need to continue to do research to 
develop new technologies, but it is not a shortage of 
technologies that is creating the problem.
    Mr. Ehlers. Okay. So, Mr. Bernhardt. You advocated 
continuous inspection. Is there much of an additional price tag 
to that compared to the periodic investigations?
    Mr. Bernhardt. Certainly. It is much more expensive to 
instrument a bridge up that initial time. Once the bridge is 
instrumented, then you get that continuous data stream. I will 
just make clear too that I certainly don't advocate that for 
every type of structure. Certainly focusing that on the more 
high-risk structures, the structurally deficient bridges, the 
fracture critical bridges, I mean, that is a good use of that 
type of technology. Certainly for a 20-foot span that doesn't 
see much traffic and it is very simple structurally, there is 
really no need to go to that kind of expense. It is the more 
sophisticated structures that you want to use that technology 
on. And certainly as Dr. Womack indicated, technology exists 
now to do those things, so it is not on the research end. It is 
getting the projects funded to put into practice where the 
shortfall is.
    Mr. Ehlers. Thank you. Mr. James, you were kind enough to 
single out the State of Michigan as having an excellent bridge 
management system. Frankly I don't know of any bridges that 
have collapsed recently in the State of Michigan, and we have 
built the Big Mac which has stood firm for 50 years now this 
year. I appreciate your comments. But again, this is another 
related question about causes of bridge failure. You mentioned 
scouring. That applies to any bridge. Michigan, as well as 
Minnesota, suffer a lot of damage through the freeze-thaw 
cycle, Michigan much more than Minnesota because Minnesota, for 
better or for worse, freezes over in November and doesn't thaw 
until March sometimes. I used to live there so I know. Whereas 
Michigan has probably 15 freeze-thaw cycles they go through in 
the course of a winter. Maybe that is extreme but doesn't that 
cause a lot of damage to bridges? I know it does to highways, 
but what about bridges? Is that a factor there, too, the 
constant temperature changes?
    Mr. James. Yes, sir, it is, and that is taken into account 
in the design of bridges and their construction and the 
materials and the properties of the concrete for instance in 
the deck when they are constructed. There are many things that 
can be due to prescribe a particular mix that will minimize or 
at least mitigate these temperature changes that you mentioned. 
We are fortunate in the south that we don't experience things 
like that. We typically don't use salt, either, because we 
don't have the ice and snow to deal with except, you know, 
those very few times within any season. There are things that, 
you know, can be done. Again, it goes back to doing what is 
appropriate, trying to narrow the focus of where these 
technologies are needed to the high-risk bridge candidates as 
much as possible using engineering--experience counts a lot for 
what you are doing. Bridges again have lives 50, 75, even 100 
years in some cases. Many times that is not by design but just 
by necessity that bridges have to last longer than they were 
ever thought to. With that, if you look at a bridge that is 50 
to 75 years old, I have been with the state DOT almost 26 
years. That is nearly two careers for somebody in my position 
to see, you know, the life of a bridge; and many times, it 
takes a structure that is, you know, 30 to 40 years old before 
something comes up, very similar again to the analogy with a 
person; and you do whatever is appropriate. You know, you find 
something that requires constant monitoring, you look at it 
until you get it arrested or corrected. If you find something 
else that you need to look at, you look at it once and then you 
don't go back in there. You wouldn't expect to find it again 
for five to 10 more years. However you would still do the 
routine physical so to speak, the visual inspection of the 
bridges.
    Mr. Ehlers. And one last quick question on a slightly 
different subject but same problem. Dams, and I am not talking 
now about the huge dams, I am talking about the smaller dams 
that we have dotting the landscape of our country that we used 
for power generation years ago. Is it as important to have a 
constant inspection program for the dams? Is that as much of a 
problem or don't they suffer as much stress or as much failure 
as the bridges?
    Mr. James. While those are not under my purview as highway 
engineer, in many cases we have dams adjacent to roadways, and 
obviously we are concerned with them. Many states or most 
states have monitoring procedures whereas dams have to be 
inspected on some frequency, just similarly to bridges; and 
where appropriate, they could be monitored and from that 
monitoring you could determine whether or not that you have an 
intrinsic or chronic problem with a structure.
    Mr. Ehlers. My time has expired. I yield back. Thank you.
    Mr. Wu. Thank you very much, Dr. Ehlers. We have a floor 
vote coming up fairly soon, so we are going to proceed with 
another round of questions. We will probably proceed pretty 
quickly, and the Chairman recognizes himself.
    There are bridges in this country that have lasted 50 or 
100 years. There are bridges elsewhere, the Roman aqueducts, 
bridges in China, that have lasted 1,000 years; and the bridges 
that have lasted a long time were both conservatively, perhaps 
over-engineered, they have lasted a long time. We have newer 
bridges that are being built with the assistance of computer 
modeling and, you know, just going if you will closer to the 
limits of what design and materials can do. Do these new 
designs necessitate different approaches to bridge inspection 
and bridge safety?
    Mr. Bernhardt. Yeah, I would certainly answer yes to that 
question. A good example would be the use of post-tensioning or 
pre-stressing of concrete beams in bridges. You may have post-
tensioning cables inside of a bridge to give it strength, but 
you could never see through those cables. So certainly you 
constructed a bridge where one of the primary structural 
elements you will never be able to visually see. In that case, 
you must have some type of sophisticated, non-destructive 
evaluation method to examine those structural elements 25 years 
from now, 50 years from now as those elements start to 
deteriorate inside the bridge itself.
    Dr. Womack. Let me add a couple of words to that. This is 
where I think the research in non-destructive evaluation can 
occur. We have developed technologies to look at the bridges we 
have. Now, with these newer bridges and newer construction 
methods, we don't necessarily have the technologies to assess 
those as in post-tension or pre-tension bridges. So we need to 
develop through research concepts that we can use to non-
destructively evaluate these newer types of bridges. So along 
with the new design, we need to come up with new ways of 
evaluating them through testing.
    Mr. Judycki. Let me just add a couple of things and then 
just ask Mr. Tang to follow up. Quite a lot of the research 
investments now are in new materials for bridges and it is 
critically important that as we explore the application of new 
material, ultra-high-performance concrete, high-performance 
steels and so forth--that we assure in advance that we build 
that into codes and standards and specifications as we 
implement around the country. SAFETEA-LU in fact directs quite 
a lot of resources into research into new materials that will 
lead to new designs as we conduct our research.
    Also, I had mentioned earlier the Bridge of the Future. 
Much of what we are talking about really needs to be put in the 
context of where we should be looking for the future and where 
research can bring us in the future. The Long-Term Bridge 
Performance Program was mentioned by a couple of people here at 
the table. And it is critically important that we collect 
information and data over a long-term so that we can develop 
predictive models on deterioration and impacts of maintenance 
on bridge systems. When we are really talking about a bridge of 
the future, that we will have bridges that are not only 
constructed with ultra-high-performance materials but also 
sensing systems that will help us a great deal in overcoming 
some of the barriers that we are now facing with inspection 
programs.
    Mr. Tang. Mr. Chair, I believe when you mentioned about the 
deterioration rate of different types of bridges, they indeed 
have differences. Most of the damage comes from corrosion, and 
if you look at the bridges that we built in the past, corrosion 
has been the major contributor to bridge deficiency; and as a 
result, Federal Highway has done a lot of research on corrosion 
aspect of it. If you look at 20 years ago, 25 years ago, we 
didn't have any corrosion protection on our deck. Federal 
Highway went out and did the research, and using the results, 
we are now requiring, or we then have required a corrosion 
protection system on our deck system to make it last longer. 
And also, our corrosion research in our Turner-Fairbank 
Facility has also looked at epoxy-coated rebar, and now we are 
looking at galvanizing those rebar and stainless steel, which 
we are implementing in our projects now. And in the design 
code, the AASHTO LRFD code requires a 75-year design life, and 
they actually have criteria specifying that design life to be 
considered in the design.
    Mr. Wu. Thank you very much. My understanding is that Mr. 
Hall has no further questions at this point. Dr. Gingrey?
    Mr. Gingrey. Thank you, Mr. Chairman. I want to state at 
the outset when I made that comment about directed initiatives 
and the concern that it might handcuff the bureaucrats as we 
like to say sometimes, not meaning that in a pejorative way 
from making decisions, certainly my colleague from Texas, if 
every Member's member initiatives were as good and honest and 
forthright as hers are, we wouldn't have a problem with 
earmarks I am sure. But I just, you know, brought that up 
because I am concerned that maybe there are certain areas in 
which member initiatives may not be appropriate if it takes 
funding away from something that we need to do.
    But let me get to my question. I just wonder if there is 
some technique other than visual inspection. We talked about 
that a lot at this hearing, and we know that we have good 
visual inspectors. But is there some technique non-destructive 
that can be used as a retrofit for existing bridges? The bridge 
of the future, I think that is probably easier to deal with in 
how we construct new bridges and sensors and things that we can 
put. But is there something that we can use in existing 
structures in a non-destructive way that goes far beyond visual 
inspection?
    Mr. Bernhardt. I will take a stab at that one. Basically I 
think what you are asking is--I mean, there is no magic bullet, 
first of all. There are many different types of bridges, and 
what technique works on one certain type of bridge will not 
work on another one. So there are many specific types of 
testing that work on specific bridges. I think what holds the 
greatest promise would be structural health monitoring. If you 
can instrument a bridge and thus know day to day a little bit 
more about what is going on inside that bridge, that reduces 
your level of risk. I mean, engineers tend to be conservative 
by nature, and if I have to make a decision to close a bridge 
or keep it open, I am going to typically be conservative. But 
if I have hard data that I can look at each day that lets me 
know how that bridge is behaving, then maybe I can stretch the 
life of that bridge a little bit longer because I get a better 
comfort level since I am getting that data. So instrumentation 
can give you that.
    Mr. Gingrey. Anybody else want to comment on that?
    Mr. Tang. Yes, I believe some of the sensor technology is 
very good, and some of the existing bridges we have used 
acoustic emission monitoring or ultrasonic type testing device 
and sensor technology on that now we are hoping to research to 
find ways to put them into practice. For example, it is not 
like one-size-fits-all as Mr. Judycki mentioned earlier. We 
have to look at the specific problem and the nature of the 
needs of the bridge. I think there are technologies out there 
that will be appropriate, and we just need to further develop 
them because right now a lot of that information is available, 
but it is not proven. And as Mr. James mentioned earlier, we 
are looking at proven technology. And so it would take time to 
develop some of these into usable results so that you don't 
just have a lot of data coming in and not knowing what to do 
with those data.
    Mr. Gingrey. Thank you, Mr. Chairman. I yield back.
    Mr. Wu. Thank you. And as we bring this hearing to a close, 
I want to thank our witnesses for coming, in some instances, 
very long distances and for testifying before the Committee 
today. The record will remain open for additional statements 
from Members and for answers to any follow-up questions the 
Committee may ask of witnesses. The witnesses are now excused, 
and the hearing is adjourned.
    [Whereupon, at 11:38 a.m., the Committee was adjourned.]


                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by Dennis C. Judycki, Associate Administrator, Research, 
        Development, and Technology, Federal Highway Administration, 
        U.S. Department of Transportation

Questions submitted by Chairman Bart Gordon

Q1.  One of the major challenges facing the Nation's bridges is 
significant growth in traffic loads, including a greatly increased 
number of long haul trucks, which stress bridges far beyond the loads 
engineers originally anticipated. In his testimony, Mr. James said that 
the volume of freight is actually expected to double in the next 20 
years. How do current research projects, such as the Bridge of the 
Future project at FHWA, take into account the continuing growth in the 
number of cars and trucks using bridges? Do we need additional research 
or data to accurately model the types of loads bridges will be handling 
in 50 or 100 years?

A1. The issue of traffic growth impacts existing structures more so 
than newly designed structures. Today's bridge codes and standards 
account for the current legal weight of trucks, regardless of the 
number of vehicles. Assuming that truck weights do not increase 
significantly, structures designed today should be able to accommodate 
the volume of, and growth in, the number of vehicles crossing a typical 
highway bridge in the United States.
    However, traffic growth will impact existing structures, especially 
those that were constructed in the 1940s through 1970s, more directly. 
Legal truck loads have increased over this time, resulting in a number 
of ``load posted'' bridges throughout the United States. In addition, 
our knowledge of how certain types of steel and concrete members and 
details perform under repetitive loading has increased since these 
structures were designed and constructed. Bridge owners are fully aware 
of the potential impacts and solutions required to provide adequate 
levels of safety in these existing structures under the current maximum 
legal vehicle weights. This is typically done by limiting the maximum 
loading, inspecting important structural details with more advanced 
tools and on a more frequent basis, or by retrofitting these structural 
details.
    Two FHWA programs, the Bridge of the Future and the Long-Term 
Bridge Performance Program, are directly focused on providing better 
knowledge and tools for ensuring long, reliable service of the Nation's 
highway structures. The Bridge of the Future project is focused on 
design, materials, and construction practices that will make possible 
significantly longer performance for newly constructed (or 
reconstructed) bridges, so that they require less maintenance in the 
future, while also being more readily adaptable to meet changes in 
demand (for example, simple methods to add additional lanes when 
traffic volumes increase significantly). The Long-Term Bridge 
Performance Program is focused on developing quantitative data on the 
things that impact existing bridge performance, such as load, 
environment, and typical maintenance practices. This program will 
result in better knowledge and tools to more effectively and 
economically manage the hundreds of thousands of highway structures in 
the future.

Q2.  Many bridge inspection technologies are not adopted by State DOTs 
because inspectors simply find them too technical and difficult to use. 
How can we balance the need for detailed, accurate information and user 
friendly design?

A2. The problems that bridge inspectors experience are similar to 
problems experienced in the inspection of other types of 
infrastructure, including buildings, pipelines, offshore oil platforms, 
and dams. There is therefore a significant amount of effort ongoing 
throughout the United States and worldwide to develop new and improved 
infrastructure inspection tools and approaches. As a result, the state-
of-the-art in infrastructure inspection is changing and improving on a 
continuous basis and we anticipate dramatic improvements in these 
inspections tools and their availability in the next five to ten years.
    There are several impediments, however, to the adoption of these 
new tools and technologies by bridge inspectors. As pointed out, some 
of the current tools are too technical or difficult to use, especially 
in the harsh environments and difficult access typically found at 
bridges. This is being overcome by continuous improvement in these 
technologies--by making the information provided more readily 
understandable; by making the tools smaller, lighter, and more 
portable; and by decreasing the cost so that bridge owners and 
inspectors can better afford these new tools. However, education and 
training on the use of these new tools is also required. Through the 
training courses developed and delivered by our National Highway 
Institute, FHWA educates inspectors on new technologies to overcome the 
issues of technical complexity. FHWA is committed to working with 
industry and bridge owners to address each of the potential 
impediments.

Q3.  Of the new technologies developed at Turner-Fairbank Highway 
Research Center or in collaboration with FHWA, how many are currently 
in use by bridge inspectors? Which programs, such as the Local 
Technical Assistance Program or National Highway Institute courses, 
have been most effective for technology transfer? What have been the 
biggest barriers to adoption, and what has FHWA done to try to overcome 
those barriers?

A3. Over the past 15 to 20 years, a number of bridge inspection and 
monitoring technologies have been developed or supported through the 
efforts of FHWA's Turner-Fairbank Highway Research Center (TFHRC). 
Overall, we can identify approximately 15 specific sensors and system 
types, many of which have been commercialized or are currently being 
refined for use by the commercial sector.
    Examples of these technologies include the following:

        <bullet>  FHWA developed a system to measure vertical and 
        rotational stiffness of bridge foundations using truck loads as 
        a method to differentiate between shallow and deep foundations 
        on bridges where the foundation type is unknown. The 
        methodology was subsequently commercialized and is currently 
        available from a firm located in Arlington, MA.

        <bullet>  FHWA developed three-dimensional imaging capabilities 
        using ground penetrating radar (GPR) technology, enhancing the 
        ability of GPR to detect deterioration in concrete bridge 
        decks. The technology has been adopted by commercial GPR 
        venders and is used for rapid evaluations of multiple bridge 
        decks, providing information for bridge management and asset 
        management decision-making.

        <bullet>  FHWA developed a sensor to passively measure the 
        maximum strain experienced on a bridge to detect and quantify 
        overloading. The sensor has been commercialized and is 
        currently available from a firm in Alpharetta, GA.

        <bullet>  In cooperation with Southwest Research Institute (San 
        Antonio, TX), FHWA developed and evaluated systems for testing 
        large bridge cables using the magnetic flux leakage principle. 
        The technology has since been commercialized and is being 
        marketed by several companies.

        <bullet>  FHWA developed methods and engineered systems for 
        rapidly applying thermal imaging for the detection of defects 
        in concrete bridge components. This has since been 
        commercialized and is marketed as Infrared Thermography, and is 
        used on a limited basis for bridge inspection.

    FHWA continues to support the development of new bridge inspection 
and monitoring technologies and to assist in the improvement of 
existing technologies. We also actively promote and provide assistance 
in the use of these systems. Ultimately, however, a key measure of 
success of any highway technology depends on its acceptance by 
stakeholders on a national scale. FHWA's responsibilities for research 
and technology (R&T) include not only managing and conducting research, 
but also sharing the results of completed research projects, and 
supporting and facilitating technology and innovation deployment.
    The FHWA Resource Center is a central location for obtaining 
highway technology deployment assistance. Similarly, education and 
training programs are provided through the FHWA National Highway 
Institute. These, along with the capabilities provided by the Local 
Technical Assistance Program (LTAP), Highways for LIFE, and other 
similar DOT-sponsored programs and activities provide the basis for an 
effective technology transfer program.
    There are, however, a number of barriers to technology deployment 
that may explain the relatively slow adoption of highway technologies 
that appear cost effective. Lack of information about new technologies 
is one barrier that may be overcome with information and outreach 
programs. Long-standing familiarity with existing technologies, gained 
through education or experience, also may hamper the adoption of newer 
technologies, but the education and training programs provided by FHWA 
and others often help to transcend these types of barriers.
    It also may be difficult for stakeholders to envision the long-
range benefits of a new technology relative to initial investment 
costs, especially if the payback (break-even) period is long. Even if 
stakeholders are aware of eventual cost savings from a more efficient 
or effective highway technology, they may have confidence in 
traditional methods. Demonstration projects that provide hands-on 
experience can help tip the scale so that stakeholders are willing to 
apply innovative technologies to long-standing safety and asset 
measurement and protection problems.
    Despite these efforts, technology deployment often is slowed by 
residual uncertainties about performance, reliability, installation, 
and maintenance costs; availability of the next generation of the 
technology; and the need for the necessary technical and physical 
infrastructure to support the technology in question.

Q4.  In his testimony, Dr. Womack argues that the laboratories at 
Turner-Fairbank Highway Research Center (TFHRC) are underutilized. At 
what percentage of capacity are the labs at TFHRC being used? What 
types of projects are being delayed or foregone because of budgetary 
and other limitations?

A4. Research and development work conducted by the Federal Highway 
Administration is managed and directed by FHWA technical experts, and 
is primarily awarded through competitive contracts. Much of the work is 
done at the TFHRC--the only national highway research center in the 
United States--or is managed by FHWA research staff. In addition to 
competitive contracts, FHWA also works in close collaboration with 
University Transportation Research Centers (UTCs), and with other 
organizations in limited situations via cooperative agreements and 
research grants.
    The FHWA bridge and structures R&T program is authorized in 
SAFETEA-LU through the Surface Transportation Research, Development, 
and Deployment Program (STRDD). However, statutorily designated 
projects and programs in STRDD actually exceed the authorized contract 
authority of $196.4 million for fiscal years (FYs) 2006-2009. The over-
earmarking of all authorized STRDD funding necessitates across-the-
board funding reductions and results in FHWA being unable to provide 
for any discretionary or flexible spending beyond those earmarks. This 
lack of flexible funds severely limits FHWA's ability to investigate 
and respond to current or emerging research needs that do not have 
specific statutory funding.
    In addition, this lack of R&T funding flexibility within SAFETEA-LU 
does not allow FHWA to carry out some critical programs and 
initiatives. For example, as a result of the I-35W bridge collapse in 
Minnesota, the country recognizes the need for a higher level of 
investment to improve bridge inspection and evaluation technology. The 
lack of flexibility and the full designation of all SAFETEA-LU R&T 
funds, however, prevent FHWA from adjusting priorities as a result of 
tragedies like I-35W.
    Some TFHRC structures R&T program laboratories, including the main 
structures testing facility, are essentially at capacity as a result of 
programs authorized in SAFETEA-LU and included in the annual FHWA 
appropriations. Other laboratories, such as the aerodynamics, 
hydraulics, and bridge management information systems laboratories, 
have only marginal funding via SAFETEA-LU, but have effectively 
leveraged other sources of funding so they can continue to conduct 
important research and technology studies. Leveraging funding from 
multiple States via the Transportation Pooled Fund (TPF) program is an 
example. However, the lack of flexibility noted above does impact 
FHWA's ability to address national research needs and priorities to 
which these laboratories could contribute.

Questions submitted by Representative Ralph M. Hall

Q1.  In 2004 the Federal Bridge Program provided $6.6 billion in aid in 
addition to $3.9 billion in State and local funding yielding 
approximately $10.5 billion a year in bridge rehabilitation and 
construction investments. Compared to this amount, how much money is 
invested in bridge safety research and development? How does the 
funding for bridge related research compare to the total research 
investment in the transportation sector? Has the funding received by 
Turner-Fairbank been sufficient to keep your experts working at full 
capacity?

A1. The Surface Transportation Research, Development, and Deployment 
Program (STRDD) has contract authority of $196.4 million but, in FY 
2007, was funded at only $180.8 million due to the limitation on 
obligations. Of the $180.8 million, about $22.4 million (12.4 percent) 
was designated for bridge and structures research and technology.
    For STRDD, statutory earmarks and statutorily designated programs 
authorized in SAFETEA-LU total $228.8 million in FY 2007, which exceeds 
the authorized funding level. With the cuts required to all STRDD 
programs in order to stay within contract authority and those required 
to stay within the obligation ceiling, only about 79 percent of the 
authorized funds were made available.
    However, the designation and earmarking of all authorized STRDD 
funding for FYs 2006-2009 created more of an issue than a funding cut. 
Over-designation and over-earmarking also resulted in the inability to 
provide for any discretionary spending. Thus, there is no funding for a 
number of programs that are authorized by Congress, and FHWA believes 
are critical to delivering a sound R&T program, but which do not have 
specific statutory funding. Annually, there are about $30 million in 
research and technology activities and programs that were funded in the 
Transportation Equity Act for the 21st Century (TEA-21), the 
authorizing legislation prior to SAFETEA-LU, that are not able to be 
funded in SAFETEA-LU because all STRDD funds are designated.
    In addition to bridge and structures research being conducted by 
FHWA, a number of other organizations sponsor bridge research, and a 
much larger group of agencies conducts bridge R&T. Included among these 
are State DOTs, industry, other federal agencies, and academia. FHWA 
actively coordinates the National research program with our partners 
and stakeholders for agenda-setting, and in the conduct of research and 
delivery of new innovations. FHWA staff participate in numerous 
national and international organizations and serve on committees 
focused on bridge research, development, and technology transfer. FHWA 
organizes formal technical advisory groups and technical working 
groups, comprised of federal, State, and local transportation 
officials; bridge engineering consultants and industry groups; and 
academia. Further, numerous organizations in other countries also 
conduct bridge research, and other transportation modes, including the 
railroad industry, conduct a limited amount of bridge research.
    FHWA technical staff at the Turner-Fairbank Highway Research Center 
fulfill several important roles. In addition to the conduct of applied 
and advanced research, they support the deployment and transfer of new 
technologies, and also provide technical assistance to states, the 
National Transportation Safety Board, and others. The range of needs, 
whether it be important research studies or technical assistance 
requests, far exceed the time and resources available to address these 
needs. FHWA staff therefore work on a continuous basis essentially at 
capacity.

Q2.  How many privately owned bridges are part of the public roadway 
system? Since these bridges are not required to be inspected as part of 
the National Bridge Inventory, do we have any data reflecting the 
structural health and safety of privately held bridges?

A2. The December 2006 National Bridge Inventory (NBI) identifies 
roughly 1,865 privately owned highway bridges. However, the actual 
total number of privately owned highway bridges is unknown because the 
states are not required to report them to the FHWA.
    Condition information is available for those privately owned 
highway bridges that are currently identified in the NBI.

Q3.  In Mr. Bernhardt's testimony, he aptly notes that, simply 
collecting more data and providing more frequent inspections will not 
improve overall bridge safety: and that eventually bridges must be 
rehabilitated or replaced. The age distribution for all U.S. bridges is 
remarkably flat, however. Twenty-five percent are under 20 years old. 
Over half the bridges in the U.S. are under 40 years old, and over 
eighty percent are under 55 years old. How much do we know now about 
the rates of deterioration for bridges and how those rates change over 
time? Are we confident that current levels of investment for bridge 
replacement will not keep up with rehabilitation needs?

A3. Significant research has been conducted on the deterioration rates 
of bridges and the individual elements comprising bridges. The rate of 
deterioration is influenced by many factors. These include the original 
design of the structure, the climate where the bridge is located, the 
load carried by the bridge over time, and the type of maintenance 
activities performed on the bridge. The combination of this wide number 
of factors complicates the prediction of the rate of deterioration for 
an individual structure.
    It is widely recognized by FHWA and others that the type of data 
currently collected and maintained in the National Bridge Inventory 
(NBI) is not adequate for developing sophisticated deterioration and 
life cycle cost models for bridge components and structures. That is 
why the Administration requested, and Congress authorized, the Long-
Term Bridge Performance Program (LTBPP) in the surface transportation 
reauthorization legislation that ultimately became SAFETEA-LU. The 
LTBPP is intended to collect much more detailed information and 
quantified data on specific bridge elements for a small but 
representative population of bridges. Much of this data will be 
obtained through advanced testing and analysis. This detailed data can 
then be used to enhance and improve existing deterioration models, 
improve design and inspection practices, and identify cost-beneficial 
preservation activities.
    While it is understood that the collection of more data will not in 
itself improve overall bridge safety, the information gathered through 
such activities can be useful in the selection and timing of 
maintenance procedures to be conducted on the bridge. The application 
of properly timed and appropriate maintenance procedures can 
significantly extend the normal service life of structures, allowing 
many older bridges to function adequately well beyond their original 
estimated design life.
    The 2006 Status of the Nation's Highways, Bridges and Transit: 
Conditions & Performance report to Congress had projected that the 
combined level of bridge rehabilitation and replacement investment by 
all levels of government in 2004 of $10.5 billion would be adequate to 
reduce but not eliminate the current backlog of economically 
justifiable bridge investments, if this spending level were sustained 
in constant dollar terms over 20 years. The Maximum Economic Investment 
scenario presented in the report projected that an average annual 
investment of $12.4 billion (in 2004 dollars) by all levels of 
government would be needed to eliminate the existing bridge investment 
backlog and correct other deficiencies that are expected to develop 
over the next 20 years.

Q4.  Mr. Bernhardt testimony notes that a FHWA study in 2001 determined 
that less than eight percent of inspectors could successfully locate 
certain defects in test bridges. How confident are you in the current 
inspection regime's ability to consistently identify potential safety 
hazards? How confident are you that they identify needed repairs before 
they become major reconstruction? How does FHWA ensure that its 
training courses are up to date and effective in transferring knowledge 
to the trainees?

A4. The 2001 FHWA report identified several concerns with the type and 
quality of inspections at that time. However, it must be recognized 
that this was only a very limited sample and did not completely 
represent actual bridge inspection practices. The research methodology 
that was used had several important limitations, including the 
following:

        <bullet>  The inspectors involved in the project were not 
        necessarily representative or had the level of training 
        required of those who conduct in-depth or fracture critical 
        member inspections, yet they were tasked to do so as part of 
        this study.

        <bullet>  The inspectors involved in the study were not 
        provided with any history on the sample bridges and were not 
        able to take advantage of previous engineering analysis or 
        information. Such information is typically reviewed by the 
        inspector prior to conducting the next inspection on that same 
        structure.

    As a result of the study and its recommendations, a number of 
improvements were made to the National Bridge Inspection Standards. 
Specifically, the regulations were revised to incorporate a requirement 
to establish quality control/quality assurance procedures, along with 
additional training and refresher training requirements. Inspector 
training courses and certification requirements were also upgraded, 
providing for a higher level of inspector competency. And, a number of 
clarifications were provided to the definitions and descriptors that 
inspectors use in reporting the results of the inspections.
    The results of this study were widely publicized by FHWA, thereby 
creating a broad awareness of the issues and greater attention to the 
need for improved quality. This report certainly provided a wakeup call 
regarding some aspects of the national bridge inspection program, and 
spurred significant improvements in the program. However, it is 
important to note that for the current investigation on the I-35W 
bridge in Minneapolis, there are no indications that the collapse 
occurred as a result of deficiencies in the State's inspection program.

Q5.  Many of the witnesses mentioned the Long-Term Bridge Performance 
Program in their testimony as particularly critical to bridge 
construction, inspection, and rehabilitation research programs. As I 
understand it, the program is to provide longitudinal data on the wear 
and tear on a variety of common bridge structures in the U.S. How does 
this data differ from what's been collected as part of the National 
Bridge Inventory for the past 40 years? Why don't we have records of 
the actual performance data of all bridges in the NBI and why can't 
those records be used for statistical studies of the effects of 
deterioration and increased use?

A5. The National Bridge Inventory (NBI) contains information at the 
bridge component level. For example, no matter how large a bridge, the 
overall condition of an entire superstructure is represented by a 
single number on a scale of 0 to 9. While the overall ratings contained 
in the NBI can be used to some extent to judge bridge performance, they 
are limited in their level of detail and sophistication.
    It is recognized that the NBI component ratings are based primarily 
on visual observations. Through the Long-Term Bridge Performance 
Program (LTBPP), the intent is to collect much more detailed 
information and quantified data on specific bridge elements for a small 
but representative population of bridges. Much of this data will be 
obtained through advanced testing and analysis. This detailed data can 
then be used to enhance and improve existing deterioration models, 
improve design and inspection practices, and identify cost-beneficial 
preservation activities.

                   Answers to Post-Hearing Questions

Responses by Harry Lee James, Deputy Executive Director and Chief 
        Engineer, Mississippi Department of Transportation; Member, 
        Standing Committee on Highways, American Association of State 
        Highway and Transportation Officials

Questions submitted by Chairman Bart Gordon

Q1.  In his testimony, Dr. Womack argued that the bridge deficiencies 
which garner the most public attention are usually fixed most quickly, 
which typically means potholes are given greater priority than 
structural problems that are not part of the deck or roadway. What can 
the Federal Government, State governments, academia, and the private 
sector do to better communicate about bridge dangers to the public?

A1. While no one should intentionally hide any bridge deficiencies from 
the traveling public, deficiencies are generally of a technical nature 
such that the general public may not understand the problem. Bridges 
carry loads across them and the practice of load posting a bridge with 
a deficiency is the best way to communicate with the public about this 
subject. A public awareness campaign to inform the public what load 
posting a bridge means would be most beneficial. When appropriate 
precautions are taken on a bridge that has load restrictions the bridge 
is not dangerous. We as a SHA do not operate unsafe bridges--we close 
them before they becomes dangerous.

Q2.  In your testimony, you mention that 40 states employ an element-
level inspection protocol that is beyond the federal requirements. How 
does this additional level of detail help you prioritize repairs and 
rehabilitation for your state's bridges? Should this type of inspection 
be required for all National Highway System bridges?

A2. The additional level of detail provided by the element-level 
inspection allows us to further prioritize repairs that are needed and 
determine the urgency of making those repairs. This level of inspection 
should be used where appropriate. It does not provide any additional or 
useful information for certain type structures.

Q3.  Has the Mississippi DOT adopted any new technologies for bridge 
inspection? What kinds of technologies were most successful, and why? 
What sort of training did your inspectors need to effectively use the 
new technology? For those technologies you decided NOT to adopt, what 
was your reasoning behind that decision?

A3. A few years ago MDOT purchased and received training for an 
ultrasound unit that can detect material flaws in metal structures in 
certain instances. While this is not new technology it was a new tool 
for us to have on hand. The training was provided by the vendor and by 
a consultant whom we had contracted with in the past to perform this 
type of work for us. It was helpful to have the capability in-house to 
use an advanced technology of this type. However, it also takes almost 
constant use of the device to remain proficient with this technology. 
Consequently, we still rely primarily on consultants to perform 
inspections using this technology.

Questions submitted by Representative Ralph M. Hall

Q1.  In 2004 the Federal Bridge Program provided $6.6 billion in aid in 
addition to $3.9 billion in State and local funding yielding 
approximately $10.5 billion a year in bridge rehabilitation and 
construction investments. Compared to this amount, how much money is 
invested in bridge safety research and development? How does the 
funding for bridge related research compare to the total research 
investment in the transportation sector?

A1. From my experience 6-8 percent of total research dollars are spent 
on bridge related research. This number is consistent with the 
expenditures for research that is conducted at the State level in MS as 
well.

Q2.  In your testimony you suggest that the State of Michigan has 
successfully developed an asset management system that is improving 
bridge safety in that state. However, according to 2005 and 2006 
National Bridge Inventories, Michigan had approximately sixteen percent 
of its bridges listed as structurally deficient, four percent above the 
national average. What metrics are not being captured by the NBI that 
point towards Michigan's success in this area?

A2. One would have to know what their percentage of structurally 
deficient bridges was when an asset management system was implemented 
in MI and how long it has been used. To see noticeable results after 
implementing an asset management system may take eight to ten years or 
more as it would have to be worked into the project development process 
with ongoing projects that were not prioritized under an asset 
management system. It would not be prudent to stop work on a project 
that has a large investment in it already and that may be on the verge 
of correcting a deficiency or situation. Stopping work on a project 
just because it has not gone through an asset management system just 
doesn't make sense.

                   Answers to Post-Hearing Questions

Responses by Kevin C. Womack, Director, Utah Transportation Center; 
        Professor of Civil and Environmental Engineering, Utah State 
        University

Questions submitted by Chairman Bart Gordon

Q1.  In your testimony, you argue that the laboratories at Turner-
Fairbank Highway Research Center (TFHRC) are underutilized. How does 
this affect bridge safety? If additional funds were available, what 
types of projects should be prioritized?

A1. The underutilization of laboratories at the Turner-Fairbank Highway 
Research Center (TFHRC) has a significant impact on bridge safety. 
These laboratories are state-of-the-art, and capable of being utilized 
to research new materials, designs, instrumentation, etc. Allowing 
these labs to sit idle delays the opportunities that the country has of 
implementing new technologies that could close the infrastructure 
investment gap. As for the issue of safety, concerns for the structural 
safety of bridges that should be researched may not be, due to the lack 
of funding to run the TFHRC laboratories. These could be issues arising 
from the I-35W bridge collapse to the falling of panels in the Ted 
Williams Tunnel in Boston.
    If additional funds were made available, the types of projects that 
should be executed at TFHRC are of two types: First, the type that 
might be too large to do elsewhere. The main structures lab at TFHRC is 
quite large and can handle very large structural elements that few 
other places can deal with. Second, special types of projects; those 
that might relate to unique types of bridges. The I-35W is an example 
of this. It is of a fairly unique design, which raises unique types of 
issues. Other bridges of this ``unique'' type could range from the 
Brooklyn Bridge to the Key Bridge in Baltimore to the Sunshine Skyway 
Bridge in Florida.
    The Long-Term Bridge Performance (LTBP) Program will handle the 
most common types of bridges that are of similar designs, structural 
make-up and construction. The majority of Interstate bridges fall into 
this category. They are bridges with simple steel or pre-cast concrete 
girders with cast-in-place decks. This type of bridge probably occupies 
about 80 percent of the NHS bridge inventory. These bridges can be well 
studied under the LTBP Program, and would not be good candidates for 
work in the TFHRC laboratories.

Q2.  In your testimony, you argue that a new inspection protocol needs 
to be developed for bridges. How would an updated inspection protocol 
differ from the current inspection protocol? What types of technology 
would be necessary to carry out the updated inspections? Are these 
technologies currently available to inspectors, and if not, what are 
the barriers to their adoption?

A2. A new well defined inspection protocol would differ from the 
existing in that a well defined existing protocol does not really 
exist, as far as I am aware. The I-35W bridge is a good example of 
that. It was inspected, determined to be structurally deficient, but 
then there was a quandary about what to do next? More frequent 
inspections, repair, instrumentation, etc., what to do? In the end, the 
decision to inspect annually, rather than biannually, was made. Did 
that work, in hindsight and all fairness to the Minnesota DOT, no; but 
would other DOT's done differently? Probably not. The issue becomes one 
of cost. To instrument such a bridge in a way that could provide real 
time data on its behavior could cost $500,000. To perform one time 
types of tests, to check for cracks, etc., could cost upwards of 
$100,000. To repair, possibly millions of dollars along with shutting 
bridge down and the inconvenience that would cause. To perform more 
frequent visual inspections, a few thousand dollars. But in the end, 
the cost could near $1 billion in terms of reconstruction and costs to 
individuals (not to mention the indeterminable cost of the loss of 
life). So are we being penny wise and pound foolish? Perhaps. This is 
not to say that if things were done differently the I-35W Bridge would 
not still have collapsed, you simply cannot cover all the 
possibilities, but a better chance of saving the bridge, and the lives, 
might have existed had things been done otherwise.
    The new protocol would indicate the next steps that should be taken 
after visual inspection determines a bridge to be structural deficient. 
The precise reasons for such a rating would be determined and the next 
steps would be based the causes of the structural deficient rating. 
Should the next steps be one time testing of bridge elements or an 
overall load rating test; or constant, real time monitoring through 
instrumentation; or minor repairs; or immediate closing of the bridge; 
all of this needs to be determined and developed through research that 
has the mandate of developing such a protocol.
    As for the technologies, they do exist, but can be expensive, thus 
they are not readily available to inspectors today. They can also be 
technically sophisticated and need trained personnel to operate. Again, 
this costs money. If a DOT wanted to instrument a bridge to provide 
real time performance data it can be done, and has been done on a 
segment of an Interstate bridge in Utah, but it is expensive. Such 
instrumentation could consist of accelerometers, velocity transducers 
(geophones), strain gauges, cameras, etc. All of which is available.
    Currently, NBIS regulations have the first option to have a 
Professional Engineer with the requisite experience and training to 
perform bridge inspections but they do have other lesser options which 
do not require bridge inspectors to be Professional Engineers. ASCE 
believes that non-licensed bridge inspectors and technicians may be 
used for routine inspection procedures and records, but the pre-
inspection evaluation, the actual inspection, ratings, and condition 
evaluations should be performed by licensed Professional Engineers 
experienced in bridge design and inspection. The NBIS regulations 
should be changed to require just Professional Engineers with 
appropriate experience such as the expertise to know the load paths, 
critical members, fatigue prone details, and past potential areas of 
distress in the particular type of structure being inspected as the 
lead bridge inspector. They must have the ability to evaluate not only 
the condition of individual bridge components, but how the components 
fit into and affect the load paths of the entire structure. The bridge 
engineer may have to make immediate decisions to close a lane, close an 
entire bridge, or to take trucks off a bridge to protect the public 
safety.

Questions submitted by Representative Ralph M. Hall

Q1.  In Mr. Bernhardt's testimony, he aptly notes that, ``simply 
collecting more data and providing more frequent inspections will not 
improve overall bridge safety'' and that eventually bridges must be 
rehabilitated or replaced. The age distribution for all U.S. bridges is 
remarkably flat, however. Twenty-five percent are under 20 years old. 
Over half the bridges in the U.S. are under 40 years old, and over 
eighty percent are under 55 years old. How much do we know now about 
the rates of deterioration for bridges and how those rates change over 
time? Are we confident that current levels of investment for bridge 
replacement will not keep up with rehabilitation needs?

A1. We do not know a lot about the rates of deterioration of bridges 
and how those rates change over time. This is one objective of the 
Long-Term Bridge Performance (LTBP) Program, to provide data that will 
give an indication as to how deterioration occurs, under what 
circumstances, and how it changes with time. I am very confident that 
the current levels of investment will not keep up with the future 
repair and replacement needs.
    One very simple reason for that is the increase in the cost of 
commodities that have occurred over the past five years. Prices for 
steel, cement, aggregate, and last but not least, oil have increased 
dramatically. Much of this is due to development overseas, China chief 
among these countries. There is little evidence that these countries 
are going to slow down their development in the near future.
    You state in your question that over half the bridges in the 
country are less than 40 years old, looking at this a different way, 
then a number approaching half the bridges in the country are more than 
40 years old. This is a second reason I am sure that we will continue 
to experience an investment gap. A typical design life for a bridge is 
50 years, as these bridges approach this age, they will need to be 
repaired or replaced. This is an astronomical number of bridges, the 
likes of which we have not had to deal with in the past, and we cannot 
even keep up with the current surface transportation system investment 
needs.

Q2.  Many of the witnesses mentioned the Long-Term Bridge Performance 
Program in their testimony as particularly critical to bridge 
construction, inspection, and rehabilitation research programs. As I 
understand it, the program is to provide longitudinal data on the wear 
and tear on a variety of common bridge structures in the U.S. How does 
this data differ from what's been collected as part of the National 
Bridge Inventory for the past 40 years? Why don't we have records of 
the actual performance data of all bridges in the NBI and why can't 
those records be used for statistical studies of the effects of 
deterioration and increased use?

A2. The National Bridge Inventory does not have any of the type of data 
that would be collected from the Long-Term Bridge Performance (LTBP) 
Program. The LTBP data will be collected mainly through live load 
testing, instrumentation to provide constant monitoring of bridge 
behaviors, and forensic testing of bridge elements that will be taken 
from razed bridges. This will provide data outside the NBI, and will 
help us to answer your first question about bridge deterioration.
    We don't have the records of performance data for bridges over the 
past 40 years because the technologies in instrumentation and data 
collection that we have today has not existed over that time period, 
and it is very expensive. Without a special program like the LTBP 
Program, with funds dedicated to this purpose, this type of data would 
still not be collected on a large scale.

Question submitted by Representative Daniel Lipinski

Q1.  In your written testimony, you reference a current shortage of 
civil engineers in the United States, as well as a clear need for 
increased licensed professional engineers. How do you believe we can 
encourage more students to enter this field of work?

A1. The shortage of civil engineers and civil engineering students 
directly impacts the number of civil engineers that are currently 
licensed and will be licensed in the future. Much of this problem is 
the fault of the civil engineering profession. We, as a profession, 
have done a poor job of marketing civil engineering as a profession. 
Engineering students have to go through an undergraduate curriculum 
that is harder than any other that exists on a college campus, more 
difficult than even those that are used to enter MBA programs, law, 
medical or dental schools. Unless young people are really set on going 
into civil engineering they do not see the point in going through such 
a difficult curriculum to be a civil engineer when they can be a 
doctor, lawyer, dentist, aerospace or computer engineer and make much 
more money.
    As a profession, we need to do more to attract young people to 
civil engineering. We need to let them know of the dire need for civil 
engineers, particularly in transportation. We also need to make 
salaries that young civil engineers will get more competitive with the 
aerospace and electrical engineers. When articles such as the one in 
USA Today on October 12th (Engineers Step up Recruiting Efforts) appear 
and show the salary disparity in the different types of engineering 
professions, with civil engineers at the bottom, it is difficult to 
recruit civil engineers. The market will take care of some of this 
difference, but by the time the market really does react and the 
principal of supply and demand creates a rise in the salaries for civil 
engineers, the shortage of civil engineers will be extreme, and I 
believe harmful to the infrastructure of this country due to the lack 
of properly trained engineers.
    As for what the Congress might do to assist in this recruitment of 
civil engineers, one thing that comes to mind is a loan forgiveness 
program as is done for educators. If a person graduates in an 
accredited civil engineering program and goes to work for a city, 
county, state or other type of governmental agency their students loans 
could be forgiven based on some sort of schedule. In the short-term, 
this could alleviate some of the salary disparity. Another approach 
would be to encourage the exposure of engineering (all types) to K-12 
students. Right now they see the sciences, and are exposed to other 
professions in their daily lives, but K-12 age kids really have little 
exposure to civil engineers.
    Ultimately, ASCE believes that it is critical to provide all 
students, no matter what careers they ultimately pursue, with a strong 
background in basic mathematics and science to enable them to 
participate in our increasingly technical society. We must prepare 
those students who want to pursue careers based in mathematics and 
science with the necessary skills in these subjects. And finally, we 
must encourage highly qualified students to pursue careers based in 
mathematics and science and more specifically in civil engineering.
    Over half of the economic growth today can be attributed directly 
to research and development in science, engineering and technology. Our 
ability to maintain this economic growth will be determined largely by 
our nation's intellectual capital. The only means to develop this 
resource is education.
    Recent assessments by the U.S. Department of Education of the 
progress of students' performance in various subject areas, including 
science, math, engineering and technology education, have concluded 
that the grasp of science and math by U.S. students is less than that 
of their international peers. It is also notable that over half of U.S. 
graduate students in science and math are foreign-born.
    For these and other reasons, the implementation of the 
recommendations of the NSB in their report on math and science 
education is critical. The proposal to coordinate and facilitate STEM 
programs through a National Council for STEM Education has merit and 
should be supported by Congress. Other recommendations to focus 
attention on STEM education in federal agencies also have merit.
    Civil engineering professionals, however, hold the final 
responsibility of growing the pool of civil engineers and civil 
engineering students that can become licensed professional engineers. 
This needs to be a PR effort and a financial one by the consultants and 
government employers to increase the salaries of young civil engineers. 
The American Society of Civil Engineers can, and has in the past, play 
a major role in this effort and in working with Congress to improve the 
environment for young people to enter the civil engineering profession.

                   Answers to Post-Hearing Questions

Responses by Mark E. Bernhardt, Director, Facility Inspection, Burgess 
        & Niple, Inc.

Questions submitted by Chairman Bart Gordon

Q1.  You discuss your company's involvement in the inspections of steel 
truss bridges following the I-35W collapse in your testimony, but point 
out that ``in general, the inspections were carried out in the same 
manner as those completed prior to the I-35 collapse.'' In your 
opinion, what was the value of these new inspections? What sort of 
guidance or technical assistance could FHWA provide to make these 
inspections more valuable? Did the re-inspection alert you to any new 
problems, and how did you or the relevant state DOT deal with those 
problems?

A1. The primary value of the supplemental deck truss inspections 
performed in the aftermath of the I-35W collapse was to help in 
reassuring the American public that bridges are indeed safe. Since it 
has not yet been determined what caused the I-35W bridge collapse; 
i.e., latent design defect, construction overload, ongoing 
deterioration of primary bridge members, etc., it would be premature to 
redefine NBIS procedures at this time. It may turn out that the 
collapse is not something that could have been prevented by enhanced 
bridge inspection practices. Once the cause has been determined, the 
FHWA, along with the bridge engineering community, will be able to 
determine if modifications to inspection procedures are indeed 
warranted. The re-inspections of deck truss bridges performed by 
Burgess & Niple found no new significant deficiencies that required 
immediate repairs. All findings were transmitted immediately to the 
appropriate state transportation agency personnel.

Questions submitted by Representative Ralph M. Hall

Q1.  In your testimony, you note that, ``simply collecting more data 
and providing more frequent inspections will not improve overall bridge 
safety'' and that eventually bridges must be rehabilitated or replaced. 
The age distribution for all U.S. bridges is remarkably flat, however. 
Twenty-five percent are under 20 years old. Over half the bridges in 
the U.S. are under 40 years old, and over eighty percent are under 55 
years old. How much do we know now about the rates of deterioration for 
bridges and how those rates change over time? Are we confident that 
current levels of investment for bridge replacement will not keep up 
with rehabilitation needs?

A1. Many studies have been done with respect to methods by which to 
accurately model bridge deterioration. In one accepted approach the 
condition of a bridge or an element of a bridge is characterized in 
terms of a set of possible condition states. The deterioration of that 
element is represented as the successive occurrence of transitions from 
one state to another. The likelihood of these transitions occurring 
during a certain time period is dependent on such factors as loading 
conditions, environmental effects, levels of maintenance and repair, 
etc. Markov process assumptions are used to estimate transition 
probabilities from one condition state to the next with a key 
assumption being that transition probabilities are independent of the 
element's previous states. Another common approach uses statistical 
regression to develop relationships between condition measures and 
parameters presumed to have a causal influence on condition. More 
knowledge of the physical and chemical deterioration mechanisms and 
further detailed study of bridge behavior would likely improve the 
accuracy of these deterioration models. Although, the issue is not that 
we do not know now when repairs should be made, it is that 
transportation agencies lack the funding necessary to repair and 
maintain their bridge inventories to the desired condition standard.
    ASCE's Report Card for America's Infrastructure from 2005 concluded 
that $9.4 billion per year over the next 20 years is needed to 
eliminate bridge deficiencies and an additional $7.3 billion annually 
is needed to prevent the bridge deficiency backlog from increasing 
further.

Q2.  In your testimony you describe a ``general consensus within the 
engineering community that visual inspection practices must be 
supported by rigorous training, certification, and quality assurance 
programs.'' In your opinion, how does the current training regime 
offered by the National Highway Institute stack up in these areas?

A2. The FHWA/NHI Bridge Inspection Training Program, namely the three-
week comprehensive training, is designed to bring individuals with at 
least a high school diploma to entry level participation in bridge 
inspection related work, notably field inspection activities. However, 
in 23 CFR 650 Sub Part C National Bridge Inspection Standards, sections 
650.309 Qualifications of Personnel, only three classifications of 
bridge inspection staff, ``Program Manager,'' ``Team Leader,'' and 
``Underwater Bridge Inspection Diver,'' have minimum qualification 
requirements. Each of these classifications uses the comprehensive 
training as a baseline for qualification but none of them are entry 
level positions. The current minimum specifications in the NBIS for 
training and qualifications for Program Managers and Team Leaders are 
somewhat sound, however clear statements should be added that address 
the following recommended improvements:

        <bullet>  The current Team Leader classification title should 
        be modified to Team Leader I. The minimum qualifications in 
        NBIS for this classification are adequate for bridge structures 
        that are not deemed complex and for structures that are not 
        already classified as structurally deficient.

        <bullet>  A new classification for ``Team Leader II'' should be 
        introduced for structures deemed complex and for structures 
        that are already classified as structurally deficient. Minimum 
        qualifications for this classification should include: A BS in 
        engineering from an ABET accredited institution, passing of the 
        Fundamentals of Engineering exam, at least two years experience 
        with bridge safety inspections and completion of FHWA 
        comprehensive training.

        <bullet>  Engineering judgment is frequently required to assign 
        condition ratings to important structural components of a 
        bridge. Since the PE in responsible charge may not personally 
        inspect all items at arm's length, he or she must be able to 
        rely on a person with sufficient understanding of structural 
        systems to assist in the assignment of condition ratings to 
        structural components. The Team Leader I and Team Leader II 
        concept support this.

        <bullet>  State agencies across the United States have the 
        ability to utilize personnel other than licensed Professional 
        Engineers to inspect bridge structures. This is being done 
        primarily because the National Bridge Inspection Standards 
        (NBIS) allows experience to substitute for a professional 
        engineering license. Under NBIS guidelines, a person without 
        any formal educational training in structural engineering can 
        be a Program Manager or Team Leader with ten and five years 
        experience, respectively. This should be changed to mandate 
        professional licensing in addition to accumulated relevant 
        experience for the Program Manager position. The proposed Team 
        Leader II classification addresses this issue with team 
        leaders.

        <bullet>  Alternate specifications for comprehensive bridge 
        inspection training for licensed engineers and persons with a 
        secondary education that includes bridge engineering.

        <bullet>  There should be a correlation between complexity of 
        structure, and level of training and experience. The Team 
        Leader I and Team Leader II concept support this.

        <bullet>  Improvements can also be made to the certification 
        process. See below.

    Many State DOTs already have some form of bridge inspector 
certification process in place to support qualification requirements. 
They review individual's experience and qualifications and issue a 
unique CBI (Certified Bridge Inspector) Number to qualified inspectors 
(Florida and Oregon are examples). States that do not have a formal 
process often request certificates of NHI training and PE licensure 
from consultants that they hire to perform inspection work as a way to 
verify credentials.
    Also, in many states, consultants need to be ``pre-certified'' for 
bridge inspection work, just like any other engineering service, prior 
to submitting on contracts.
    Greater accountability demands a higher level of competency and 
this can be achieved through a certification process that incorporates 
rigorous testing. The current FHWA/NHI training program provides the 
information necessary for competent performance. However the testing in 
place primarily evaluates learning to satisfy IACET requirements for 
continuing education eligibility. For the proposed entry level ``Bridge 
Inspector'' and the proposed ``Team Leader I,'' this is adequate; 
however for the proposed ``Team Leader II'' classification, it is not.
    The introduction of a Federal Certification process would normalize 
skill levels of personnel performing bridge inspections nationwide and 
should include the following:

        <bullet>  Definition of inspector classifications based on 
        skill levels (i.e., Bridge Inspector--1, Bridge Inspector --2, 
        Team Leader I, Team Leader II, Bridge Inspection Diver, Program 
        Manager).

        <bullet>  Documentation of background education.

        <bullet>  Documentation of completed bridge inspection 
        training.

        <bullet>  Documentation of skill level proficiency test scores.

        <bullet>  Documentation of relevant experience.

        <bullet>  Assignment of a unique certification number/
        designation that reflects the classification/skill level 
        achieved.

        <bullet>  Issuance of a federal certificate that reflects the 
        classification/skill level achieved.

    The NHI has the ability to track and maintain inspector 
certification on a national basis. State agencies could build on a 
federal certification process for specific needs and applications 
within their state.

Q3.  One method to push new promising technologies has been to widely 
disseminate results from specific demonstrations. Are individual 
demonstration projects sufficient to jump-start a transportation 
technology, given the risk aversion and conservative nature of the 
civil engineering profession?

A3. Demonstration projects provide the hard data that can demonstrate 
the viability of emerging technologies and weed out those that do not 
provide useful results. Many of the newer technologies have higher 
initial costs than traditional visual inspection techniques, but are 
likely to result in more cost-effective bridge management over the life 
of a structure. Engineers are probably reluctant to adopt technologies 
if they are skeptical of the long-term cost benefits. Proposed projects 
such as the FHWA's Long-Term Bridge Performance Program will be 
structured to gather the data necessary to answer questions related to 
the actual cost benefits of emerging bridge testing and monitoring 
technologies.

Q4.  Mr. Bernhardt, you note in your testimony that a FHWA study in 
2001 determined that less than eight percent of inspectors could 
successfully locate certain defects in test bridges. How confident are 
you in the current inspection regime's ability to consistently identify 
potential safety hazards? How confident are you that they identify 
needed repairs before they become major reconstruction?

A4. If an inspector is properly trained and certified; is focused on 
the job at hand; understands the responsibility associated with bridge 
inspection; has had the opportunity to gain experience while working 
under the direction of more senior bridge inspectors; is comfortable 
working within a particular bridge's environment; has adequate time 
allotted and equipment provided to permit the inspector to get within 
arm's length of all critical members; has at least a basic 
understanding of structural mechanicals; and established quality 
control and quality assurance procedures are followed, potential safety 
hazards, structure deficiencies, and needed repairs can be successfully 
identified.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record

                  Statement of Christopher C. Higgins
             Oregon State University College of Engineering

    I thank the Committee for the opportunity to provide this written 
testimony on research needs and actions necessary to help ensure the 
safety of the Nation's existing bridge inventory. On-going research at 
Oregon State University, funded through the Oregon Department of 
Transportation, has focused on field and laboratory testing, 
nondestructive evaluation, analysis, rating, and evaluation of existing 
aging and deteriorated bridges. We are also applying high-performance 
materials and techniques for repair and strengthening of existing 
bridges as well as developing tools to more directly quantify risks 
associated with operational conditions thereby enabling better informed 
bridge management decisions. This testimony reflects these experiences 
and addresses some of the current limitations in understanding aging 
and deteriorated bridges and highlights some of the pressing research 
needs.
    Bridges are a unique type of structure that must withstand a wide 
array of forces including wind, earthquakes, floods, impacts, and 
traffic loads, among others. Further, they are exposed to variable 
seasonal climatic conditions and millions of repeated cycles of load 
with magnitude and volume that have continued to increase over time. 
These combined influences can result in strength deterioration of the 
bridge members and connections and without sufficient inspection, 
maintenance, and intervention can result in collapse. Engineers have 
little information on the combined influences of applied structural 
loading with variable environmental conditions such as freeze-thaw, 
chloride exposure, and extreme seasonal temperature changes. Some of 
the new materials being developed for bridge strengthening rely on 
bonding to the bridge surfaces that may be more susceptible to 
environmental factors. Significant additional research on large-sized 
bridge members under combined structural and environmental loading are 
required to ensure performance of new strengthening techniques and 
materials.
    We must better address the large number of aging bridges that 
remain in the national inventory. These aging bridges contain materials 
and structural details that are very different from our modern design 
and construction practice. Better quantifying the safety of these 
bridges is a national need. Engineers commonly apply design and rating 
tools developed for new bridges to older bridges often without 
sufficient data to know if these are applicable. As an example, 
engineers are now rating some bridges for strength (collapse state) 
that were designed by an older method called working stress design 
(service level state). We cannot now be certain how some of these older 
designs will perform at the strength condition. There is a significant 
research need to better quantify the actual strength of older bridges 
that will remain in the national bridge inventory. An important focus 
should be on in-situ testing to failure of decommissioned bridges using 
realistic loading conditions. These tests need to be supported with 
laboratory tests to make the best linkage with existing data. Research 
programs like this are very expensive, but can provide significant 
savings if engineers can have confidence in the tools used to quantify 
remaining capacity of existing bridges and preclude unnecessary 
replacement or restrictions.
    Bridges often sustain damage and deterioration over time. The most 
significant contributor to deterioration is corrosion. Current data 
available to evaluate corrosion damaged bridge members is exceedingly 
limited and generally based on small-sized laboratory specimens. This 
lack of data leads to great uncertainty in predicting remaining 
strength and ductility of corrosion damaged bridges. Current techniques 
often assign crude reduction factors based on subjective visual 
inspection of overall condition. These factors have no scientific 
basis. Research is needed to develop techniques for evaluation of 
corrosion damaged bridge members. This research must be on large-size 
samples that realistically reflect actual bridge members and the 
combined influences of applied fatigue loading with impressed corrosion 
need to be considered. Additional investment in laboratory research 
facilities is required to adequately address this need.
    Advancement generally relies on more sophisticated techniques and 
physical resources that may not be readily available within a 
transportation agency or consultancy. These include more complicated 
analytical and computational methods (nonlinear models, probabilistic 
methods, etc.), as well software and hardware resources such as finite 
element software and computing power. Having knowledgeable in-house 
technical staff that can understand and fairly evaluate advancements 
are critical for research adoption/adaptation. We need to be able to 
educate the next generation of engineers that can supply this technical 
competence and can better handle the probabilistic nature of the 
problems we encounter, can understand and apply the more sophisticated 
analytical techniques being developed, and can effectively communicate 
with public stakeholders and inform public policy.
    Additional research funding or reallocation of existing resources 
between ``research'' and ``planning,'' as well as a greater focus on 
bridge infrastructure by University Transportation Centers is needed. A 
national research center focused on safety evaluation of existing 
bridges that draws on expertise from across the country, as in the 
framework of the National Science Foundation's Earthquake Engineering 
Research Center program, would be a logical and fruitful outcome. There 
is much research to be done to enhance our understanding of bridge 
deterioration and our ability to evaluate the safety of existing bridge 
members, connections, and systems. We need to develop new techniques 
for evaluation of bridge infrastructure deterioration, develop health 
monitoring and effective strengthening/rehabilitation approaches, 
consider more directly safety and risk (specifically quantify risks) 
for bridges and operating conditions, and indeed look at system level 
performance to facilitate ideal resource allocation. With such 
compelling research outcomes it is possible to transform the state-of-
the-art to protect the safety of the Nation's bridges.

Respectfully,

Christopher C. Higgins, Ph.D., P.E.
Associate Professor
Oregon State University

                              Statement of
                              Michael Todd
             Associate Professor of Structural Engineering
                   University of California-San Diego

                                  and
                             Charles Farrar
                   Leader, The Engineering Institute
                     Los Alamos National Laboratory
    First we wish to sincerely thank the Committee on Science and 
Technology for holding this hearing, and for the opportunity to present 
this supplemental written testimony. We hope to add a perspective that 
complements the very informative discussions provided during the live 
testimony by representatives of FHWA, AASHTO, ASCE, and ACEC. It is 
encouraging that the Committee has taken up the very important issue of 
infrastructure (and specifically, bridge) condition and safety. Our 
nation's infrastructure safety has direct impact upon our country's 
economy and security, and we agree that there is no better time than 
the present to investigate the current state of infrastructure damage 
assessment technology to determine both what is being done and what 
could be done for future improvements. While the engineering community 
of bridge experts does not yet know what led to the recent I-35 bridge 
collapse in Minneapolis, this disaster nonetheless unfortunately 
brought to popular consciousness the dramatic consequences of such a 
structural failure.
    By way of introduction, we are mechanical (Michael Todd) and civil 
(Charles Farrar) engineers who currently co-lead the Engineering 
Institute (http://www.lanl.gov/projects/ei/index.shtml), a joint 
research and educational collaboration between the University of 
California-San Diego Jacobs School of Engineering and the Los Alamos 
National Laboratory that focuses upon the fields of structural health 
monitoring and damage prognosis. Prior to joining the University of 
California San Diego, Prof. Todd had a seven-year career in leading DOD 
research and development programs at the U.S. Naval Research 
Laboratory, and Dr. Farrar has spent 25 years in numerous forms of 
technology development, transition, and leadership at Los Alamos 
National Laboratory. Prof. Todd and Dr. Farrar together have 23 years 
experience in the structural health monitoring and damage prognosis 
fields.
    The process of implementing a damage detection strategy for 
aerospace, civil and mechanical engineering infrastructure is referred 
to as structural health monitoring (SHM). This process involves the 
observation of a structure or mechanical system over time using 
periodically spaced dynamics response measurements, the extraction of 
damage-sensitive features from these measurements, and the statistical 
analysis of these features to determine the current state of system 
health. For long-term SHM, the output of this process is periodically 
updated information regarding the ability of the structure to continue 
to perform its intended function in light of the inevitable aging and 
degradation resulting from its operational environments. Under an 
extreme event, such as an earthquake or unanticipated blast loading, 
SHM is used for rapid condition screening. This screening is intended 
to provide, in near real time, reliable information about system 
performance during such extreme events and the subsequent integrity of 
the system. Damage prognosis (DP) extends the SHM process by 
considering how such an assessment, when combined with a probabilistic 
model of future environmental and operational loading conditions can be 
used to forecast metrics of system performance useful to the owners, 
such as remaining system life and maintenance scheduling. The 
Engineering Institute is the only university/national laboratory 
collaboration, to the best of our knowledge, in the United States that 
is promoting a focused research-driven graduate education in the SHM 
and DP fields, leading to next-generation engineers trained in critical 
inter-disciplinary skills required to solve the complex SHM/DP problems 
associated with long-term infrastructure life cycle engineering and 
management.
    This testimony will pose five questions for consideration by the 
Committee. We believe that these are among the important questions that 
both the engineering/technical community and the policy-makers should 
be addressing as we jointly assess how the SHM/DP fields are being 
applied or could be applied to infrastructure condition monitoring and 
remediation.

(1)  What is the current state-of-the-art in damage detection 
strategies for infrastructure such as bridges?

    In 1992, an extensive survey of bridge failures in the United 
States since 1950 was presented by Shirole and Holt.\1\ These authors 
point out that at that time the responses of engineers to bridge 
failures was reactive as is the case with most unanticipated failures 
of engineered systems. Bridge design modifications and inspection 
program changes were made in response to catastrophic failures. The 
collapse of the Tacoma Narrows Bridge more than a half century ago is a 
classic example of this reactive approach because it led to the 
inspection and design modifications of other suspension bridges. The 
widespread introduction of the current federally mandated systematic 
bridge inspection program was directly attributed to the catastrophic 
bridge collapse at Point Pleasant, WV, in 1967.\2\ Design modifications 
for seismic response of bridges have been made as a direct consequence 
of damage sustained by these structures during the 1971 San Fernando 
Earthquake (Gates, 1976).\3\ Damage leading to bridge collapse also 
occurs as a result of collisions and scour (the process where increased 
fluid velocity usually associated with a flood removes supporting soil 
from the base of a bridge pier). For example, the AMTRAK railroad 
bridge collapse near Mobile, Alabama, in 1993 resulted from the 
collision of a barge with the bridge pier.
---------------------------------------------------------------------------
    \1\ Shirole, A.M. and R.C. Holt, 1991, ``Planning for a 
Comprehensive Bridge Safety Assurance Program,'' Transportation 
Research Record, 1290, pp. 39-50.
    \2\ White, K.R., J. Minor, and K.N. Derucher, 1992, Bridge 
Maintenance, Inspection and Evaluation, Marcel Dekker, New York.
    \3\ Gates, J.H., 1976, ``California's Seismic Design Criteria for 
Bridges,'' ASCE Journal of Structural Engineering, 102, pp. 2301-2313.
---------------------------------------------------------------------------
    At present, bridges are required to be rated and monitored during 
biennial inspections, largely with the use of visual inspection 
techniques. As needed, these visual inspections are augmented with 
traditional local nondestructive evaluation (NDE) techniques. However, 
because these NDE techniques inspect only a very small area of the 
structure, they require some a priori knowledge of the possible damage 
location before they can be used effectively. These techniques are not 
employed in a continuous manner and, in general, they require that the 
portion of the structure being inspected is readily accessible. There 
is the possibility that damage can go undetected during the visual 
inspections or that damage in load-carrying members can grow to 
critical levels between inspection intervals as the recent collapse of 
the I-35 Bridge in Minneapolis has made all too clear.
    In an effort to move from the current qualitative visual 
assessments to more continuous and more quantified structural health 
monitoring procedures, the civil engineering community has studied 
global vibration-based damage assessment of bridge structures since the 
early 1980's. The fundamental premise of these methods is that the 
measured vibration response of the bridge is a function of the mass and 
stiffness properties of that structure. Damage will alter the stiffness 
properties of the bridge and these changes will be detected in the 
measured vibration response. To date, these methods, which make use of 
off-the-shelf sensing technology, have only been shown to be effective 
after significant damage had been sustained by the structure. These 
damage levels are well beyond those that would be considered necessary 
to safely shut the structure down before catastrophic failure. In 
addition, environmental and operating condition variability as well as 
the physical size of these structures has presented significant 
challenges to the implementation of such bridge monitoring approaches. 
Although numerous studies focused on the development of more advanced 
structural health monitoring approaches have been undertaken, none have 
been shown to be more effective than the current biannual visual 
inspection techniques currently in use by state highway departments.

(2)  What new technologies are under development that could aid in 
infrastructure SHM/DP health management strategies?

    SHM/DP technologies can roughly be categorized into sensing/
networking, which is the way various data are obtained from the 
structure and managed through networks of sensors and possibly 
actuators, and data interrogation, which are the algorithms used to 
extract meaningful damage-related information from the data and then 
use that information to form robust assessments about the structure's 
current health state. Stated succinctly, SHM/DP has been enabled by the 
revolution in microelectronics over the past few decades. These 
advances are making more ubiquitous sensing on large-scale structures 
economically feasible. Systems with greater sensor density include 
traditional wired sensor networks and more recently, new wireless 
sensor networking paradigms. Wireless sensor networks can potentially 
better address the need for more continuous monitoring in the field, 
where the traditional design of wired sensors connecting to a 
centralized data acquisition and storage hub is not always practical. 
Many bridges or other infrastructure simply do not have a convenient AC 
power supply to which one can ``plug in'' their sensor network. 
Decentralized sensor network architectures rooted in wireless sensing 
and telemetry can address this issue by providing local sensing 
``nodes'' where sensing, control, computing, and telemetry are all 
integrated in relatively low-power platforms. These platforms can 
communicate with each other as needed to move information through the 
network using an energy efficient ``hopping'' protocol where data are 
transmitted from node to node and eventually to a base station. While 
many researchers have advanced (and continue to advance) such wireless 
sensor nodes in the last 10 years (e.g., see the work by Lynch, et 
al.\4\ ), these nodes still have some limitations in bandwidth (how 
much data or information can move around the network in time), local 
data storage (how much data or information can reside on the node 
during local processing), and what types of specific sensors can 
interface with them. These limitations are all related to the 
availability of power. Currently, the majority of these sensor nodes 
use batteries as the local power source. Although the nodes are 
designed to be extremely power efficient, the batteries represent a 
limited-life component that has to be periodically replaced. For large 
bridge structures, the locations where one might need such a sensor 
node can make it very costly to replace the batteries and can pose a 
safety concern for the technician who has to perform this duty.
---------------------------------------------------------------------------
    \4\ A.T. Zimmerman and J.P. Lynch, ``Automated Damage Estimation in 
Wireless Sensing Networks Using Parallelized Model Updating,'' 6th 
International Workshop on Structural Health Monitoring, Stanford, 
California, September 11-13, 2007.
---------------------------------------------------------------------------
    Consequently, researchers are also currently investigating 
strategies that employ energy harvesting or an alternate ``on demand'' 
energy delivery system that makes use of power supplied by autonomous 
vehicles such as small robotic helicopters or cars.\5\ The Engineering 
Institute team recently demonstrated such a system for the first time 
on an out-of-service bridge near Truth-or-Consequences, New 
Mexico.\6\<SUP>,</SUP>\7\ Here the term ``energy harvesting'' refers to 
the process of converting ambient energy sources available in the 
bridge's operating environment to useful electric energy. Available 
energy sources include solar and the bridge's own mechanical vibration 
energy from traffic loading. Small commercially available off-the-shelf 
solar cells are readily available to power these sensor nodes. 
Mechanical energy typically is transformed into electric energy by 
actuating a piezoelectric material that produces an electrical charge 
when strained.
---------------------------------------------------------------------------
    \5\ G. Park, C.R. Farrar, M.D. Todd, W. Hodgkiss and T. Rosing, 
``Power Harvesting for Embedded Structural Health Monitoring Sensing 
Systems,'' Los Alamos National Laboratory report, LA-14314-MS (2007).
    \6\ D. Mascarenas, M.D. Todd, G. Park, and C.R. Farrar, ``A Low-
Power Wireless Sensor Node for Peak Displacement and Bolted Joint 
Preload Measurements,'' 6th International Workshop on Structural Health 
Monitoring, Stanford, California, September 11-13, 2007.
    \7\ M.D. Todd, D. Mascarenas, G. Park, C. Farrar, K. Farinholt, T. 
Overly, and M. Nothnagel, ``A Different Approach to Sensor Networking 
for SHM: Remote Powering and Interrogation with Unmanned Aerial 
Vehicles,'' 6th International Workshop on Structural Health Monitoring, 
Stanford, California, September 11-13, 2007.
---------------------------------------------------------------------------
    From the sensing perspective another area of emerging technology is 
the use of active sensing technology. Most earlier work on structural-
health monitoring strategies for civil engineering infrastructure 
relied on the ambient loading environment as an excitation source and, 
hence, are referred to as passive sensing systems. The difficulty with 
using such excitation sources is that they are often variable and 
distributed over a wide area of the structure making these inputs 
almost impossible to measure. The variable nature of these signals 
requires robust data normalization procedures to be employed in an 
effort to determine that the change in the measured data is the result 
of damage as opposed to changing operational and environmental 
conditions. Also, there is no control over the excitation source, and 
it may not excite the type of system response useful for identifying 
damage at an early stage. As an alternative, a sensing system can be 
designed to provide a local excitation tailored to the damage detection 
process. Piezoelectric materials are being used for such active sensing 
systems. Because these materials produce an electrical charge when 
deformed, they can be used as dynamic strain gauges. Conversely, the 
same materials can also be used as actuators because a mechanical 
strain is produced when an electrical field is applied to the patch. 
This material can exert small predefined excitation forces into the 
structure on a local level. The use of a known and repeatable input 
makes it much easier to process the measured response signal for damage 
detection. For instance, by exciting the structure in an ultrasonic 
frequency range, the sensing system can focus on monitoring changes of 
structural properties with minimum interference from variability in 
traffic loading, which tend to be low-frequency in nature. Faculty and 
staff from the LANL/UCSD Engineering Institute (Prof. Lanza di Scalea 
and Dr. Gyuhae Park, as well as the authors) are among a small group of 
researchers in the U.S. leading the development of these active sensing 
approaches for civil engineering infrastructure damage assessment.
    From the data interrogation approach, researchers have recognized 
that the damage detection process is fundamentally a problem in 
statistical pattern recognition. Basically, the damage detection 
process requires one to identify changes in the pattern of the sensor 
readings that result from damage. Therefore, the extensive sets of 
machine learning and pattern recognition tools developed for 
applications such a speech pattern recognition and credit card fraud 
detection are also directly applicable to the damage detection problem. 
The adaptation and further development of such algorithms for the data 
interrogation part of the damage detection process has been pioneered 
by researchers at the Engineering Institute (Prof. Hoon Sohn of the 
Korean Advanced Institute of Science and Technology while a staff 
member at Los Alamos) working in conjunction with faculty from the 
University of Sheffield in the U.K. (Prof. Keith Worden). Such 
algorithms are now being embedded on the microprocessors that are 
integrated into the wireless sensing nodes in an effort to distribute 
the damage assessment process to the individual sensor nodes. The 
combination of this more ubiquitous sensing along with more robust data 
interrogation algorithms is giving engineers the hope that in the not 
too distant future continuous monitoring of damage initiation and 
accumulation in civil infrastructure will one day be a reality.

(3)  What are the barriers to transitioning SHM/DP technologies from 
research to practice?

    Other than in a very few areas such as the rotating machinery 
industry, SHM/DP technologies are still largely confined to laboratory 
demonstrations and not to industrial practice, despite the fact that 
SHM/DP technology traces its modern roots to the 1970s and 1980s, when 
the offshore oil, civil engineering, and aerospace communities first 
began exploring it. These technologies grew out of the more mature 
field of nondestructive evaluation and inspection, and it was motivated 
by engineers' desire to detect damage in an online manner (i.e., while 
the structure is in operational service) on a more global scale. There 
are several reasons why SHM/DP has not made the transition from 
research to practice, some technical and others not. One of the primary 
technical difficulties in shaping an SHM/DP strategy for something as 
complex as a bridge is the wide range of length and time scales over 
which different forms of damage can initiate and proceed. Fatigue 
cracking or stress corrosion cracking initiates on a very small 
(micrometer-level) length scale that is most probably detected only by 
a nondestructive inspection technique like ultrasonic inspection, which 
is very difficult to implement in an online, cost-efficient manner for 
large-scale structures. Also, depending upon loading and environmental 
conditions, cracks grow on both very slow (initially; measured over 
months or years in many cases) and very fast (near failure; measured 
over seconds) time scales. Furthermore, complex structures such as 
bridges can have a great diversity of degradation mechanisms (e.g., 
steel fatigue, concrete cracking, scour of soil around bridge piers, 
corrosion) that may all be occurring simultaneously, each on its own 
length and time scales. Such wide ranges in length and time demand very 
different sensing and data interpretation strategies, all of which make 
any sort of ``one size fits all'' SHM/DP strategy highly unlikely.
    A second challenge is that most SHM/DP technologies are being 
developed in research-oriented environments (such as a university) 
where there is limited ability to test the technologies on actual full-
scale structures in the field. A consequence of this limitation is that 
we in general have very little knowledge about the long-term durability 
of sensing networks that could be deployed as part of an SHM/DP 
strategy. The only experience with long-term sensor system deployment 
and monitoring of bridges comes from the relatively few bridges that 
are instrumented for seismic monitoring as part of the California 
Strong Motion Instrumentation Program. These arrays have provided the 
community with bridge (and other infrastructural) response to 
earthquake ground motion, which has served to significantly advance the 
fields of seismic retrofitting and new design paradigms. However, these 
arrays were not specifically designed or deployed for damage 
identification and monitoring studies. In addition, there are very few 
out-of-service bridges still standing that can serve as test beds for 
destructive testing on which researchers can validate their SHM/DP 
strategies under realistic operational and environmental scenarios. 
However, we are greatly encouraged by the FHWA's ``Long-Term Bridge 
Performance Program,'' as described by Dr. Steven Chase in a keynote 
lecture at the 6tn International Workshop on Structural Health 
Monitoring at Stanford University, on September 11-13, 2007. This 
program plans to develop the necessary long-term test beds needed to 
validate new SHM technology.
    Moreover, the funding levels normally accorded such researchers is 
not sufficient to sustain tests long enough to establish true proof-of-
concept. We applaud some of the state transportation agencies with whom 
we or our immediate colleagues have worked, such as CALTRANS and the 
New Mexico Department of Transportation, for their forward-thinking 
efforts in funding and/or facilitating research and development in SHM/
DP technologies for bridges. Overall, however, the funding levels that 
are typically allocated to such projects are well short of what is 
required. The model used by most funding agencies--the single Principal 
Investigator three-year award--typically amounts to between $250,000 to 
$300,000 total funds invested in the complete development, testing, and 
validation of the given technology. This funding level is not 
sufficient to transition a proof-of-concept demonstration to a 
reliable, field-deployable system. Moreover, these single-investigator 
funding levels are not nearly sufficient to integrate the many 
components required by the multi-disciplinary nature of SHM/DP 
technology development.
    As we alluded previously, there are non-technical challenges as 
well. Traditionally, many universities are not really established to 
support the kinds of large multi-disciplinary efforts required to bring 
such a technology to bear. Universities generally offer relatively 
narrowly-defined degrees (e.g., electrical engineering, mechanical 
engineering, etc.), when in fact the person optimally trained to 
develop SHM/DP technologies should be trained in aspects of many such 
degree programs. Additionally, universities also do not generally tend 
to encourage or reward the professoriate for undertaking such projects. 
Promotion and tenure is typically based on individual merit, not the 
success of teaming arrangements, particularly for junior faculty 
seeking tenure. Such a system does not encourage faculty to work 
together to solve complex problems or develop complex technologies that 
demand multi-disciplinary contributions. Clearly these are cultural 
issues that exist and must be addressed at the university level, and we 
recognize and commend the Committee for its efforts to promote 
interdisciplinary research, particularly via the National Science 
Foundation. The Engineering Institute has attempted to tackle some of 
these barriers by offering graduate degrees at the University of 
California San Diego that require course work in several departments 
and by funding graduate research projects that span several 
departments. It is our hope that such efforts will be replicated on a 
broader scale, and further encourage the university community to 
deconstruct these 'silo' models and to seek partnering opportunities 
not only across departments but also with each other in order to meet 
the multi-disciplinary needs of tomorrow's technologist.

(4)  How does the United States compare to other countries with respect 
to implementing SHM/DP technologies in infrastructure health 
management?

    A number of Asian countries have taken an increasingly proactive 
approach to infrastructure assessment and management. The Hong Kong 
(China) government, through the Highways Department of Hong Kong, has 
implemented a large-scale monitoring program on the Tsing Ma suspension 
bridge (and subsequently on another suspension bridge in the vicinity) 
whereby real-time data streams of bridge vibration/deflection, load, 
cable forces, wind speed, temperature, and visual camera images are 
synthesized in a master control center from which bridge management 
decisions regarding traffic patterns, speed regulations, load limits, 
and other such similar performance variables are continuously updated. 
Data are also being collected for long-term research efforts to 
identify damage detection and tracking algorithms that correlate with 
normal visual inspections and subsequent maintenance actions so that 
SHM/DP technologies may be field-validated over long times. The cost of 
this system has been reported as somewhere between $15-20 million. Even 
with this significant investment it is not clear that these researchers 
have a robust damage detection strategy in place. However, by 
allocating the resources for this system and by making a long-term 
commitment to acquire and analyze the data obtained, these researchers 
are better positioned to learn how to make accurate damage assessments. 
This project is just one of many significant bridge monitoring systems 
being deployed in China that we have heard about at international 
conferences on structural health monitoring. We are unaware of similar 
bridge monitoring projects of this magnitude in the U.S.
    In Seoul, Korea, the Seongsu Bridge collapsed suddenly in 1994 due 
to a structural failure, killing 32 people. As a result, the Korean 
government mandated that the infrastructure construction companies must 
provide monitoring systems for that infrastructure. Currently, these 
monitoring systems have only a limited number of sensors, and it is 
questionable if they will provide the necessary local information 
needed to identify local damage at its onset.
    We are also aware of other bridges in Thailand, Singapore, Taiwan, 
and Japan that have installed monitoring systems. Some of these 
monitoring systems have been purchased from U.S. companies such as 
Kinemetrics, Inc. in Pasadena, CA. However, to the best of our 
knowledge this company has not sold a system for monitoring a bridge in 
the U.S. Although there have been numerous large-scale SHM research 
projects on bridges in Europe, we are not aware of any long-term 
instrumentation projects in Europe that are as extensive as the ones 
being undertaken in Asia. There are companies in Europe such as VCE 
Holding in Vienna, Austria that specialize in monitoring civil 
engineering infrastructure. It was recently reported that they have 
done measurements on over 1,100 bridges in Europe.\8\ To paraphrase a 
quote from a recent keynote lecture on bridge structural health 
monitoring by a representative of this company, ``Monitored bridges and 
buildings in Europe and Asia are considered intelligent structures 
while monitored bridges and buildings in the U.S. are considered 
suspect.''
---------------------------------------------------------------------------
    \8\ H. Wenzel, ``SHM at the Civil Infrastructure: Applications, 
Recent Progress and Future Demands,'' Keynote lecture, 6th 
International Workshop on Structural Health Monitoring, Stanford, 
California, September 11-13, 2007.

(5)  What are elements that the U.S. Government should consider as it 
crafts an investment plan, both near-term and longer-term, for 
promoting the development of SHM/DP technologies, and facilitating 
---------------------------------------------------------------------------
their transition to practice for infrastructure health management?

    We begin by strongly encouraging the government, through its 
various funding agencies such as the National Science Foundation, the 
Federal Highways Administration, Defense Advanced Research Projects 
Agency, DOE, and the various DOD research offices, to substantially 
increase its emphasis on investment in SHM/DP technology development 
with specific attention to field deployment of test systems. Even more 
importantly, the share of this investment earmarked for development of 
basic science and engineering concepts, where the time to maturity is 
in the 5-10 year range, should be brought into balance with the much 
shorter time horizons associated with industrial times-to-market, 
typically 6-18 months. We believe the current funding profile that 
heavily weights the shorter time horizons exacerbates the technical 
challenges presented above. That is, there is inadequate funding to do 
exactly the kind of longer-term exploratory field deployments needed to 
transition the SHM/DP technology into practice. These short industrial 
times-to-market certainly have their place in infrastructure health 
management. Through SBIR and STTR small business programs, agencies can 
fund small studies on more mature technologies (for example, a new kind 
of sensor already prototyped) where proof-of-concept requirements are 
in line with these short industry time scales and can solve certain 
specific problems already identified.
    We believe that a sound renewed commitment to investing in 
fundamental science and engineering, particularly where multiple 
disciplines are integrated to solve problems at the systems level, can 
ensure a strong, balanced research investment portfolio that optimizes 
the return on that investment. The Committee has led by example on this 
front, setting forth an aggressive vision for a ten-year doubling of 
the NSF budget. Particularly given such an appropriate infusion of 
resources, federal funding agencies can easily be tasked with such a 
mission and put into a position of being encouraged and rewarded for 
cooperating to pool resources as necessary in the short-term in order 
to promote these multi-disciplinary field deployments.
    We urge that the engineering/technical community work proactively 
with policy-makers to develop, fund, and execute a comprehensive 
research, development, and transition plan that engages all technology 
developers with a reasonable balance of academic, industry, national 
laboratories and government partners.
    More specifically, we would like to reiterate our support of the 
FHWA's Long-Term Bridge Performance Program. Such test beds are 
absolutely essential to the further development, validation and field 
deployment of SHM technology as it is applied to bridge monitoring. We 
further recommend that funds are made available for each state 
transportation department to support the deployment of at least one 
large-scale, long-term monitoring system on a bridge that is of most 
concern. This funding must also provide for long-term management and 
analysis of the data obtained from such a monitoring system. Ideally, 
as part of these studies the more advanced structural health monitoring 
concepts will be directly compared to traditional inspection techniques 
over a long period of time. Such comparisons are necessary to validate 
the SHM methods and to show that these methods can provide a higher 
fidelity of damage detection and quantification than the current visual 
inspection methods.
    We recommend that policy-makers consider the significant amount of 
technology components being developed at universities, national 
laboratories and industry that are directly applicable to the bridge 
health monitoring problem. However, these technologies must be 
integrated in a systematic manner to best address the SHM problem as it 
applies to bridge structures as well as to all types of civilian and 
defense infrastructure. When technologies from all these sources are 
integrated though multi-disciplinary research teams such as the one 
formed by LANL and UCSD, solutions to the complex problem of structural 
health monitoring can be more rapidly advanced and deployed.
    Finally, although this document has emphasized the need for more 
research aimed at transitioning SHM technology from research to 
practice, we strongly urge policy-makers to continue to promote formal 
education innovation in this field. U.S. universities have a long 
history of being the best at training the technical specialists, and 
there will be always be a need for such specialists. However, for the 
U.S. to retain its technical advantage in the global economy, we must 
also be able to educate a new generation of multi-disciplinary 
engineers that can integrate diverse technologies to solve complex 
problems of national importance. In addition, technology leaders of the 
future will also have to be much more multi-disciplinary than in the 
past. A key aspect of The LANL/UCSD Engineering Institute is its 
proactive efforts to develop such a new multi-disciplinary degree 
program that focuses on training the next generation of engineers in 
SHM/DP and on training the next generation of technology leaders. It is 
our position that such formal multi-disciplinary education programs 
(not just multi-disciplinary research) need to be promoted as a 
national educational priority.
    Thank you again for this opportunity to submit testimony to the 
Committee, and we hope that we can serve as a resource to the Committee 
as it considers these and related issues of critical importance to our 
nation's infrastructure. The faculty, students, and staff of the LANL/
UCSD Engineering Institute looks forward to continued interactions with 
policy-makers, Federal and State Government agencies, and private 
industry that will further promote and deploy SHM technology on all 
types of aerospace, civil, and mechanical infrastructure.

                     Statement of Larry W. Frevert
                               President
                   American Public Works Association

    Mr. Chairman and Members of the House Committee on Science & 
Technology, thank you for the opportunity to submit testimony for the 
hearing, Bridge Safety: Next Steps to Protect the Nation's Critical 
Infrastructure. My name is Larry Frevert, President of the American 
Public Works Association (APWA). I submit this statement today on 
behalf of the more than 29,000 public works professionals who are 
members of APWA, including our nearly 2,000 public agency members.
    APWA is an organization dedicated to providing public works 
infrastructure and services to millions of people in rural and urban 
communities, both small and large. Working in the public interest, our 
members design, build, operate and maintain our vast transportation 
network, as well as other key infrastructure assets essential to our 
nation's economy and way of life.
    We join with others in expressing our deepest sympathy to everyone 
affected by the I-35W bridge collapse in Minneapolis on August 1. We 
remain saddened by this tragedy and continue to extend our support to 
local, State and federal officials working on recovery and rebuilding.
    The tragic failure of the I-35W bridge is a stark reminder of the 
importance of public infrastructure to the daily lives of all people 
and to the welfare and safety of every community. But this essential 
public asset is aging and deteriorating. It is suffering the effects of 
chronic under-investment and is in critical need of funding for 
maintenance, repair and improvement.
    Our nation's highway bridges are no exception. The average span 
currently is more than 40 years old. More than one in every four is 
rated structurally deficient or functionally obsolete and in need of 
repair, improvement or replacement. Of the more than 594,000 publicly-
owned bridges on which we depend for personal mobility and movement of 
freight, more than 158,000 are rated deficient, with more than 77,700 
classified as structurally deficient and more than 80,600 as 
functionally obsolete.
    Local governments own in excess of 300,000 bridges, more than half 
of publicly-owned bridges in the U.S. Of the total local inventory 
nationwide, 29 percent is rated structurally deficient or functionally 
obsolete.
    Standards have been in place since the early 1970s requiring safety 
inspections every two years for all bridges greater than 20 feet in 
length on all public roads. Some bridges may be subject to more 
frequent inspections, and some structures in very good condition may 
receive an exemption from the two-year cycle and be inspected once 
every four years. These inspections, carried out by qualified 
inspectors, collect data on the condition and composition of bridges.
    Structurally deficient bridges are characterized by deteriorated 
conditions of significant bridge elements and reduced load-carrying 
capacity. Functional obsolescence results from changing traffic demands 
on the structure and is a function of the geometrics of the bridge not 
meeting current design standards. Neither designation indicates a 
bridge is unsafe. But they do indicate a need for repair, improvement 
or replacement.
    We cannot ignore the under-investment in bridge maintenance, 
rehabilitation and replacement. It is a major contributing factor 
undermining efforts to adequately address deficiencies. Nationwide, the 
backlog of bridge investment needs is now estimated to total $65.2 
billion.
    As a nation, we are failing to meet the needs of a transportation 
system increasingly overburdened by rising travel, a growing population 
and more freight. Additional traffic volumes and heavier loads are 
placing ever greater stress on bridges often designed for lighter 
loads. The U.S. Department of Transportation reports that the funding 
backlog could be invested immediately in a cost-beneficial fashion to 
replace or otherwise address currently existing bridge deficiencies.
    Local governments' ability to fund necessary bridge improvements 
has eroded significantly over the years. They have limited financial 
means to adequately address deficiencies and typically do not have the 
capacity to do major repairs or capital work on the magnitude of a 
bridge replacement without funding support.
    Sharp increases in the costs of construction materials and supplies 
in the past few years are compounding the funding challenge for local 
governments. In Washington State for example, escalating material and 
supply costs and one of the largest construction programs in the Nation 
have had a severe impact on delivering local agency projects. It is not 
unusual to take 10 years or more from the time funding can be secured 
and replacement done. And with the recent industry cost index 
increases, the gap is growing and will continue to grow.
    Immediate action to increase investment is crucial to accelerating 
local bridge repair and replacement programs. Most bridges on local 
roads were either built to older standards or are so old they are in 
urgent need of repair or replacement. It is not uncommon that bridges 
have gone for years, even decades, without the appropriate action to 
repair or replace, due to lack of funds. This is particularly true in 
more rural areas.
    In many cases, locally-owned bridges were often designed to carry 
traffic volumes and loads less than present conditions demand. As 
congestion increases on the Interstate System and state highways, local 
roads become diversion routes, supporting ever increasing levels of 
usage. Freight volumes, too, have increased faster than general-purpose 
traffic, adding demands on all parts of the system. Automobile 
technology allowing for greater speeds has made many bridge geometrics 
substandard.
    Deficient bridges are rated, prioritized and repaired or replaced 
as funding is available. When funding is insufficient, deferred 
maintenance, increased inspections, weight limits and closures are 
often the only options.
    APWA has been and will continue to be an advocate for the 
development of public policies which ensure the safe and efficient 
management and operation of our public infrastructure. As Congress 
considers the needs of our bridge system, we urge you to consider the 
following recommendations.
    APWA supports a determined, comprehensive national effort to 
increase investment to eliminate the bridge funding backlog needed to 
repair, rehabilitate and replace all publicly owned bridges--including 
local bridges--as part of a zero bridge deficiencies goal. Such an 
effort, however, should not stop there. It needs sustained and 
sustainable funding to ensure ongoing system preservation and 
maintenance at a level necessary to prevent future deficiencies of all 
publicly-owned bridges.
    APWA also supports updating bridge inspection standards and 
strengthening data collection and reporting procedures; evaluating 
active bridge monitoring systems; and strengthening inspector 
qualifications and training and inspection technologies, research and 
procedures for all publicly-owned bridges, including those on our local 
system. We believe that a program to strengthen research, technology, 
procedures and standards must be supported by full federal funding 
necessary to carry out and sustain it.
    In conclusion, our nation's bridge system is aging, deteriorating 
and suffering the effects of decades of under-investment. The result is 
the unacceptably high levels of deficiencies we see today. APWA 
believes that working together in partnership with local, State, 
federal and private sector partners, we can and must take immediate 
action to address our bridge needs. But it will take funding and 
leadership. Increased investment to repair or replace deficient bridges 
is vital to achieve a safer and more efficient transportation network. 
A strengthened inspection program can help ensure that we make wise 
investments to maintain and preserve all bridges.
    Mr. Chairman, we thank you for holding this hearing and are 
especially grateful to you and Committee Members for the opportunity to 
submit this statement. APWA and our members stand ready to assist you 
and the Committee as we move forward to address our nation's bridge 
needs.


</pre></body></html>
